<html>
<title> - A REVIEW OF THE STATUS OF EMERGENCY MANAGEMENT IN THE UNITED STATES</title>
<body><pre>[Senate Hearing 112-354]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 112-354

  A REVIEW OF THE STATUS OF EMERGENCY MANAGEMENT IN THE UNITED STATES

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                      JUNE 8, 2011--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations


   Available via the World Wide Web: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=senate&committee=appropriations

                               __________


                    U.S. GOVERNMENT PRINTING OFFICE
66-754 PDF              WASHINGTON : 2012
____________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="593e2936193a2c2a2d313c3529773a363477">[email&#160;protected]</a>  











                      COMMITTEE ON APPROPRIATIONS

                   DANIEL K. INOUYE, Hawaii, Chairman
PATRICK J. LEAHY, Vermont            THAD COCHRAN, Mississippi
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 KAY BAILEY HUTCHISON, Texas
PATTY MURRAY, Washington             LAMAR ALEXANDER, Tennessee
DIANNE FEINSTEIN, California         SUSAN COLLINS, Maine
RICHARD J. DURBIN, Illinois          LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            LINDSEY GRAHAM, South Carolina
MARY L. LANDRIEU, Louisiana          MARK KIRK, Illinois
JACK REED, Rhode Island              DANIEL COATS, Indiana
FRANK R. LAUTENBERG, New Jersey      ROY BLUNT, Missouri
BEN NELSON, Nebraska                 JERRY MORAN, Kansas
MARK PRYOR, Arkansas                 JOHN HOEVEN, North Dakota
JON TESTER, Montana                  RON JOHNSON, Wisconsin
SHERROD BROWN, Ohio

                    Charles J. Houy, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

          Subcommittee on the Department of Homeland Security

                 MARY L. LANDRIEU, Louisiana, Chairman
             FRANK R. LAUTENBERG, New Jersey, Vice Chairman
DANIEL K. INOUYE, Hawaii             DANIEL COATS, Indiana
PATRICK J. LEAHY, Vermont            THAD COCHRAN, Mississippi
PATTY MURRAY, Washington             RICHARD C. SHELBY, Alabama
JON TESTER, Montana                  LISA MURKOWSKI, Alaska
                                     JERRY MORAN, Kansas

                           Professional Staff
                            Charles Kieffer
                              Chip Walgren
                              Scott Nance
                            Drenan E. Dudley
                       Rebecca Davies (Minority)
                        Carol Cribbs (Minority)

                         Administrative Support

                              Nora Martin
                      Courtney Stevens (Minority)
                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening Statement of Senator Mary L. Landrieu....................     1
    Prepared Statement of........................................     3
Statement of Senator Daniel Coats................................     5
Statement of Senator Thad Cochran................................     6
Statement of Senator Jon Tester..................................     6
    Prepared Statement of........................................     7
Statement of Hon. Craig Fugate, Administrator, Federal Emergency 
  Management Agency, Department of Homeland Security.............     7
    Prepared Statement of........................................     9
Realistic Planning and Preparedness..............................     9
A ``Whole Community'' Approach to Emergency Management...........    11
Communication in a Disaster Environment..........................    14
Statement of Rand Beers, Under Secretary, National Protection and 
  Programs Directorate, Department of Homeland Security..........    16
    Prepared Statement of........................................    17
Emergency Communications Responsibilities........................    17
Office of Emergency Communications...............................    18
NECP Goal Assessments............................................    20
Public Safety Broadband Network..................................    21
National Communications System...................................    23
Federal Emergency Management Agency and Office of Cybersecurity 
  and Communications Coordination................................    24
Dedicated Communications With Critical Infrastructure............    25
National Capabilities............................................    25
Emergency Response Systems.......................................    27
Madrid Exercises.................................................    28
Mobile Devices and Mobile Technologies...........................    28
Disaster Relief Fund.............................................    30
Fiscal Year 2012 Disaster Relief Fund Budget.....................    31
Disaster Assistance..............................................    32
Early Warning System.............................................    32
Hurricane Preparedness...........................................    33
Vermont Flooding.................................................    34
Disasters in Remote Areas........................................    35
Alaska--Catastrophic Planning....................................    36
International Partners...........................................    37
Statement of Mark Riley, Chief of Staff, Governor's Office of 
  Homeland Security and Emergency Preparedness, State of 
  Louisiana......................................................    39
    Prepared Statement of........................................    41
Statutory Initiatives............................................    42
Interoperability.................................................    43
Individual Communication and Social Media........................    44
Private Sector Initiatives.......................................    45
Command College..................................................    46
Urban Search and Rescue..........................................    46
Homeland Security Grant Program Funding..........................    46
Statement of David Vice, Executive Director, Integrated Public 
  Safety Commission, State of Indiana............................    49
    Prepared Statement of........................................    50
Interoperable Communications in Indiana--``Saving Money, Saving 
  Lives''........................................................    50
A Visionary and Inclusive Planning Process.......................    51
Balancing Technology With Financial Reality......................    51
Timing Is Everything.............................................    51
Why It Keeps Working.............................................    52
Issues for the Future............................................    53
Statement of Eddie Hicks, International Association of Emergency 
  Managers-USA, President and Director of Morgan County, Alabama 
  Emergency Management...........................................    53
    Prepared Statement of........................................    55
U.S. Council of the International Association of Emergency 
  Managers.......................................................    55
Morgan County, Alabama...........................................    55
Federal Emergency Management Agency Response to the Alabama 
  Tornadoes......................................................    56
The Impact of Programs Funded by This Subcommittee...............    57
Some Best Practices..............................................    58
Communications...................................................    59
Emergency Management Institute...................................    59
Statement of Ron Lane, Director, Office of Emergency Services, 
  San Diego County, California...................................    60
    Prepared Statement of........................................    62
Local Community Resilience.......................................    62
Additional Committee Questions...................................    69
Questions Submitted to Hon. Craig Fugate.........................    69
Questions Submitted by Senator Mary L. Landrieu..................    69
Questions Submitted by Senator Frank R. Lautenberg...............    72
Questions Submitted by Senator Daniel Coats......................    75
Use of Social Media During Disasters.............................    75
Questions Submitted to Rand Beers................................    76
Questions Submitted by Senator Mary L. Landrieu..................    76
Questions Submitted by Senator Daniel Coats......................    79
Interoperable Public Safety Communications.......................    79


  A REVIEW OF THE STATUS OF EMERGENCY MANAGEMENT IN THE UNITED STATES

                              ----------                              


                        WEDNESDAY, JUNE 8, 2011

                               U.S. Senate,
                 Subcommittee on Homeland Security,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:52 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Mary L. Landrieu (chairman) 
presiding.
    Present: Senators Landrieu, Leahy, Tester, Coats, Cochran, 
Murkowski, and Moran.


             opening statement of senator mary l. landrieu


    Senator Landrieu. Good afternoon, everyone. Let me call the 
subcommittee to order. This is the Subcommittee on Homeland 
Security appropriations hearing to consider the current status 
of emergency management in the United States and the important 
role particularly that the communications systems play in a 
disaster.
    Let me begin by apologizing for being just a few minutes 
late. I had the honor to present two of my outstanding nominees 
before the Judiciary Committee for both the fifth circuit and 
the eastern bench, and I was very pleased to do that. And I am 
sorry to delay everyone.
    I thank Senator Cochran for joining us, and Senator Coats, 
my ranking member, will be joining us in a minute. Senator 
Tester, thank you.
    Today, I welcome two panels of witnesses to discuss the 
current status of our emergency management operations in the 
United States. I think this hearing is timely considering we 
are still battling ongoing disasters and recoveries in almost 
40 States of our Union.
    Since Hurricane Katrina and the attacks on our country on 
September 11, policies and laws have been rewritten, and 
significant investments have been made in upgrading our 
emergency management systems.
    First, including investments in first-responder 
capabilities, communication systems, recovery relief, and 
rebuilding, significant change has happened at the local, 
State, and Federal levels of government, and within the private 
and nonprofit sectors as well.
    In the United States, emergency management, be it 
preparedness, response, or recovery, starts at the level of 
government closest to the people. If a local government is 
overwhelmed, the State must step up and provide support. If the 
State gets overwhelmed in its efforts, then the Federal 
Government steps up to provide support necessary to deal with 
the disaster in an orderly recovery process. This requires much 
advanced coordination and communication, first, to save lives 
and property and then to recover and rebuild smartly and 
quickly.
    While we will look at emergency management as a whole 
today, I also want a special focus on communications during a 
disaster, and Mr. Beers, that is why we had you attend 
especially. The ability of emergency response personnel to 
communicate in real time prior to, during, and immediately 
after the disaster is critical to establishing command and 
control at the scene of an emergency and to maintaining 
situational awareness. And it is not only communication between 
local, State government, and all the various law enforcement 
and first responders on the scene, it is also communication 
with constituents, with citizens. As new technology is 
developed, it is forging an evolution in the way we can 
communicate to be even better and be more responsive. So 
keeping up with this evolution is a challenge to the emergency 
management community. We will be exploring some of that today.
    The massive earthquake and resulting tsunami in Japan in 
March and the recent unprecedented flooding, tornadoes, and 
wildfires here in the United States are reminders that the 
Federal Government must continue to be a reliable partner with 
State and local governments, as well as with our private 
partners, to make sure that every community is prepared as 
possible, and can deal quickly and smartly with the disaster at 
hand, and then rebuild.
    And in tight budgets, which is the situation that we are 
in, and difficult political and economic conditions, it is more 
important than ever to evaluate and to look at what is 
happening out there in the field and allocate our dollars 
wisely and carefully.
    With that end, I welcome Mr. Craig Fugate, the 
Administrator of the Federal Emergency Management Agency 
(FEMA), and Under Secretary Rand Beers of the National 
Protection and Programs Directorate (NPPD).
    Mr. Fugate, let me conclude by saying a few things. In your 
testimony, you emphasized that it takes a whole community, not 
just the government, to ensure effective emergency management. 
I appreciate the important improvements FEMA has made, ensuring 
the needs of children are taken into account during disasters. 
It has been a focus of mine and other Senators as we realized 
with some great dismay that they had not been taken into 
consideration prior to Hurricanes Rita and Katrina and some of 
the other disasters along the gulf. For instance, planning for 
juvenile justice centers, pre-staging infant formula, baby 
food, and diapers. That is now standard operating procedure. It 
is important that the children, all 100 million of them, in our 
country should get our support, and I am pleased to see 
advancements in that area.
    Secretary Beers, you have taken the first step in testing 
our interoperable communications in urban areas and ensuring 
communications training and technical assistance is available. 
I will never forget speaking to the commander of the Alabama 
National Guard a few days after Katrina, and he said to me in 
between a CNN interview, he said, ``Senator, our communications 
is about where it was during the Civil War. We are literally 
having runners carry handwritten messages to communicate what 
our next steps should be.'' On that conversation, I thought if 
I could do something to upgrade our situation, I would, and we 
have worked very hard to do so.
    Despite progress, we still have a lot to do. FEMA has not 
fully institutionalized the changes made by the Post-Katrina 
Emergency Management Reform Act. The National Disaster Recovery 
Framework has not yet been completed. An effective risk and 
preparedness assessment system is not yet fully in place, and 
FEMA information systems remain woefully inadequate.
    NPPD is working to ensure State and local governments and 
the Federal Government stay ahead of evolving technologies and 
infrastructure.
    Before turning to Senator Coats, I must return to the issue 
of the Disaster Relief Fund (DRF) shortfall that I raised with 
Secretary Napolitano in an earlier hearing. If the Congress 
approves the President's request for the DRF, there will be a 
shortfall of between $2 billion and $4.8 billion for fiscal 
year 2012. Without additional funding, it is very likely that 
this fund will be exhausted as early as January 2012. Recovery 
efforts, therefore, in all 50 States, including those recently 
hard hit by flooding and tornadoes will cease.
    The House bill has attempted to make up for only a portion 
of this shortfall. However, it came at great cost to Homeland 
Security first-responder grants which were cut by 52 percent in 
the House version of this bill, by $2.1 billion compared to 
fiscal year 2010, and $1.4 billion or 40 percent, compared to 
fiscal year 2011. The House also cuts the Coast Guard and FEMA. 
It makes no sense to cut funding from the agencies that must 
prepare for and respond to future disasters, to use that money 
to pay for the cost of past disasters. We have never done that 
in the history of this country, and I do not believe we need to 
start now.
    Following Senator Coats' opening remarks, each of the other 
members will be recognized for up to 2 to 3 minutes.


                           prepared statement


    I thank you so much. We are looking forward to this first 
panel and then particularly to our second panel that I will 
introduce in just a moment after opening statements. We have an 
excellent panel of State and local emergency managers and 
communications officials who handle day-to-day emergency 
management activities. We want to hear from them and I will 
introduce them at the appropriate time.
    [The statement follows:]
             Prepared Statement of Senator Mary L. Landrieu
    Today, I welcome two panels of witnesses to discuss the current 
status of comprehensive emergency management in the United States, and 
the critical role communications systems play in a disaster.
    Since Hurricane Katrina and the attacks on September 11, policies 
and laws have been rewritten and significant investments have been made 
in an upgraded emergency management system, including first-responder 
capabilities, communications systems, and recovery and relief. 
Significant change has happened at the local, State, and Federal levels 
of government, and in the private and nonprofit sectors as well.
    In the United States, emergency management--be it preparedness, 
response, or recovery--starts at the level of government closest to the 
people. If a local government is overwhelmed, the State provides 
support. If the State gets overwhelmed, the Federal Government provides 
support. This requires advanced coordination and communication to save 
lives and property and to recover and rebuild smartly and quickly.
    While we will look at emergency management as a whole today, I also 
want a special focus on communications during a disaster. The ability 
of emergency response personnel to communicate in real time prior to, 
during, and immediately after a disaster is critical to establishing 
command and control at the scene of an emergency and to maintaining 
situational awareness. However, in numerous after action reports, 
communications deficiencies have been revealed. Unfortunately, this 
issue was amplified during 9/11 and Hurricane Katrina.
    Further, technological developments are forging an evolution in the 
way government communicates, as well as how we communicate with 
citizens during a disaster. Keeping up with this evolution is a 
challenge to the emergency management community.
    The massive earthquake, and resulting tsunami, in Japan in March; 
and the recent unprecedented flooding, tornadoes, and wildfires here in 
the United States are reminders that this Federal Government must 
continue to be a reliable partner with State and local governments as 
well as with private partners to make sure every community is as 
prepared as possible.
    In tight budgets and difficult economic conditions it is more 
important than ever to allocate dollars carefully and wisely.
    With that, I will welcome Mr. Craig Fugate, the Administrator of 
the Federal Emergency Management Agency (FEMA), and Rand Beers, the 
Under Secretary of the National Protection and Programs Directorate 
(NPPD).
    Administrator Fugate, in your testimony you emphasize that it takes 
the whole community--not just government--to ensure effective emergency 
management. I appreciate the important improvements FEMA has made in 
ensuring the needs of children are taken into account during 
disasters--from disaster plans at juvenile justice centers to pre-
staging infant formula, baby food and diapers--important change has 
taken place.
    Under Secretary Beers, your directorate has taken a first big step 
in testing our interoperable communications in urban areas and in 
ensuring that communications training, and technical assistance is 
available to first responders. With new technologies emerging everyday, 
this subcommittee is interested in your strategy to stay afloat.
    Despite progress, we still have a lot to do. FEMA has not fully 
institutionalized the changes mandated by the Post-Katrina Emergency 
Management Reform Act of 2006. The National Disaster Recovery Framework 
has not been completed; an effective risk and preparedness assessment 
system is not in place; and FEMA disaster management information 
systems remain woefully inadequate. NPPD is working to ensure State and 
local governments and the Federal Government stay ahead of evolving 
technologies and infrastructures.
    Before turning to Senator Coats, I must return to the issue of the 
Disaster Relief Fund (DRF) shortfall that I raised with Secretary 
Napolitano in an earlier hearing. If the Congress approves the 
President's request for the DRF, there will be a shortfall of between 
$2 billion and $4.8 billion in the fund for fiscal year 2012. Without 
additional funding, it is likely that the fund will be exhausted as 
early as January 2012. Recovery efforts in 50 States, including those 
hard hit by recent flooding and tornadoes, will cease.
    The House bill has attempted to make up for a portion of this 
shortfall, however it came at a great cost to Homeland Security and 
first-responder grants, which were cut by $2.1 billion (52 percent) 
compared to fiscal year 2010 and by $1.4 billion (40 percent) compared 
to fiscal year 2011. The House also cuts the Coast Guard and FEMA. It 
makes no sense to cut funding for the agencies that must prepare for 
and respond to future disasters, to pay for the cost of past disasters.
    Following Senator Coats' opening remarks, Vice Chairman Lautenberg 
and each other member will be recognized for up to 3 minutes of opening 
remarks based on order of arrival. After we hear from the Administrator 
and the Under Secretary, each member will be recognized in order of 
arrival for up to 5 minutes of questions. I now recognize Senator Coats 
for any opening remarks he may wish to make.
    I would like to recognize our panelists, in the following order, 
for their opening statements: Mr. Craig Fugate from FEMA, and Mr. Rand 
Beers from NPPD.
    I thank our witnesses on the first panel for their contributions 
today.
    I welcome our second panel. We have an excellent panel of State and 
local emergency managers and communications officials who handle day-
to-day emergency management and communications activities. Each of our 
witnesses has recently been through significant disasters or major 
exercises in their communities.
    I would like to take a second to introduce Mark Riley from 
Louisiana. Mark Riley serves as chief of staff for the Louisiana 
Governor's Office of Homeland Security and Emergency Preparedness. He 
came to the agency in 2007 and previously served for 2 years as the 
deputy director for disaster recovery, where he managed $11 billion in 
public assistance funding and $1.4 billion in hazard mitigation funding 
for 24,000 projects throughout the State to support recovery from 
Hurricanes Katrina, Rita, Gustav, and Ike. Mr. Riley served for 32 
years in the U.S. Marine Corps, where he attained the rank of colonel 
and was assigned as legal advisor to the Department of Defense General 
Counsel's Office, U.S. Joint Forces Command, U.S. European Command, and 
U.S. Northern Command. He received his undergraduate and law degrees 
from Louisiana State University and a master of law degree from 
Georgetown University with a specialty in tax. He and his wife Susan 
live in Baton Rouge with their four children.
    Next, I turn to Senator Coats to introduce Mr. Vice, our witness 
from Indiana.
    Also let me welcome Mr. Hicks, director of Morgan County, Alabama 
Emergency Management and president of the International Association of 
Emergency Managers; and Mr. Ron Lane, director of Office of Emergency 
Services, San Diego County, California. We very much appreciate you 
being here today.
    I welcome our panelists, in the following order, for their opening 
statements: Mr. Mark Riley, Mr. David Vice, Mr. Eddie Hicks, and Mr. 
Ron Lane. After we hear from each of the witnesses, members will be 
recognized in order of arrival for up to 5 minutes for questions. Mr. 
Riley, let's start with you.

    Senator Coats. Thank you so much, Senator Landrieu, for 
your leadership on this subcommittee.

                   STATEMENT OF SENATOR DANIEL COATS

    Senator Coats. Madam Chair, I thank you also.
    I want to welcome our witnesses today, Director Fugate and 
Under Secretary Beers, as well as our second panel. I look 
forward to working with you. I am new to the subcommittee, but 
in that role as ranking member, I look forward to working with 
the chair, you, and members of the subcommittee, making some of 
the tough decisions that I think are ahead and not helped at 
all by the current weather that has devastated so much of our 
country and has required so much out of all of you. We really 
have a challenge ahead.
    We are fortunate in Indiana that we have not had the worst 
of the catastrophic disasters like those that have happened in 
other parts of the country and impacted the chair's State and 
Senator Cochran's State, Missouri, and others. We have had some 
recent storms and some flooding. I have just returned from 
southwest Indiana where I was viewing that personally and 
working with FEMA there, glad to see that they were on the 
ground doing the assessments. I was impressed with the 
thoroughness and professionalism of their efforts, and so I 
commend you for that.
    Before we delve into the substance of this hearing, I just 
want to reaffirm the statement just made by the chair, and that 
is that we have some serious decisions that we have to make 
relative to the kind of appropriations and numbers that we are 
going to be able to put up to deal with the situations that we 
have. This potential shortfall is going to have to be paid for 
somehow. We are going to have to be creative in looking for 
ways to do that. We know the hurricane season is in front of 
us. Hopefully the tornado season is behind us, but we are not 
even halfway into the year yet, and already we have had some 
significant situations which will require significant funding.
    So I hope we will be able to discuss with you both and with 
all of our witnesses how we move forward from here, given not 
only the fiscal realities that we face as a Nation, but also 
the recent catastrophes that have taken place in a lot of 
people's lives and dealing adequately with those.
    So with that, Madam Chair, I look forward to the hearing.
    Senator Landrieu. Thank you.
    Senator Cochran.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Madam Chair, thank you very much for 
convening this hearing, and let me join you in welcoming our 
witnesses and thanking them for their leadership. As everybody 
knows, we have really had to confront some of the most serious 
disasters, weather-related, floods, hurricanes, tornadoes, all 
kinds of challenges throughout our State of Mississippi and in 
other southern States as well, including Missouri, Alabama, 
Louisiana, and others.
    So you have had your hands full with emergency demands, and 
we appreciate the dedication and the serious approach that you 
have taken to trying to deal with and help recover from these 
terrible disasters that have struck our country.
    We appreciate this opportunity to discuss with you the 
funding needs for the next fiscal year and whatever other ways 
we can be helpful in legislative language or otherwise 
empowering your Agency to continue to help deal with these very 
serious challenges.
    Thank you, Madam Chair.
    Senator Landrieu. Thank you, Senator Cochran.
    Senator Tester.

                    STATEMENT OF SENATOR JOHN TESTER

    Senator Tester. Thank you, Madam Chair.
    Administrator Fugate, first of all, first and foremost, I 
want to thank you on behalf of thousands of Montanans that have 
been affected by the severe flooding in my State, the job that 
you have done. From State officials to county officials to our 
citizens, they have been impressed by FEMA's rapid response to 
this disaster and truly are appreciative of your efforts.
    Special thanks is due to Mike Erdonias and Charlie Bard, as 
well as the whole region 18. You can pass that along. Scott 
Logan, the travel liaison, is doing a tremendous job. And given 
the number of communities across the country that are 
experiencing disaster situations of their own, I appreciate 
your attention to Montana.
    We have got a lot of snowpack that is left to melt. That 
does not bode well for the next several weeks. The flooding we 
are experiencing right now is due to a rain event. We have 
anywhere from 150 to 300 percent snowpack in the mountains that 
is just beginning to melt. So your efforts, as we move forward, 
are going to be critically important, and I hope we can work 
together to ensure the citizens receive the assistance they 
need in a timely manner from rebuilding infrastructure like 
roads to homes to farms and businesses in the communities.
    There was a graph passed out the other day of the number of 
States that were impacted by disaster declarations, and at some 
point in time, we might want to address why that is. It seems 
like it is more than ever.

                           PREPARED STATEMENT

    So thank you for being here, Administrator Fugate and Rand 
Beers. Thank you.
    [The statement follows:]
                Prepared Statement of Senator Jon Tester
    Administrator Fugate, first and foremost, I want to say thank you 
on behalf of the thousands of Montanans who have been affected by the 
severe flooding across our State.
    State officials and everyday citizens have been impressed by the 
Federal Emergency Management Agency's rapid response to this disaster 
and are truly appreciative of your ongoing efforts.
    A special thanks is due to Mike Ordonez and Charley Baird, as well 
as the whole region 8 team. Scott Logan, the tribal liaison, is also 
doing a tremendous job.
    Given the number of communities across the country that are 
currently dealing with disasters of their own, I appreciate your 
attention to Montana.
    We have a lot of snow-pack that has yet to melt. That doesn't bode 
well for the next several weeks.
    Moving forward, I hope we can work closely together to ensure that 
the citizens of my State receive the assistance they need to rebuild 
their roads, their homes, their farms, their businesses, and their 
communities in a timely manner.

    Senator Landrieu. Thank you very much.
    If the staff would put up the chart about the disaster, 
States that have been impacted, I think it is instructive.
    Mr. Fugate, please begin.
    This is a chart of all the recent current declared 
disasters, the green being disasters declared, and Montana is 
on the way because this chart was prepared before the floods 
began.
    Senator Coats. And Indiana.
    Senator Landrieu. And Indiana is on the way. No. I think we 
have got Indiana. Oh, no. Indiana is on the way. There is 
Indiana.
    Senator Coats. Trust me. I know Indiana.
    Senator Landrieu. I always think it is more west than where 
it is. This is my fault. But there it is right there.
    Senator Coats. Where is Mississippi?
    Senator Landrieu. Where is Mississippi? Yes.
    All right, Mr. Fugate.
STATEMENT OF HON. CRAIG FUGATE, ADMINISTRATOR, FEDERAL 
            EMERGENCY MANAGEMENT AGENCY, DEPARTMENT OF 
            HOMELAND SECURITY
    Mr. Fugate. Good afternoon, Madam Chair, Ranking Member 
Coats, and Senators.
    I would first like to respond to the efforts of the team 
that I am part of and recognize that often I may get credit for 
what a lot of people who do not have the opportunity to come 
here and testify are really doing. So, first, I will pass on to 
the team your appreciation, but I always remember it is the 
team that I am part of. And although I am often recognized and 
am here representing the team, it is really the team effort.
    To go into my opening statement, Madam Chair, because this 
topic was disaster communication, I realize I will have other 
questions on some of the issues you and the other Senators have 
raised. I want to use the tornado events that have occurred as 
examples of the progress we have made since September 11 and 
since Hurricane Katrina in dealing with growing and building 
capability at the local and State level.
    In the tornadoes that struck Mississippi and Alabama and 
again the tornadoes that struck Joplin, Missouri, in 2001, it 
would have been likely that we would have had to deploy 
federally sponsored urban search and rescue teams to do the 
primary search. We would have had to deploy a tremendous amount 
of Federal communication assets to help rebuild and establish 
communication infrastructure. Even though we would work hard to 
get those teams in there, they would not have been as fast as 
local teams, local mutual aid, in-State mutual aid, and 
neighboring States responding rapidly. But that does not just 
happen. It takes a lot of work. It takes training and 
exercising, and it takes the support to build that capability.
    In the outbreaks that we have seen, the first responders, 
the local officials, mutual aid, and in-State resources did the 
response. Our role at FEMA in all of these disasters has been 
one of supporting the recovery. I am not sure we would have 
seen that prior to these investments.
    I saw an example of communications progress as we were 
going from the tornadoes and the flooding that were occurring 
into our national level exercise (NLE) 2011, which was focused 
on the New Madrid earthquake. I was in the emergency operations 
center in the State of Missouri where Governor Nixon was 
showing me his interoperable solution with the State radio 
system. He was talking to one of the sheriffs in the southeast 
part of the State demonstrating the interoperable work they 
have done with funding and, more importantly, with the 
planning, training, and exercising that we had done. That was 
the very system that they implemented in Joplin when the city 
was struck, and they had to reestablish communication and begin 
bringing in mutual aid from not only within State but from 
around the surrounding four-State area.
    So we have seen a tremendous improvement in capabilities at 
the State and local level, and some of that has been based on 
technology.
    But I also want to point out the human factor. One of the 
primary responsibilities we have in the disaster emergency 
communications role is not only in supporting response to a 
disaster and supporting local officials and State officials 
with emergency communications, it is also our role in 
supporting and reviewing the State communication plans and the 
regional communication committees that bring together the 
various disciplines to decide what will be the strategies and 
how they will work together as a team and how they are going to 
communicate, and then to look at how we take the work that 
Under Secretary Beers' team provides with the technology and 
the practices that we can apply.
    As former President, the late Dwight D. Eisenhower said, 
``Plans are nothing. Planning is everything''. And I think it 
is that planning, the exercising, and importantly, the 
technology that has allowed us to build more effective 
interoperable solutions that allow us to rapidly bring not only 
the responders in the immediate area but responders across the 
State, in some cases across the Nation, in a rapid manner.

                           PREPARED STATEMENT

    This role that we see for FEMA in our partnership within 
DHS and within the Office of Emergency Communications (OEC) is 
again one of facilitation and the implementation of these 
plans, as well as to continue support as the grants 
administrator for the funding to support not only the planning 
but also the technology. We talk about the ``whole of 
community''. I am reminded that, having come from State and 
local government, the fastest response is often your neighbor, 
not always the Federal Government. We do have a role to play, 
but if we cannot call on our neighbors and we cannot talk to 
them, that is not the time to figure out when people need to be 
rescued. That prior planning has made the difference, and the 
support that we have been able to give and continue to give to 
State and local governments and working on those interoperable 
solutions is not just about the technology. It is about the 
people that can work as a team.
    Thank you, Madam Chair.
    [The statement follows:]
                Prepared Statement of Hon. Craig Fugate
                              introduction
    Good afternoon Chairwoman Landrieu, Ranking Member Coats, and 
distinguished members of the subcommittee. My name is Craig Fugate, and 
I am the Administrator of the Federal Emergency Management Agency 
(FEMA). It is an honor to appear before you today on behalf of FEMA and 
the Department of Homeland Security (DHS) to discuss the evolution of 
emergency management and communication at FEMA.
    As you know, FEMA has completely changed the way we do business 
over the past several years. FEMA was included in the organizational 
realignment that led to the creation of DHS in the aftermath of the 
September 11, 2001, attacks. FEMA also underwent major organizational 
changes after Hurricane Katrina, and the Congress has provided 
increased funding for building emergency management capabilities. As a 
result, FEMA is a much more effective agency today than we were just a 
few years ago. Our enhanced ability to meet our mission is a direct 
result of the tools that we have been able to put in place with your 
help and support.
    In my testimony today, I will share with you some of the major ways 
in which emergency management--from a Federal perspective--has shifted 
during my time as the FEMA Administrator. First, we acknowledge the 
importance of planning for disasters in a realistic manner, and we 
conduct our preparedness, response, and recovery operations 
accordingly. Second, we have adopted a ``whole community'' approach to 
emergency management, leveraging the expertise and resources of our 
stakeholders at all levels, both governmental and nongovernmental. And 
third, we have overhauled and improved the way we communicate in a 
disaster environment, using cutting-edge technology and availing 
ourselves of tools like cell phones and social media in order to more 
effectively engage with the public.
    The devastating effects of the recent severe storms, including 
tornadoes and flooding in Alabama, Mississippi, Missouri, and other 
States in the South and Midwest continue to serve as a solemn reminder 
of the importance of maintaining a robust and efficient national 
emergency management capability. FEMA is expected to and will support 
the affected States and the region throughout the recovery process.
                  realistic planning and preparedness
    I often say that we can't plan for ``easy;'' rather, we must plan 
for ``real''. This means that we must use a realistic set of 
assumptions when we plan for disasters. Rather than assuming that a 
disaster will respect jurisdictions, we conduct exercises based on 
disaster scenarios that cross State lines and regional boundaries.
    Further, rather than assuming that the individuals we serve all 
share the same ages and abilities, we plan for ``real'' by 
incorporating children and people with disabilities into our disaster 
planning at the outset, thus ensuring that we consider the ``whole 
community''. And rather than assuming that all disasters will be small 
enough in scope for the State, local, and Federal governments to 
handle, we prepare for a ``meta-scenario'' that might overwhelm the 
capabilities of every level of government to respond.
Conducting Realistic Exercises
    Exercises play a crucial role in preparedness, providing 
opportunities for emergency responders and officials to practice, 
assess, and refine their collective capabilities.
    Prior to the passage of the Post-Katrina Emergency Management 
Reform Act (PKEMRA) in 2006, the Congress authorized several ``top 
officials'' exercises, which exercised how key Government officials 
would respond to simulated terrorist attacks. With the 2006 enactment 
of PKEMRA, the Congress created the National Exercise Program (NEP) in 
order to ``carry out a national exercise program to test and evaluate 
the national preparedness goal''.\1\ PKEMRA required that exercises be 
``as realistic as practicable, based on current risk assessments, 
including credible threats, vulnerability, and consequences, and 
designed to stress the National Preparedness System''.\2\ These 
exercises, referred to as national level exercises (NLEs) in the 
statute, must be conducted at least every other year.\3\
---------------------------------------------------------------------------
    \1\ Post-Katrina Emergency Management Reform Act of 2006, Public 
Law 109-295, 120 STAT. 1355, 1427 (Oct. 4, 2006).
    \2\ Id.
    \3\ Id. at 1428.
---------------------------------------------------------------------------
    We take very seriously the need to conduct exercises that reflect 
real needs and response capabilities in the event of a disaster. For 
that reason, in planning exercises, we create a realistic catastrophic 
disaster scenario that takes us past the point of failure, rather than 
create a manageable scenario that we know will allow us to succeed. 
Creating a realistic scenario is required by law and it is also 
essential to our ability to identify gaps and make improvements to our 
response and recovery plans.
    This year's NLE 2011 examined the Federal Government's ability to 
implement catastrophic incident response and recovery plans by 
simulating a major earthquake in the New Madrid Seismic Zone in Central 
United States. The exercise was the first NLE to simulate a natural 
hazard and provided the framework for the eight impacted States and 
four FEMA regions to test and evaluate regional earthquake response and 
recovery plans.
    This year's NLE is different from similar exercises held in prior 
years because it was the first NLE to benefit from changes made to the 
NEP. As a result, it reflected more direct involvement and direction 
from senior levels of government, more frequent smaller-scale exercise 
elements, and a shorter timeframe for evaluation, after-action 
reporting and improvement planning. As the NEP continues to evolve, 
future exercises will continue to incorporate these same principles.
    NLE 2011 also incorporated a comprehensive and efficient system of 
exercise evaluation that focused on the rapid identification, 
development, and dissemination of lessons learned, as well as the 
development of corrective actions. NEP's rigorous evaluation 
methodology will help to ensure that issues identified during the 
exercise are remediated. Specific provisions for the NEP evaluation 
methodology are detailed in the NEP Implementation Plan.
    Finally, this year's exercise fully incorporated all aspects of the 
emergency management team, including not only Federal, State, local, 
tribal, and territorial governments, but also nongovernmental 
organizations (NGOs), private sector entities, individuals, families 
and communities, engaging FEMA's ``whole community'' approach to 
emergency management.
    Conducting realistic exercises allows us to practice our protocols, 
assess areas of both success and failure, and make necessary 
adjustments to ensure that we are as prepared as possible for a 
catastrophic disaster.
Incorporating Children and People With Disabilities Into Disaster 
        Planning
    A realistic approach to emergency management means not only 
conducting exercises that reflect real disaster scenarios, but 
incorporating the needs and abilities of real disaster survivors into 
planning and preparedness efforts. Our planning must be inclusive of 
people of different ages and abilities and it must meet the access and 
functional needs of children and people with disabilities.
    In February 2010, FEMA established the Office of Disability 
Integration and Coordination, and in July 2010, established the first-
ever Disability Working Group within FEMA. The Disability Working Group 
is responsible for ensuring that the access and functional needs of 
children and adults with disabilities are fully integrated into all 
aspects of FEMA's disaster planning, preparedness, response, recovery, 
and mitigation efforts initiated and coordinated at the Federal level.
    FEMA is also committed to placing regional disability integration 
specialists in each of FEMA's 10 regions. Eight are already on board on 
a permanent full-time basis, and an additional one is in place on an 
acting basis. During the height of our response to the Southeast 
storms, five of these specialists were deployed to the region.
    Emergency management officials at all levels need to plan and 
prepare for every member of a community, including children, who 
comprise approximately 25 percent of the U.S. population. For that 
reason, FEMA established a Children's Working Group (CWG) responsible 
for coordinating the agency's efforts--in partnership with other 
Federal agencies and nongovernmental stakeholders--to ensure that the 
unique needs of children are considered and integrated into all 
disaster planning, preparedness, response, and recovery efforts 
initiated and coordinated at the Federal level.
    As an example, when we pre-stage commodities in preparation for 
disasters, we include basic items such as water, meals and generators. 
However, military-style Meals Ready to Eat (MREs) and other provisions 
are not necessarily suitable for the entire population, especially 
young children. So we transitioned from MREs to commercial shelf-stable 
meals and we pre-stage commodities including infant formula, baby food, 
electrolytes, and diapers to anticipate, understand, and specifically 
plan for the needs of children.
Planning for the ``Meta-Scenario''
    Historically in emergency management, we only planned for scenarios 
that we were capable of responding to and recovering from at the 
governmental level. That was simply not enough. We must also plan for 
the ``meta-scenario'' (or maximum of maximums event) that by its nature 
will overwhelm the ability of State, local, and Federal governments to 
respond. Because of the possible breadth and scope of a ``meta-
scenario'', we cannot be satisfied with a ``government-centric'' 
approach to emergency preparedness. Rather, we must incorporate the 
``whole community'' into our preparedness, response, and recovery 
efforts.
    Therefore, in coordinating and facilitating the development of 
detailed State and regional response plans for earthquakes, hurricanes, 
tsunamis, improvised nuclear device attacks, and other threats, our 
catastrophic planning, evacuation and transportation planning, and 
emergency communications planning are all based on worst-case scenarios 
that are designed to challenge preparedness at all levels, forcing 
innovative, nontraditional solutions as part of the response strategy 
to such events.
    We have identified the highest-priority tasks necessary to save and 
sustain lives and stabilize following a catastrophic incident during 
the crucial, first 72 hours; and we have begun to work across all 
segments of society to identify how we can collectively achieve these 
outcomes. While the initial 72 hours following an incident are the most 
crucial for saving and sustaining life, our approach spans not only 
response operations following a disaster, but also prevention, 
recovery, protection, and mitigation activities that occur before, 
during and after a catastrophic event. Changing outcomes will require 
public engagement and public action, which means fully embracing 
dialogue between our public safety and emergency services institutions 
and the communities they serve. This planning process results in the 
development and identification of existing capabilities that can be 
employed using pre-established logistics protocols and deployment 
solutions.
    Because a ``meta-scenario'' would be of such a catastrophic nature 
so as to overwhelm the capability of the Federal Government to respond, 
we have incorporated the entire emergency management team, or ``whole 
community'', into our planning and preparedness efforts.
         a ``whole community'' approach to emergency management
    Our planning and preparedness efforts translate into action through 
FEMA's ``whole community'' framework. This approach recognizes that 
FEMA is not the Nation's emergency management team--FEMA is only a part 
of the team. In order to successfully prepare for, protect against, 
respond to, recover from, and mitigate all hazards, we must work with 
the entire emergency management community. This ``whole community'' 
includes FEMA and our partners at the Federal level; our State, local, 
tribal, and territorial governmental partners; NGOs like faith-based 
and nonprofit groups, the private sector, and industry; and most 
importantly, individuals, families, and communities, who continue to be 
our greatest assets and the key to our success.
    A ``whole community'' approach to emergency management does not 
mean that FEMA abdicates its role as the Federal Government's 
coordinator for disasters and emergencies. Rather, it means that we 
recognize our mission as supporting our citizens and first responders 
to ensure resilience to all hazards. In order to fulfill this mission, 
we must leverage the resources and capabilities of all aspects of the 
emergency management team, both governmental and nongovernmental. As a 
result, a ``whole community'' framework means thinking about FEMA 
programs and policies in conjunction with how we work to support other 
aspects of the emergency management team. I would like to discuss 
FEMA's ``whole community'' framework in the context of the recent 
severe storms, tornadoes, and floods in the South and Southeast.
Federal Agency Partners
    Our partners within the Federal Government bring to the table a 
great amount of expertise and resources that we utilize in a disaster 
environment through mission assignments, interagency agreements and 
advanced contracts for commodities. These partnerships are essential to 
FEMA's ability to carry out its mission by leveraging the full capacity 
of the Federal Government.
    We continue to work closely with our Federal agency partners to 
help the States affected by the recent severe storms, tornadoes and 
floods in the South and Southeast get back on their feet. One of the 
ways we do this is through the use of mission assignments, which are 
work orders issued by FEMA to other Federal agencies that direct the 
completion of a specific task and are intended to meet urgent, 
immediate and short term needs. They allow FEMA to quickly request 
Federal partners to provide critical resources, services or expertise. 
To date, FEMA has developed 263 pre-scripted mission assignments with 
29 Federal agencies.
    Since the severe storms and tornadoes devastated the Southeast 
beginning in late April 2011, FEMA has directed the completion of more 
than 80 mission assignments in Alabama, Arkansas, Georgia, Mississippi, 
and Tennessee. A few examples of the support these mission assignments 
provided include:
  --Coordinating with U.S. Northern Command to establish an incident 
        support base in Maxwell, Alabama. The support base allows FEMA 
        to move supplies (such as water, infant/toddler kits, and 
        tarps) closer to the affected areas;
  --Activating the Army Corps of Engineers to conduct debris clearance 
        and removal, infrastructure protection, restoration, and 
        emergency repair;
  --Working with the Department of Housing and Urban Development to 
        help support housing operations under emergency support 
        function No. 6--mass care, emergency assistance, housing, and 
        human services; and
  --Activating Environmental Protection Agency personnel to perform the 
        functions of emergency support function No. 10--oil and 
        hazardous materials response, by conducting response efforts 
        relating to oil and other hazardous materials and conducting 
        short- and long-term cleanup.
    These are just a few examples of our coordination efforts with 
other Federal agencies. We continue to work closely with our Federal 
Government partners to leverage the resources they bring to various 
aspects of our preparedness, response, and recovery efforts.
State, Local, Tribal, and Territorial Governmental Partners
    Coordination with State, local, tribal, and territorial governments 
is perhaps the most essential part of our effort to integrate the 
entire emergency management community. FEMA's leadership comes from 
diverse backgrounds, but we share something vital: direct, on-the-
ground experience in State and local emergency management. Our 
experiences have helped us realize and appreciate the important role 
that State, local, tribal, and territorial governments play in disaster 
preparedness, response, and recovery. FEMA's success is heavily 
dependent upon our ability to work closely with these governmental 
entities.
    FEMA has been in constant contact with all of the impacted States 
as they responded to and began recovery efforts from the devastating 
storms, tornadoes and floods of spring 2011. At the request of the 
respective Governors, FEMA currently has teams on the ground in 
Alabama, Arkansas, Georgia, Mississippi, Kentucky, and Tennessee, as 
well as strategically pre-positioned commodities in the region to 
support the States. Federal coordinating officers have been working 
closely with these affected States to assist them in meeting the unique 
needs of their residents. Deputy Administrator Serino and I have 
visited with State and local officials throughout the Southeast, 
surveying damage and assisting in response and recovery efforts. 
Secretary Napolitano also has traveled to the region to view the damage 
first hand and provide her support. President Obama, in addition to 
visiting the impacted areas, has issued major disaster declarations 
related to severe storms and tornadoes in the Southeast for the States 
of Alabama, Arkansas, Georgia, Kentucky, Mississippi, and Tennessee. 
The States of Tennessee, Missouri, Kentucky, Arkansas, Mississippi, and 
Minnesota have also been granted disaster declarations related to the 
Mississippi Valley flooding, with the President issuing an Emergency 
declaration for 22 Louisiana parishes. Finally, more than 1,530 FEMA 
employees have been deployed to the affected areas.
    Our on-going preparedness efforts in support of State and local 
governments are paying tangible dividends. As an example, in 2009, 
Tuscaloosa Mayor Walter Maddox sent 66 city and county emergency 
management and response personnel to a 4-day exercise-based training 
program at FEMA's Emergency Management Institute. The integrated 
emergency management course they attended occurs every year, and 
stresses the integration of functions, resources, organizations and 
individuals in all phases of emergency management.
    Mayor Maddox recently said in a New York Times article that the 
decision to have his city participate in the training ``has done more 
to help Tuscaloosa handle the disaster than anything else''.\4\ The 
training allows localities to more fully understand roles and 
responsibilities during a disaster, identify gaps in emergency 
management plans, and address those gaps through developing and 
implementing emergency policies to ensure an effective response.
---------------------------------------------------------------------------
    \4\ Severson, Kim & Brown, Robbie. Mayor's World Remade in an 
Instant, New York Times, May 10, 2011, at A13.
---------------------------------------------------------------------------
Engaging Nongovernmental Organizations
    Government can and will continue to serve disaster survivors. 
However, we fully recognize that a government-centric approach to 
disaster management will not be enough to meet the challenges posed by 
a catastrophic incident. That is why we must fully engage our entire 
societal capacity, leveraging trade associations, voluntary, and faith-
based organizations, private industry, and social and fraternal 
organizations. These are the organizations that provide the bulk of 
services to communities every day, and to the extent that they are 
able, they should continue to be the primary provider of such services 
in a disaster. The quicker these entities are able to get back on their 
feet, the faster communities as a whole will be able to recover.
    We are working closely with NGOs in order to respond to and recover 
from the flooding and severe weather events of recent weeks. A few 
examples of our work with NGOs include the following:
  --American Red Cross and FEMA are jointly leading emergency support 
        function No. 6, the planning and coordination of mass care 
        services;
  --We coordinated with Verizon, AT&T, and other mobile carriers to 
        make available their ``Stores on Wheels'' to provide docking 
        and charging stations for customers near disaster recovery 
        centers (DRC). By helping disaster survivors charge their cell 
        phones, they can let friends and loved ones know their location 
        and that they are safe;
  --We connected American Red Cross with Tide to provide free laundry 
        service for disaster survivors in parts of Alabama and Georgia;
  --National Voluntary Organizations Active in Disaster (National 
        VOAD)-member organizations such as American Red Cross, 
        Salvation Army, Convoy of Hope, and many others continue to be 
        heavily involved in the disaster response by providing 
        assistance to disaster survivors. The Red Cross Safe and Well 
        secure Web site provides a way for people to find information 
        on those affected by the storms.
    We will continue to leverage the resourcing strengths of the 
private sector and NGOs, ensuring that they are fully engaged in all of 
our efforts.
The Importance of Individuals, Families, and Communities
    We work not just with governmental entities and private sector 
organizations, but with the individuals, families, and communities who 
are our Nation's ``first'' first responders. Our State and local 
emergency management experience has taught us that, in the event of a 
disaster, individuals and communities are not liabilities; rather, they 
are our greatest resources and the key to our success.
    FEMA's Individual Assistance Division in the Office of Response and 
Recovery helps disaster survivors with housing, crisis counseling, 
legal services, disaster case management, and unemployment assistance, 
among other services. However, in addition to supporting the 
individuals, families, and communities we serve through Individual 
Assistance, we also work to engage the public as a valuable resource 
through personal preparedness, citizen, and community training, and 
two-way communication that helps provide us with situational awareness 
in a disaster environment.
    Ready is FEMA's national public service campaign in which we 
partner with the Advertising Council to educate and empower Americans 
to prepare for and respond to all emergencies, including natural 
disasters and potential terrorist attacks. The goal of the campaign is 
to get the public involved and to increase the level of basic 
preparedness across the Nation.
    In addition to focusing on personal preparedness, FEMA also taps 
into the great capacity of the public to look out for friends and 
neighbors in a disaster. In the aftermath of the tragic events of 
September 11, 2001, President Bush launched Citizen Corps, a community-
based entity coordinated by FEMA. Citizen Corps recognizes that 
effective emergency management and response requires community leaders 
to participate in developing emergency plans for their own communities. 
These leaders conduct localized outreach to and education for the 
public, promote training, participate in exercises, encourage 
volunteerism, and form an integral part of the response effort when 
disaster strikes. The mission of Citizen Corps is to harness the power 
of every individual through education, training, and volunteer service 
to make communities safer, stronger, and better prepared to respond to 
the threats of terrorism, crime, public health issues, and disasters of 
all kinds.
    In 95 percent of all emergencies, a survivor or bystander provides 
the first immediate assistance on the scene. Because family members, 
neighbors, or fellow employees are often the first to provide 
assistance, it is important that all members of the community have 
access to the training they need to make a difference during an 
emergency situation.
    Finally, we engage the public as a critical resource by 
facilitating two-way communication that allows us to communicate with 
the public in a disaster environment rather than talking at the public. 
Social media is a key part of this effort, and is discussed in the next 
section.
                communication in a disaster environment
    The ability to effectively communicate during and immediately after 
a disaster is essential to fulfilling our mission. When working on a 
tight timeframe with many of our emergency management partners, making 
sure that everyone is on the same page is absolutely essential. For 
that reason, we have completely overhauled the way we communicate with 
each other and with the public in a disaster environment, leveraging 
cutting-edge technology as well as important social media tools that 
the public uses in their everyday lives.
Social Media and Disasters
    Social media provides the tools needed to minimize the 
communication gap and participate effectively in an active, ongoing 
dialogue. Social media is an important part of the ``whole community'' 
approach because it helps to facilitate the vital two-way communication 
between emergency management agencies and the public, and it allows us 
to quickly and specifically share information with State and local 
governments as well as the public.
    FEMA uses multiple social media technologies like Facebook, 
Twitter, and YouTube to reach the public. Rather than asking the public 
to change the way they communicate to fit our system, we are adapting 
the way we do business to fit the way the public already communicates.
    In December 2010, FEMA also created a blog (http://blog.fema.gov), 
which provides information before, during and after a disaster strikes, 
and highlights the best practices, innovative ideas and insights that 
are being used across the emergency management community.
    To date, FEMA has posted more than 200 messages to its blog, 
Facebook, and Twitter accounts relating to the severe weather in the 
Southeast, sharing information with disaster survivors, including how 
to register for assistance, the role of DRC and other information 
related to the Federal Government's support to the affected States and 
their residents.
    We value social media tools not only because they allow us to send 
important disaster-related information to the people who need it, but 
also because they allow us to incorporate critical updates from the 
individuals who experience the on-the-ground reality of a disaster. The 
exigent nature of emergency management makes time a critical resource. 
The sooner we are able to comprehend the full scope of the disaster, 
the better able we are to support our citizens and first responders. 
That is why we must seek out and incorporate information provided by 
the public, our most critical emergency management resource.
The Federal Emergency Management Agency's Mobile Web Site
    One of the major lessons we learned from the January 2010 
earthquake in Haiti was that even if the physical infrastructure of an 
area is completely destroyed, the cellular infrastructure may be able 
to bounce back quickly, allowing emergency managers to relay important 
disaster-related information and enabling the public to request help 
from local first responders.
    In early 2010, FEMA launched its first-ever mobile Web site, which 
allows the public to view Web pages easily loaded on their smartphones. 
The mobile site features information on what to do before, during and 
after a disaster, along with the ability to apply for Federal disaster 
assistance directly from your phone and locate nearby DRC. As we 
witnessed during the response to the Georgia and Tennessee floods in 
2009 and 2010, disaster survivors often have little with them but their 
phones. As a result, providing the ability to register for assistance 
from smartphones enables us to immediately mobilize the appropriate 
assistance to support our citizens' needs during disasters.
    While social media and mobile technology will continue to be 
important tools, they are by no means exhaustive of our efforts to 
communicate with the public in a disaster environment. In addition to 
tapping into communications tools that already exist, we also work to 
ensure that we are at the forefront of communications technology that 
will allow us to share life-saving and life-sustaining information with 
first responders and the public in a disaster environment.
Personal Localized Alerting Network
    Last month, I joined New York City Mayor Michael Bloomberg, Federal 
Communications Commission Chairman Julius Genachowski, and top 
executives from AT&T, Sprint, T-Mobile, and Verizon, in publicly 
announcing the creation of the Personal Localized Alerting Network 
(PLAN). PLAN is a free service that will allow customers with enabled 
mobile devices to receive geographically targeted messages from State 
and local emergency management agencies alerting them to imminent 
threats to safety in the area.
    FEMA developed the PLAN technology to allow any customers of 
participating wireless carriers to turn their mobile phones into 
personal alert systems. These alerts will be able to get through to 
phones whether nearby cell towers are jammed or not. The alerts are 
also completely free of charge, and individuals are not required to 
sign up in order to receive them.
Disaster Emergency Communications
    Of course, in addition to communicating with the public, we must 
also help provide communications support to emergency responders in a 
disaster environment.
    Emergency communications issues presented an impediment to 
operations in the immediate aftermath of both the September 11, 2001, 
attacks and Hurricane Katrina. As a result, FEMA's Disaster Emergency 
Communications (DEC) division was established in 2008 as the lead 
integrator of tactical Federal disaster emergency communications. DEC 
provides tactical emergency communications support to emergency 
managers and first responders when the Federal, State, local, tribal, 
or territorial infrastructure cannot support communications needs for 
emergency operations.
    DEC represents a significant shift in the Federal Government's 
organization and integration of emergency communications in disaster 
response. Some of DEC's activities include:
  --Deploying equipment and personnel for on-scene communications 
        support;
  --Offering operational support to emergency responders in the field;
  --Providing mobile emergency response support (MERS) units that 
        support disaster response by enabling seamless connectivity 
        throughout the disaster area, State, and local emergency 
        operations centers, and national-level command and control 
        facilities;
  --Conducting regional emergency communications coordination working 
        groups, which provide a forum to assess and address the 
        sustainability and interoperability of emergency communications 
        systems at all government levels;
  --Supporting the establishment of State-specific plans to improve the 
        Nation's interoperability capabilities. To date, DEC has 
        provided support in the establishment of 36 State and 3 
        territory communications plans, and we will deliver 3 
        additional State plans by the end of this fiscal year; and
  --Developing a technology roadmap to evaluate current and emerging 
        technologies and provide recommendations on which new 
        technologies FEMA should invest in and which existing 
        technologies to replace.
    FEMA's DEC works closely with the DHS' Office of Emergency 
Communications (OEC), which serves as the primary Federal office for 
national interoperable emergency communications policy, planning, and 
analysis. For example, FEMA DEC coordinates closely with OEC, its 
National Communications System, and the Federal Communications 
Commission on all 10 of FEMA's regional emergency communications 
working groups (RECWGS). The RECCWGS, which are comprised of State, 
local, and Federal organizations, serve as planning and coordinating 
bodies responsible for providing a forum to assess and address the 
survivability, sustainability, operability, and interoperability of 
emergency communications systems at all government levels. We will 
continue to improve our ability to communicate in a disaster 
environment, including communication with emergency managers, first 
responders, and the public.
                               conclusion
    With your help and support, we have completely changed the way we 
at FEMA approach emergency management: adopting a pragmatic and 
realistic approach to preparedness, response, and recovery; 
incorporating the ``whole community'' into our efforts; and improving 
our ability to communicate with the public and among emergency 
responders in a disaster environment. Of course, these are just some of 
the ways in which the Congress' significant investment in FEMA over the 
past several years has allowed us to improve our ability to support our 
citizens and first responders. While I am proud of the progress that we 
have made together, I know that there is still more work to be done. So 
I look forward to working with you, Madam Chair, and the other members 
of this subcommittee, as we continue to build our Nation's capability 
to prepare for, protect against, respond to, recover from, and mitigate 
all hazards.
    Thank you again for the opportunity to appear before you today. I 
am happy to answer any questions the subcommittee may have.

    Senator Landrieu. Thank you very much.
    Mr. Beers.
STATEMENT OF RAND BEERS, UNDER SECRETARY, NATIONAL 
            PROTECTION AND PROGRAMS DIRECTORATE, 
            DEPARTMENT OF HOMELAND SECURITY
    Mr. Beers. Thank you very much, Senator Landrieu. Thank you 
for the opportunity to be here. I want to talk about the three 
parts of NPPD that are responsible for working on emergency 
communications and the particular roles that they play and how 
that all works to make our national emergency communications 
much more effective than they have been in the past.
    The first is OEC, which helps create the foundation of 
interoperable emergency communications by setting up the 
programs, the people, the training, and the exercises that help 
connect the Federal Government to the State, local, tribal, and 
territorial organizations.
    Second is the National Communications System (NCS), which 
supports FEMA in restoring communication systems when they are 
disrupted by disaster. Additionally, the NCS also works in 
times of disaster to ensure that priority emergency phone calls 
get through between State, local, and Federal officials, 
particularly during spikes in phone traffic.
    And third is the Office of Infrastructure Protection, which 
works with all sectors of critical infrastructure to help 
owners and operators find best processes and practices to 
prepare for disasters. We have protective security advisors in 
each State. They provide critical infrastructure owners and 
operators with a direct conduit to the Federal Government to 
address routine security questions in normal circumstances but 
also, and equally important, to offer assistance in times of 
emergencies.
    I can elaborate more on this, but I just want to highlight 
two particular events that I think are demonstrative of how 
this team, together with FEMA, works together effectively.
    The first is with the Deepwater Horizon event and the 
interoperability that was put in place immediately. As a result 
of the work of OEC, there was a statewide interoperability 
coordinator who developed a statewide plan that allowed the 
State of Louisiana to quickly set up the Louisiana wireless 
interoperability network immediately upon the event; the 
network allowed State and local officials to be able to talk to 
one another. That was quickly spread by the movement of 
emergency communication systems initially to Alabama and 
Mississippi and then to Texas and Florida so that we had 
basically a coastal network set up that allowed local officials 
working with the Coast Guard to be able to combat that tragic 
oil spill.

                           PREPARED STATEMENT

    The second issue or event is the one that Administrator 
Fugate spoke to, which is the Joplin tornado, the most trying 
of emergency situations. No warning. No chance to prepare in 
advance. If you do not have the plan, if you do not have the 
people, if they do not know what they are supposed to do, then 
it is a little late to make things work. But we have had just 
outstanding results in that situation, as well as in the 
tornadoes in Alabama and Mississippi. And I think that that is 
a testament to the work that has been done since Katrina to 
build this kind of a system, to exercise this kind of a system, 
and to make sure that we have an opportunity. Is there more 
work to be done? Absolutely. But I think we have gone a long 
way since that time in terms, Senator, of moving beyond Civil 
War communication systems.
    Thank you.
    [The statement follows:]
                    Prepared Statement of Rand Beers
    Thank you Chairman Landrieu, Vice Chairman Lautenberg, Ranking 
Member Coats, and distinguished members of the subcommittee. It is a 
pleasure to join the Federal Emergency Management Agency (FEMA) to 
discuss the Department of Homeland Security's (DHS) efforts in support 
of emergency management operations across the Nation and our efforts to 
improve communications for emergency response providers and government 
officials. As we approach the 10th anniversary of the attacks of 
September 11, 2001, there is no shortage of reminders of the need for 
an effective and efficient emergency response framework to manage 
incidents and restore essential services in the aftermath of a 
disaster. As just one recent example of many, we are all aware of the 
tragic series of tornadoes that ripped through the Nation's heartland 
last month, causing billions of dollars in damages, killing hundreds, 
and leaving thousands homeless.
    A top priority for DHS is improving the communications capabilities 
of those who are often the first to arrive at the scene of a disaster 
site--the Nation's emergency responders. Public safety personnel must 
have access to reliable and instantaneous communications at all times 
to effectively coordinate response and recovery operations. The 
Department recognizes that establishing emergency communications is not 
solely a technology problem that can be solved with just the ``right'' 
equipment or the ``right'' communications system. All of the critical 
factors for a successful interoperability solution--governance, 
standard operating procedures, training and exercises, and integration 
of systems into daily operations as well as technology--must and are 
being addressed through the collective work of our programs.
    Effective emergency management and communications are not something 
we can accomplish on our own; achieving success requires the continued 
partnering with the millions of emergency responders that are the first 
to arrive on the scene of an incident, as well as nongovernmental 
organizations (NGOs) like the American Red Cross, the general public, 
and citizens of affected communities. We look forward to discussing our 
respective efforts and key accomplishments to make the Nation more 
prepared in an all-hazards environment.
               emergency communications responsibilities
    Within the National Protection and Programs Directorate's (NPPD) 
Office of Cybersecurity and Communications (CS&C) are two organizations 
that focus on different but converging areas of telecommunications in 
support of emergency operations: the Office of Emergency Communications 
(OEC) and the National Communications System (NCS). OEC and NCS are 
critical to shaping national policy and both work with FEMA and other 
departmental components, Federal departments and agencies, multiple 
levels of government, and the private sector to improve communications 
capabilities and achieve their mission requirements.
    OEC was established as part of the congressional response to the 
communications challenges faced during the September 11, 2011, 
terrorist attacks and Hurricane Katrina in 2005. Created by the 
Congress in 2007, OEC coordinates policy and assists in the development 
and implementation of operable and interoperable emergency 
communications capabilities for emergency responders at all levels of 
government, including Federal, State, local, tribal, and territorial. 
OEC also led the development of the first National Emergency 
Communications Plan (NECP).
    The NCS, transferred from the Department of Defense to DHS in 2003, 
was created by Executive order under President Kennedy to support the 
telecommunications functions of the Executive Office of the President 
and all Federal departments and agencies for Continuity of Government, 
Enduring Constitutional Government, and Continuity of Operations. 
Presidents Reagan and George W. Bush each issued Executive orders that 
evolved the responsibilities and structure of the NCS. Today, the NCS 
is an interagency system comprised of the telecommunications assets of 
24 Federal departments and agencies, each with significant operational, 
policy, regulatory, and enforcement responsibilities. The NCS 
coordinates telecommunications preparedness, response, and restoration 
activities across its 24-member agencies through the NCS Committee of 
Principals, which consists of senior government officials from each of 
the 24 member agencies, ensuring a diverse representation across the 
NCS that includes the full range of Federal telecommunications assets.
                   office of emergency communications
    The creation of DHS and OEC were key steps toward improving the 
communication capabilities of those who are often the first to arrive 
at the scene of an incident--the Nation's emergency responders. 
Inadequate emergency communications have been a critical gap in our 
Nation's preparedness, and previous efforts to address this issue were 
hampered by the lack of a strong partnership between the Federal 
Government and the public safety community. In addition, the Nation 
lacked an overarching strategy to guide emergency communications 
planning and build capabilities at all levels of government.
    In the last 4 years, OEC has worked to fill many of these and other 
gaps, and we are seeing progress in several key areas that enable 
emergency responders to interoperate in an all-hazards environment. As 
part of its mission, OEC led a comprehensive nationwide planning effort 
with more than 150 stakeholders from the emergency response community 
to develop the NECP. This included significant feedback and 
coordination with the SAFECOM Executive Committee, the SAFECOM 
Emergency Response Council, and the National Public Safety 
Telecommunications Council. These stakeholder groups represent the 
interests of millions of emergency responders, as well as the State and 
local governments that public safety communications serves. Involving 
these groups from the beginning ensured that the plan took 
stakeholders' input into account and would be widely accepted in the 
public safety community.
    In the almost 3 years since it was released, the NECP has been 
instrumental in defining communication priorities for public safety 
personnel at all levels of government. OEC has been driving 
implementation of the NECP in coordination with its Federal, State, and 
local partners, and we are seeing measurable improvements with building 
capabilities and closing gaps identified in the plan for governance, 
training, operating procedures, and others, including:
      Enhanced Statewide Coordination.--The creation of statewide 
        communication interoperability plans (SCIPs), statewide 
        interoperability coordinators (SWICs) and statewide 
        interoperability governing bodies (SIGBs) has improved 
        coordination of emergency communications activities and 
        investments throughout all 56 States and territories. Through 
        the SCIP development and updating process, the SWICs, in 
        collaboration with their SIGBs, have been effective in helping 
        States define their communications needs and future investments 
        and ensuring that Federal funding is directed where it is 
        needed most. In addition, OEC has conducted nearly 150 
        workshops over the past 3 years to assist States implement and 
        update their SCIPs.
      Common Plans, Protocols, and Procedures.--The use of standardized 
        plans and procedures is driving improved command, control, and 
        communications among emergency responder agencies in the field. 
        To facilitate this, OEC and FEMA have worked with more than 140 
        jurisdictions, including urban area security initiative (UASI) 
        regions, to develop tactical interoperable communications plans 
        that document formalized interoperability governance groups, 
        standardized policies and procedures, and emergency 
        communications equipment inventories. States continue to 
        develop these communications plans to cover additional regions.
      Targeted Technical Assistance.--OEC has implemented a technical 
        assistance strategy to ensure that all States and territories 
        can request and receive its targeted, on-site emergency 
        communications assistance, while also focusing support on the 
        States and urban areas most in need. These offerings are 
        tailored to support the priorities in each State's or 
        territory's SCIP and the objectives of the NECP. Since 2008, 
        the 56 States and territories have combined to request more 
        than 750 individual technical assistance services from OEC for 
        support with the development of governance structures, tactical 
        and strategic planning, and a variety of engineering services.
      Increased Training Opportunities.--OEC has developed 
        Communications Unit Leader (COML) and Communications Technician 
        (COMT) courses to improve emergency responders' proficiency 
        with communications equipment and to assist them with 
        coordinating roles and responsibilities during an incident or 
        event. The COML program has been embraced by emergency 
        responders nationwide, and OEC has trained more than 3,500 
        responders, technicians, and planners to lead communications at 
        incidents across the Nation, including local floods, blizzards, 
        and wildfires. Trained COMLs have also contributed to recovery 
        efforts throughout the United States, including the recent 
        outbreak of tornados and massive flooding in the Midwest and 
        Southeast.
      Enhanced Border Communications and Coordination.--OEC has been 
        actively working with our international partners at the 
        Northern and Southern borders to improve cross-border 
        interoperable communications planning, policy development, and 
        operations communications. Last month, DHS awarded $25 million 
        in grant funding to States and local communities under the 
        Border Interoperability Demonstration Project--a one-time 
        competitive grant program focused on developing innovative 
        solutions to strengthen interoperable emergency communications 
        along the United States borders with our partners in Canada and 
        Mexico.
      Improved Governance and Coordination.--OEC is working with 
        Federal, regional, State, and local agencies to increase 
        coordination, information sharing, and oversight of 
        interoperability through formal governance structures and 
        partnerships. For example:
    --Statewide Interoperability Governing Bodies have been created in 
            every State and territory and include representatives from 
            all levels of government to coordinate and support 
            statewide interoperability. The State of Indiana, for 
            example, has implemented an effective governance process 
            for emergency communications through the Statewide 
            Interoperability Executive Committee, which also serves as 
            an advisory group to the State's Integrated Public Safety 
            Commission. Many States have also implemented regional 
            interoperability committees to provide insight into the 
            statewide strategy from an operational perspective.
    --OEC continues to receive insightful feedback and input from 
            responders, associations, and emergency communications 
            professionals through the SAFECOM Executive Committee, 
            SAFECOM Emergency Response Council, and the newly chartered 
            National Council of Statewide Interoperability 
            Coordinators.
    --OEC recently instituted a regional coordination program to 
            strengthen collaboration and knowledge sharing with our 
            stakeholders. OEC has established a regional coordinator in 
            each of the 10 FEMA regions, and they regularly participate 
            in the statewide interoperability governing bodies, the 
            UASI interoperability meetings and their respective FEMA 
            regional emergency communications coordination working 
            groups.
    --The Emergency Communications Preparedness Center (ECPC) provides 
            an inter-departmental mechanism to coordinate common 
            solutions, streamline development of policy and plans, and 
            jointly engage State, local, and tribal partners. The ECPC 
            has achieved early successes through defining a strategic 
            agenda that reflects shared member priorities and 
            establishes issue-specific focus groups to drive immediate 
            action. Key accomplishments include:
      -- Coordinated inputs on national policy, such as Federal agency 
            comments on the Federal Communications Commission's (FCC) 
            National Broadband Plan;
      -- Developed and published recommendations for common Federal 
            grant guidance to synchronize emergency communications 
            spending across more than 40 grant programs;
      -- Initiated efforts to drive capability and resource sharing 
            through mapping and analyzing existing Federal 
            communications resources; and
      -- Implemented a clearinghouse capability and data repository to 
            yield improved information sharing and coordination.
    --To complement intergovernmental activities, OEC facilitates the 
            Department's One DHS Emergency Communications Committee. 
            This subcommittee, comprising DHS headquarters and 
            component senior executives, provides a vital mechanism for 
            maximizing the efficiency and effectiveness of the 
            Department's emergency communications investments and 
            activities. The One DHS Committee reached its most 
            significant milestone recently with the creation of the 
            first-ever unified One DHS Emergency Communications 
            Strategy. The strategy establishes a common vision ``to 
            ensure access to and exchange of mission-critical 
            information across the homeland security enterprise 
            anywhere, anytime, through unified capabilities''. The 
            strategy also sets goals for coordinating and improving 
            emergency communications architecture, investment, 
            governance, and operations.
    Further, OEC and FEMA have partnered on the Interoperable Emergency 
Communications Grant Program (IECGP), which has been a primary vehicle 
for implementing the Department's interoperability goals and has 
supported many of these initiatives through its emphasis on:
  --Establishing governance bodies that conduct strategic planning and 
        prioritize investments;
  --Supporting SWICs who ensure federally funded projects align to 
        strategic plans; and
  --Funding the implementation of NECP goals, allowing DHS to measure 
        progress in emergency communications capabilities nationwide.
    By focusing on these core capabilities--planning, governance, 
training, interagency coordination, and technology support--emergency 
response agencies are becoming more equipped to establish and maintain 
interoperable communications during response and recovery activities. 
One such example of how this is translating into ``real world'' success 
can be seen in Louisiana, where recovery operations have benefited from 
years of governance planning, relationship building, and communications 
training. Using lessons learned and improvement efforts associated with 
Hurricane Katrina, Louisiana statewide officials are invested in 
improving interoperable and operable communications throughout the 
State, including the deployment of a robust statewide communication 
systems for public safety use.
    The State's standards-based system--called the Louisiana Wireless 
Information Network--has effectively supported interoperable 
communications performance during evacuation efforts for Hurricane 
Gustav and, more recently, the response to the BP oil spill. 
Interagency coordination was tested from the moment that the explosion 
occurred last April, and local responders were able to successfully 
communicate with each other and with the United States Coast Guard. 
Louisiana also coordinated with surrounding States to create talk 
groups designated for the spill and effectively used trained COMLs to 
initiate the process of action planning and lead major communications 
efforts throughout operations, including connecting multiple systems 
from surrounding States. Of course our hope is that another large 
incident in the gulf will never happen, but if it does, Federal, State, 
and local agencies have demonstrated that they are more prepared and 
coordinated than ever before.
                         necp goal assessments
    More than 85 percent of the NECP milestones have been achieved to 
date, and progress is evident in all of the NECP priority areas, such 
as governance, training, and coordination. Nevertheless, considerable 
work still remains to achieve the long-term vision of the NECP, in 
which emergency responders can communicate as needed, on demand, as 
authorized, at all levels of government and across all disciplines.
    To move the Nation even closer to that vision, OEC is engaged in a 
comprehensive, nationwide assessment of emergency communications 
capabilities as it implements the NECP goals. When complete, this 
assessment will provide a detailed view of capabilities at the county 
or county-equivalent level in all 56 States and territories. This 
detailed look at emergency communications--the first of its kind--will 
generate valuable data for both DHS and the States to use to more 
effectively and efficiently focus future resources and improvement 
activities.
    OEC recently completed the measurement of goal 1 of the NECP, which 
focused on emergency communications capabilities in the Nation's 
largest cities. To measure NECP goal 1, OEC worked with the UASI 
regions to assess their ability to demonstrate response-level emergency 
communications during a real-world event in each region. This approach 
enabled OEC to evaluate their use of emergency communications in real-
world settings and in an economically efficient manner.
    The results have been encouraging. Based on the capabilities 
documented at each goal 1 event, all 60 urban areas were able to 
demonstrate the ability to establish response-level emergency 
communications in accordance with NECP goal 1. This illustrated how the 
significant organizational and technical investments made by the UASIs 
have improved their emergency communications capabilities in recent 
years. In fact, OEC saw measurable improvements over key gaps 
identified in the previous DHS assessment of these urban areas in 2007, 
the Tactical Interoperable Communications Scorecards report. Some of 
these areas of progress were the result of DHS programs and funding, 
including the following:
      Grants.--The NECP goal 1 results showed an increase in the number 
        of UASI regions using Project 25 (P25) digital radio standards-
        based systems, which are designed to allow interoperability 
        regardless of equipment vendor. The implementation of P25 
        systems has been a provision in DHS grant guidance for several 
        years, including the SAFECOM grant guidance and the Public 
        Safety Interoperable Communications Grant Program.
      Training and Technical Assistance.--As previously discussed, OEC 
        has been offering a COML training program that has trained more 
        than 3,500 responders, technicians, and planners to lead 
        communications at incidents across the Nation. This program 
        began in part as a response to gaps identified in the 2007 DHS 
        Tactical Interoperable Communications Plan (TICP) Scorecard 
        assessment, specifically the lack of trained COMLs. During the 
        NECP goal 1 events, OEC found that a large majority of the UASI 
        regions had assigned DHS-trained COMLs to handle planning and 
        implementing multi-system communications for the event.
      Exercises.--Almost all UASI regions reported that agencies within 
        their regions are now holding communication-specific exercises, 
        and approximately one-half of them reported that the agencies 
        are holding these exercises on a regular basis. This represents 
        significant progress over similar findings from the DHS TICP 
        report in 2007, which concluded that ``almost no [UASI] region 
        had completed a communications-focused exercise before the TICP 
        validation exercise''.
    OEC is currently in the process of implementing goal 2 measurement, 
which calls for an assessment of emergency communications performance 
and capabilities at the county level (or county-equivalent level, such 
as parishes in Louisiana). This is a large undertaking, as there are 
more than 3,000 counties in the United States. OEC is working closely 
with the States and territories to complete this assessment by the end 
of this year and will be following up with them on how to use the 
results to update their SCIPs and more effectively utilize resources. 
From a DHS perspective, we believe the NECP goals assessment will 
generate much needed capability data to more strategically direct 
Federal and State emergency communications resources--including grant 
funds and technical assistance support--to where they are needed most.
                    public safety broadband network
    Earlier this year, President Obama outlined his commitment to the 
development and deployment of a nationwide, interoperable wireless 
network for public safety, a key recommendation from the 9/11 
Commission Report. The administration's program in support of such a 
network is a component of its Wireless Innovation and Infrastructure 
Initiative, which was outlined in its fiscal year 2012 budget. The 
public safety elements of the initiative include an accounting for the 
foregone auction revenues resulting from reallocation of the D block 
for use in the public safety broadband network; $7 billion in direct 
financial support for network deployment; $500 million for development 
and testing of broadband public safety requirements, standards and 
software applications (to be administered through the National 
Institute of Standards and Technology); and $5 billion for support to 
rural broadband services, including public safety services. Many of 
these proposals are included in legislation that has been introduced in 
the Congress.
    OEC has been extremely active in support of the President's 
Wireless Innovation and Infrastructure Initiative and helping prepare 
the Nation's responders for the deployment of broadband. This includes 
working closely with its Federal partners at the Departments of 
Commerce and Justice to help set the broad policy framework for the 
planned network, as well as coordinating with its State and local 
partners to ensure the public safety community's requirements are fully 
represented in network broadband planning and implementation efforts. 
More specific examples include the following OEC broadband-focused 
programs and activities:
      Policy and Planning.--OEC is preparing an update to the NECP for 
        release later this year that will identify key broadband 
        challenges and recommend near-term actions to foster the 
        integration of broadband technologies and data capabilities. 
        The NECP update also will propose further measures to support 
        current interoperability efforts and to maintain existing land 
        mobile radio communications capabilities until broadband 
        technologies can support mission-critical communications for 
        first responders.
      Outreach and Coordination.--OEC is working with all of its 
        stakeholder groups--including the SAFECOM Executive Committee 
        and Emergency Response Council, National Council of Statewide 
        Interoperability Coordinators, ECPC, and the One DHS Committee 
        on Emergency Communications--to ensure the views and 
        requirements of the public safety community are fully 
        represented in broadband planning and implementation efforts.
    --OEC supports outreach efforts related to the development and 
            deployment of a nationwide public safety broadband network 
            to include operational requirements, funding, standards, 
            spectrum requirements, and governance. This includes 
            support for an Innovation Roundtable with representatives 
            from government, associations, public safety, and industry. 
            OEC is also supporting a committee of jurisdictions that 
            received FCC waivers for early deployment of 700 MHz 
            broadband systems as they begin their efforts to build 
            networks. Through these efforts, OEC is continuing to 
            emphasize the need for planning and good governance, since 
            these elements of emergency communications have yielded 
            progress to date.
    --OEC continues to coordinate with the emergency response 
            community, preparing wireless broadband guidance documents 
            for SWICs, urban area and regional interoperability 
            coordinators, public officials and executives, and 
            emergency responders to support current NECP initiatives on 
            interoperability planning. OEC also continues to provide 
            emergency response stakeholders up-to-date and 
            comprehensive information about wireless broadband in the 
            emergency response environment. In addition, OEC is working 
            with States and jurisdictions to incorporate broadband 
            initiatives into the SCIPs.
    --To increase coordination of Federal efforts for broadband 
            implementation, the ECPC is working to identify Federal 
            broadband requirements, preparing a consolidated view of 
            emergency communications assets, addressing associated 
            legal and regulatory barriers, developing departmental 
            positions on pending broadband regulatory matters and 
            rulemakings, and establishing standardized grant guidance 
            and processes. The ECPC has identified the development of 
            broadband standards and research and development as one of 
            its strategic priorities for the coming year.
    --Concurrently, the One DHS for Emergency Communications Committee, 
            comprising DHS headquarters and component senior 
            executives, is providing consolidated departmental input 
            into Federal interagency efforts, as well as developing 
            strategies for broadband technology migration (i.e., 
            transition from current land mobile radio technology).
      Grants.--OEC's current SAFECOM grant guidance, which includes 
        input from State, local, territorial, and tribal responders, 
        contains a number of key provisions pertaining to broadband 
        deployment. Further, the ECPC Recommendations for Federal 
        Agencies: Financial Assistance for Emergency Communications, a 
        document for Federal emergency communications grant programs, 
        will include updated guidance concerning the deployment of the 
        Nationwide Public Safety Broadband Network.
      Technical Assistance.--OEC has developed a wireless broadband 
        technical assistance offering for 2011 to assist State, local, 
        territorial, tribal, and regional users develop and improve 
        their use of broadband technology in line with the vision of a 
        nationally interoperable network. The offering, which can be 
        tailored for each jurisdiction, will provide informational 
        briefings, governance models and standard operating procedures, 
        project planning, and engineering support.
    In addition, NCS provides technical advice to OEC regarding 
communications standards to ensure the proposed public safety network 
is interoperable with the commercial communications networks. NCS also 
ensures that the priority functions for national security emergency 
preparedness function seamlessly as they operate between the networks.
                     national communications system
    Since its inception, NCS has developed programs and services to 
address the unique communications challenges associated with 
communications divestiture, deregulation, natural disasters, and 
terrorist attacks on our Nation.
    As the co-lead for emergency support function No. 2 (ESF-2)--
communications, under the National Response Framework, NCS coordinates 
government and industry during planning for and response to disasters 
and major outages. The operational arm for communications activities is 
the 24/7 National Coordinating Center for Telecommunications (NCC), 
which coordinates emergency response operations supporting the National 
Response Framework. The NCC is, and has been, a consistent coordinating 
mechanism for managing efficient communications restoration and 
recovery activity for more than 25 years. The NCC also coordinates the 
communications assets of the NCS members to provide communications 
assistance during disasters (manmade or natural). During a response, 
the NCC also provides requirements priorities to industry partners.
    NCS also manages government industry partnerships to assist 
decisionmakers in understanding the risks to the communications sector. 
Under Homeland Security Presidential Directive-7, NCS is the sector-
specific agency for the communications sector and coordinates 
government and industry partners under the Critical Infrastructure 
Protection Advisory Committee Act to reduce communications sector risk. 
NCS also manages the President's National Security Telecommunications 
Advisory Committee (NSTAC), which comprises 19 chief executive officer-
level members from communications, information technology, and defense 
corporations. Most recently, the NSTAC examined four scenarios designed 
to stress future 2015-level networks, and provided the President with 
recommendations for technology enhancements and government investments 
that would provide the best network resilience and recovery.
    NCS capabilities include the following:
      Operational Activities.--NCS develops and maintains national 
        security and emergency preparedness (NS/EP) communications 
        priority services programs, such as the Government Emergency 
        Telecommunication System (GETS) and Wireless Priority Services 
        (WPS), which provide users with priority on commercial 
        networks. The GETS program is a White House-directed emergency 
        telecommunications service managed by NCS. GETS supports more 
        than 274,000 Federal, State, local, and tribal government, 
        industry, and NGO personnel in performing their NS/EP 
        communications missions by providing a robust mechanism to 
        complete calls during network congestion from anywhere in the 
        United States. Specifically, GETS provides 90 percent or more 
        call completion rates when network call volume is up to eight 
        times greater than normal capacity. For example, approximately 
        10,000 GETS calls were made with a 95-percent success rate 
        during the 9/11 attacks, and 1,231 GETS calls were made with a 
        90 percent or more success rate during the 2003 blackout.
      WPS is a nationwide program that provides priority NS/EP 
        telecommunications via selected commercial wireless carriers. 
        This program enhances the ability of 108,000 NS/EP subscribers 
        to complete calls through a degraded public switched telephone 
        network during a crisis or emergency situation. WPS calls 
        receive the next available radio channel during times of 
        wireless congestion and helps to ensure that key NS/EP 
        personnel can complete critical calls by providing priority 
        access for key leaders and supporting first responders. WPS 
        service provides authorized cellular users with the ability to 
        have priority within the public switched telephone network as 
        well as access to priority channels.
      The Telecommunications Service Priority (TSP) program authorizes 
        and provides priority treatment of NS/EP telecommunications 
        services. The TSP program provides service providers with an 
        FCC mandate for prioritizing service requests by identifying 
        those services critical to NS/EP. For example, a 
        telecommunications service with a TSP assignment will receive 
        priority by the service vendor before a non-TSP service. The 
        TSP program has two components: restoration and provisioning. A 
        restoration priority applies to telecommunications services to 
        ensure restoration before any other services. A provisioning 
        priority is obtained to facilitate priority installation of new 
        telecommunications services in response to an emergency. In 
        addition to daily operations, TSP program office personnel are 
        notified of presidentially declared disasters; activation of 
        the National Response Framework, ESF-2; and continuity of 
        operations and continuity of government (COOP/COG) plans. TSP 
        program office personnel are on call 24/7. TSP can save days to 
        weeks on the time required to return wireline voice/data 
        services, and there are more than 200,000 active TSP circuit 
        assignments in support of NS/EP communications.
      NCS continues to migrate GETS and WPS services to work across 
        evolving networks. NCS works with industry to enhance and 
        assure these priority programs are compatible with Next-
        Generation Network (NGN) technology.
      The modeling, analysis, and technology assessments team provides 
        expertise in modeling and analyzing current and future 
        protocols, algorithms, network designs, and capabilities that 
        will impact priority service communications in legacy and NGNs. 
        The modeling team also maintains a suite of specialized 
        infrastructure analysis tools to provide critical 
        infrastructure risk assessments for the communications sector 
        in the event of a manmade or natural disaster. The assessments 
        consist of the following:
    --Providing technical analysis of current and next-generation 
            communications systems, new technologies, physical and 
            logical architectures, and products related to 
            communications network infrastructures.
    --Determining what new and emerging communications technologies 
            under various congestion and failure conditions to identify 
            vulnerabilities and predict performance of existing and 
            next-generation networks.
    --Developing products to be used for COOP/COG functions during 
            disaster response related to Federal, State, local, and 
            tribal governments.
      Standards Activities.--The NCS standards team is an active leader 
        and contributor to various national and international standards 
        developing organizations, ensuring industry-wide adoption of 
        nonproprietary solutions for NS/EP preparedness 
        telecommunications requirements.
      The team provides leadership and representation in standards 
        bodies to recommend standards that, when implemented in 
        Internet protocol-based networks, will provide capabilities to 
        ensure national, State, and local leadership's ability to 
        communicate during times of crisis.
      The Third Generation Partnership Project, known as 3GPP, is 
        focused on the technical aspects associated with provisioning 
        priority services in Long Term Evolution networks and is being 
        pursued under the enhanced Multimedia Priority Service project. 
        In cooperation with the Alliance for Telecommunications 
        Industry Solutions (ATIS), NCS is developing an end-to-end NGN 
        GETS service call flow standard that specifies end-to-end call 
        flows. ATIS is also developing the baseline text for an 
        emergency telecommunications service wireline access 
        requirements standard. This standard details the network 
        element requirements for wireline access in support of digital 
        subscriber line, cable, fiber, and metro Ethernet.
      National Response Planning.--NCS is working with Federal, 
        regional, State, and local agencies to increase communications 
        coordination, information sharing, and oversight of emergency 
        preparedness activities to improve response to manmade and 
        natural disasters. NCS works with these entities to ensure a 
        coordinated response through formal governance structures and 
        partnerships.
  federal emergency management agency and office of cybersecurity and 
                      communications coordination
    FEMA and CS&C have collaborated on a number of programs and 
activities to improve communications for emergency responders in recent 
years and are committed to leveraging collective expertise to 
coordinate future programs, services, policies, and activities 
supporting emerging communications. This includes key policy and 
planning activities, such as emergency communications grants and 
implementing the NECP, as well as incident-based, field programs, such 
as ESF-2 and the national level exercise. Specific areas of 
coordination are as follows:
      Grants.--In addition to managing the IECGP, OEC, and the FEMA 
        Grants Program Directorate have chaired an ECPC focus group 
        charged with improving the coordination of Federal grant 
        programs that fund emergency communications with other 
        departments and agencies. If IECGP is not reauthorized, the 
        goals, priorities, and activities previously supported through 
        IECGP must be incorporated into remaining DHS grant programs 
        that fund emergency communications to preserve the gains that 
        FEMA and OEC have made toward improving emergency 
        communications. These activities include:
    --Funding for SWICs;
    --Funding to complete SCIP updates and reports;
    --Funding for activities related the implementation of the NECP 
            goals; and
    --Funding for narrowbanding and public safety broadband activities.
      Regional Coordination.--OEC regional coordinators are active 
        participants in FEMA regional emergency communications 
        coordination working groups. Together, these regional 
        coordination efforts work to strengthen emergency 
        communications capabilities across tribal, local, State, and 
        Federal governments at the regional level through trusted 
        relationships, collaboration, and knowledge sharing.
      Exercises.--Both OEC and NCS worked with FEMA's National Exercise 
        Division to develop criteria for the emergency communications 
        component of the recently completed national level exercise 
        2011 and provided representatives to monitor and assess the 
        emergency communications elements of the exercise.
      Planning.--OEC and the FEMA Disaster Emergency Communications 
        Division have worked together to implement dozens of NECP 
        milestones and key activities and have coordinated on a number 
        of State and territorial strategic and tactical planning 
        initiatives for emergency communications.
         dedicated communications with critical infrastructure
    As this week I transitioned from Assistant Secretary for 
Cybersecurity and Communications to the Acting Deputy Under Secretary 
of NPPD, I believe it is necessary for me to also highlight the 
important work under way within the NPPD Office of Infrastructure 
Protection (IP). IP is responsible for leading the national effort to 
protect and make resilient infrastructure critical to the Nation and 
its way of life. IP plays an important role in ensuring that emergency 
responders have the information that they need about the critical 
infrastructure in their communities so that their communities can make 
effective and risk-informed decisions before, during, and after 
incidents.
    For example, IP deploys protective security advisors to every State 
to help State and local partners identify and protect critical 
infrastructure by working in close coordination and collaboration with 
the owners and operators of that infrastructure. By creating a 
community of interest around critical infrastructure protection and 
resilience issues at the local level, IP has helped prepare communities 
for incidents, whether natural or manmade.
    During incidents, our protective security advisors become 
infrastructure liaisons, advising Federal, State, local, and private 
sector preparation and response activities. Their advice leverages the 
full capabilities of IP and other Federal partners, such as the 
advanced modeling, simulation, and analysis provided during incidents 
by the National Infrastructure Simulation and Analysis Center (NISAC). 
NISAC was created by the Congress ``to serve as a source of national 
competence to address critical infrastructure protection and 
continuity'', and NISAC analysis helps Federal, State, and local 
partners prioritize their response and recovery activities to ensure 
that communities impacted by incidents minimize the consequences and 
can recover as quickly as possible.
    The partnership structure established by the National 
Infrastructure Protection Plan, and managed by IP, also helps to ensure 
that emergency managers and communities benefit from the full breadth 
of expertise available for critical infrastructure protection and 
restoration activities. The partnership structure also provides a means 
by which to disseminate information to Federal, State, local, and 
private sector partners during incidents, enabling the efficient 
transfer of knowledge. Such information is both pushed to partners 
through dedicated critical infrastructure portals on the Homeland 
Security Information Network and pulled from partners who report 
infrastructure disruptions to the 24/7 National Infrastructure 
Coordinating Center, which is operated by IP.
                               conclusion
    The Department appreciates the subcommittee's support for our 
emergency management and interoperable emergency communications 
activities. Thank you again for this opportunity to testify. I would be 
pleased to answer your questions.

                         NATIONAL CAPABILITIES

    Senator Landrieu. Thank you very much.
    Let me begin. We will do a first round of questioning.
    Administrator Fugate, you have talked many times about 
fundamentally changing how we go about preparing for disasters. 
You have been able to implement some of those changes in your 
very impressive tenure as Administrator. But we have no common 
way right now, it seems, of assessing risks, measuring the 
capabilities, and matching those risks to various levels of 
government, and then applying limited resources to the best 
possible investments.
    As you remember, the Congress called for capability 
assessment in the Post-Katrina Emergency Management Reform Act. 
We still do not seem to have that assessment of readiness. In 
other words, a measurement to say how ready we are, such as 
using an international measurement--and the rule of thumb is if 
you cannot measure it, you cannot manage it. So as we are 
dealing with these storms, tornadoes and hurricanes, we must 
continue to run parallel, dealing with what is happening today 
but planning always for the future.
    Are we any closer to getting that assessment that we need 
or a way to measure how ready communities are? So some 
communities might be five-star ready. Some communities could be 
three-star ready. Some communities would not have any star at 
all. Are we closer to getting that kind of system of 
measurement? Because that would really help us as Senator Coats 
and I try to allocate resources effectively to the areas that 
either need the help and are not quite there yet or stop 
funding programs where we have reached where we were trying to 
go. And that is an important, I think, focus of my 
appropriations leadership that I would like to provide to this 
budget. Do we have any measurements? I understand we have spent 
about $58 million in a variety of different attempts to achieve 
that.
    Mr. Fugate. Madam Chair, my question when I got to FEMA was 
a question I had before: What is the national level we have to 
build to? I think when you start trying to measure below that 
level, it really gets away from the focus we should have had at 
the Federal level. What is the national threat? What do we have 
to respond against? How big is big? You hear the term ``black 
swan'' or the events you can never plan for. And then you saw 
what happened in Japan with the tsunami and the multiple 
impacts of that.
    What we have done at FEMA--and it is now written in our 
strategic plan--is take the first steps to define what a 
national capability requirement looks like. We looked at 
several of the scenarios. We modeled them and we ran the 
numbers. We looked at an improvised nuclear device detonation 
in an urban area. We looked at our earthquake risk and looked 
at a maximum of maximums there. And we also looked at similar 
programs with hurricanes.
    The first step is to define how big it could be. And we 
have those numbers. What we do know is there is no way we can 
respond to that, nor could we build the capability to do a 
government-only solution. But the analysis is giving us the 
tools to come back and go, ``What are the things that we need 
to do to build a national response, not just a Federal 
response?'' And so you talk about those measures. How do we 
determine how well prepared we are?
    We are finding that maybe we need to come back and go, 
``Did we build the right structure?'' We have provided a lot of 
funds to State and local governments to build capabilities 
based upon their local hazards and statewide risk, but we never 
really looked at those as national capabilities. So one of the 
things that we know States have done--all 50 States are 
currently participants in the Emergency Management Assistance 
Compact--is to ask the question, ``Is now the time that we 
should start requiring that future funding mandate continued 
participation in the Emergency Management Assistance Compact so 
we can look at this funding as a national asset versus State by 
State?
    And then how effectively are States using those resources 
in-State? We have seen this in Indiana. We have seen this in 
the gulf coast. We saw in the response to Joplin that it was 
the mutual aid--these in-State capabilities many times that 
responded across State lines--that made the difference. So we 
are looking at how to start building that structure while you 
continue to define how you build, the national capability, and 
then what level each jurisdiction should be building as part of 
that on the basis of their hazards.

                       EMERGENCY RESPONSE SYSTEMS

    Senator Landrieu. The quicker we can get the answers to 
that, the better we will be able to build a bill to actually 
meet the needs of our country and our locals. So I will come 
back to you in a minute for dates or suggested dates on that.
    But let me ask Mr. Beers. The Office of Inspector General 
made three recommendations to improve the efficacy of first-
responder grants to ensure the grants were coordinated to 
mitigate duplication, document Agency rules, work with the 
Congress, et cetera. Are we making progress on those 
recommendations? And we seem to be sort of sitting at the 
crossroads on some of those issues. Can you respond?
    Mr. Beers. First of all, let me just say that in terms of 
trying to measure the capabilities that are currently in 
existence, we under the National Emergency Communications Plan 
basically have a three-goal measurement process that we are 
going through.
    The first goal was to look at the major metropolitan areas 
and ensure that they were able to respond within 1 hour to an 
emergency communications event. Obviously, these are 
preplanned, and I think that the success rate that we had so 
far--there are differences. Some are better than others, but 
they all achieved basically the minimum goals that we have set. 
Those were the major cities.
    We have gone now to the second phase, which is to take the 
non-major areas, and we are running that test to see whether 
those in other areas are able to be up and running with some 
kind of emergency response system within an hour of a time set. 
So we will move on with that and then do some further testing.
    But I just want to give you a sense of the effort that we 
are making to ensure that we can actually see how capable these 
localities' emergency response systems are. And it is not just 
in the city itself. It is multijurisdictional. So we need to 
make sure the city and the surrounding areas can do that.
    With respect to coordination of the grants program, we have 
in OEC a major effort to make sure that from the State level to 
the local level, those grants are all being coordinated. We 
work with the grant guidance that FEMA issues, and we work with 
FEMA for the grant awards. So it is actually a common effort 
for us on interoperable emergency communications.
    Senator Landrieu. Because, as I turn it over to Senator 
Coats, it would be very troublesome and very disappointing to 
have spent the money that we are investing in communications 
systems that do not talk to each other, and we need to make 
sure that they are as interoperable as we claim they are and 
that it works when the disaster strikes.
    Mr. Beers. If I may just add. That is what it showed in the 
Louisiana case or the gulf coast case with Deepwater Horizon, 
and that is what happened in Joplin, and that is what happened 
in Alabama and Mississippi. That was not just one locality that 
the tornado went through. It was adjacent localities that all 
came together working with FEMA and were able to talk to one 
another. So it is not that one locality can talk internally 
with itself. It is that they can talk across. And that is a 
result of the statewide interoperable plans that they have been 
developing. And that backbone allows those emergency responders 
to be able to talk to one another across jurisdictions, as well 
as to have resilient communications within a jurisdiction.
    Senator Landrieu. Thank you.
    Senator Coats.

                            MADRID EXERCISES

    Senator Coats. Madam Chair, thank you.
    Mr. Fugate, as you know, you have recently conducted a 
trial disaster situation relative to the New Madrid fault. Is 
there any preliminary information from that that gives you some 
insights as to what needs to be done, what was done 
effectively, what changes might need to be made in terms of 
preparing for a disaster of that nature, and the value of your 
test?
    Mr. Fugate. This was for NLE 2011, this year's New Madrid 
earthquake and other faults. We are still working on the quick 
look and the initial findings, but my observation was this was 
one of our largest exercises that we have conducted. It was an 
exercise in which we saw a lot more local and State 
participation as far as bringing teams in from different areas 
and working through problems. It continues to reinforce the 
need to do these levels of exercises to validate many of our 
planning assumptions and to test our communications and to test 
our ability to work as a team.
    Fortunately--or unfortunately, many of the things that we 
practiced in NLE 2011 we actually implemented in Missouri in 
the Joplin tornado outbreak. So we know that the level of 
participation was good. We saw a lot of different site 
activities. We saw a lot of the testing of our equipment 
interoperability in the teams and the lessons from that. I 
think, as we get those, we will have a better idea where we 
have to continue to work.
    But one thing that, coming back to Senator Landrieu, is 
really key to this is the ability to tie mutual aid and 
participation as mutual aid teams, to look at assets not as a 
local or State asset but as a national asset as part of the 
ability for Governors and local jurisdictions to share 
resources.

                 MOBILE DEVICES AND MOBILE TECHNOLOGIES

    Senator Coats. Thank you.
    I would like to direct the next question toward the use of 
social media to communicate and the interoperability of the 
public service connections, particularly in light of the 
changing technologies. It is so easy to commit to a certain 
program which will provide that interoperability and ability to 
communicate only to find that the technology has changed 
dramatically and you have got to rework your whole system or 
make do with a less viable option. I mean, it is just a matter 
of time between laptops and now it is iPads, and if you do not 
have an iPad 2, you are not up to speed because the first iPad 
is obsolete and you have just spent a bunch of money on this or 
that or the other. And as soon as you get the iPad 2, somebody 
says you should have gotten a Droid because you can download 
more apps for free.
    Senator Landrieu. I am impressed, Senator Coats.
    Senator Coats. I am learning this the hard way. I actually 
ran into somebody. Somebody asked her a question--how is your 
social media? And a lady said it is fine, but we have a lot of 
groups at church that we get together with and we bowl together 
every Tuesday night. Our social network is pretty strong. So 
those of us of a certain generation had to catch up with the 
technology.
    In any event, you get a situation like 9/11 and we were in 
the cell phone age at the time, but no one was able to get 
through as the lines were jammed or whatever. What types of 
considerations do you have to take relative to the use of the 
new technologies that will survive and be usable within a 
disaster of certain proportions that maybe takes down part of 
the network? What do we do then?
    Mr. Fugate. I think when you talk about social media and 
you talk about cells and other things, I think what we are 
really finding is more and more people are moving toward mobile 
devices and mobile technologies. And rather than focusing on a 
platform, we have to focus on the protocols to get information 
out. One of the things that Under Secretary Rand Beers' folks 
at the National Communications Service do is work with the 
wireless carriers to get restoration quickly.
    One of the things that, in working with the Federal 
Communications Commission (FCC), we are doing with the 
emergency alert system is addressing the issue of cellular 
congestion and looking at mobile devices as a way to alert and 
warn people during a crisis. Part of that has been working with 
industry to implement what is now called the Personal Location 
Alert Network (PLAN).
    One of the things that cell phones can do that does not 
require--or it gets into the issue of congestion--is they are 
radio receivers and you can actually broadcast to them versus 
making individual calls or text messages and running into 
congestion issues. So we recently announced in New York City 
with Mayor Bloomberg kicking off the implementation of PLAN, 
which will allow people with mobile devices to receive alerts 
from the official sources, whether it is the National Weather 
Service or local or State officials, on the basis of where they 
are, not what they have signed up for. And that system is being 
rolled out across the Nation. More than 200 carriers are 
participating in this. Device manufacturers are providing the 
software updates and are identifying the devices that will 
work. And we feel that, over the next several years, this new 
tool will allow us to reach mobile users much more effectively 
than even some of the existing warning systems. But it is not 
based upon a platform or only one type of technology.
    But the other part of that is also recognizing we have to 
ensure that we communicate the way people communicate, whether 
it is going to the bowling alley or it is sending out a tweet 
or it is updating a Facebook page or it is walking down the 
street and talking to people.
    Senator Coats. Thank you.
    Mr. Beers. Sir, might I add just one point to that?
    The Administrator is talking about talking with the public. 
The thing to remember that is always significant here is that 
for emergency responders, we are still in a land mobile radio 
environment, and we cannot move off that environment until we 
have secure, resilient communications. That migration is going 
to take some time. To make the cell phone system and that 
resilient is, obviously, something we want to do, but for 
emergency responders, that has to work all the time. It cannot 
be something that does not work. So we are still using land 
mobile radios. We will move when we can move, but they are not 
going to give those up until they know what they move to is 
going to be able to work all the time or effectively all the 
time. So we have got that issue to deal with as well.
    Senator Coats. Thank you.
    Thank you, Madam Chair.
    Senator Landrieu. Thank you.
    In order of appearance, Senator Tester is next and then 
Senator Cochran.

                          DISASTER RELIEF FUND

    Senator Tester. Thank you, Madam Chair.
    Administrator Fugate, as we have seen an almost 
unprecedented string of weather-related disasters across the 
country this spring, the communities and families who have been 
impacted will undoubtedly look to FEMA, as they already have, 
timely services and assistance to help them get them back on 
their feet. That is a significant responsibility that you have.
    And as the disaster assistance fund is further depleted, it 
is going to force you to make some very difficult decisions. 
The Congress needs to do its job and it needs to get you the 
funding it needs. There is no doubt about that. But the cost of 
those disasters will continue to mount and there are a lot of 
folks out there that are in need.
    I have several questions, and you can answer them in any 
order you want.
    Can you provide us with an update on the current DRF 
shortfall?
    And does the recently passed House Homeland Security 
appropriations bill even come close to providing what you need? 
It is my understanding it is at least $1 billion short.
    Mr. Fugate. In the current fiscal year, we are watching 
very closely the obligations for the most recent disasters. 
Prior to the most recent flooding and tornadoes, we were 
projecting that we would remain above $1 billion to the end of 
the fiscal year and not have to implement immediate needs 
funding. But with the more recent disasters and the fact that 
we do not have completed damage assessments, we are continuing 
to assess that very closely to see if the public assistance and 
requirements to support the initial response would require us 
to do immediate needs funding.
    As for the fiscal year 2012, again this goes back to 
something the chairlady basically touched on, and that is the 
philosophical way of funding disasters. Do we do that through 
full appropriations or do we look at that--particularly in the 
older disasters that were extreme events that go beyond what we 
have historically budgeted for, do we use another tool? And I 
think that is a question that needs a lot of discussion. How do 
we address the older disasters, as well as should we be 
budgeting at a continuation level of disasters we expect to get 
and treat these as extraordinary events, or do we look at that 
as a budget issue that we would look at in our baseline funding 
request?

              FISCAL YEAR 2012 DISASTER RELIEF FUND BUDGET

    Senator Tester. You know what the needs are out there. The 
question I really had was, does the House-passed budget come 
close to meeting your needs?
    Mr. Fugate. For fiscal year 2012, sir, the answer probably 
is going to come back to, given what we had projected on 
closing out disasters and putting money back into the DRF, we 
were still looking at when we would require immediate needs 
funding for 2012. I do not have a timeframe on that, and with 
these most recent disasters, all of that projection I think has 
got to go back to what we are going to be dealing with this 
summer.
    Senator Tester. You got 36 States on the map. According to 
Senator Coats, he has got 37. I got 38, and God knows what else 
is out there. You are the guy on the ground. You are the guy 
that this Senate and the House, I think, look to to make sure 
that there is adequate funding out there because you know as 
well as I do. I ask things of you as a Senator from Montana on 
behalf of Montanans. Senator Coats, Senator Landrieu will do 
the same thing. It is not unlike any other budget. You got to 
tell us. Is it adequate or is it not?
    Mr. Fugate. Senator, for this year, we have to add up the 
damage to see if we are going to have to go to the immediate 
needs for 2012. The continued practice of this administration 
and previous administrations has asked for a baseline budget 
based upon a level of existing disasters that does not always 
factor in existing catastrophic disasters. But the other part 
of that is looking at how much of that we are going to need for 
the 2012 budget.
    Senator Tester. I got you. I do not want to beat you up too 
bad.
    Senator Landrieu. It is a good line of questioning.
    Senator Tester. As I look at this map and as you propose 
the budget, because you were around for this budget that was 
proposed, did you anticipate the kind of emergency situations 
that were going to arise? I mean, I am looking at a map that is 
primarily green, and green is not a good color in this case.
    Mr. Fugate. No. This year has been rather exceptional. But 
I would also point out that, although you have many States that 
are green, many of those States are actually operating under 
what we call fire management assistance grants. So they do not 
have a large-scale event like a hurricane or some other large 
outbreak.
    Many of these disasters, as unfortunate as they are, have 
been very focused. I think the chairwoman would recognize that, 
when you get a hurricane, they are so much larger. Again, as 
bad as the devastation is, as an example in Joplin, the public 
infrastructure losses will probably be primary debris. We only 
had a couple of public buildings damaged unlike what we would 
see in an earthquake or hurricane. So again, although you have 
a lot of States colored, it is not always going to be to the 
same level we see in these more catastrophic events.

                          DISASTER ASSISTANCE

    Senator Tester. Look, none of us on this panel want to 
spend money that does not have to be spent, but by the same 
token, when I flew over southern Montana and see the roads and 
the bridges that are out--and I have northern Montana just 
getting hit this week. I mean, we have got Roundup that is 
going to be flooded again. It probably is already flooded right 
now. We got a levee in Glasgow that is about to be breached, if 
it is not breached right now, on the Missouri River.
    I am going to shut her down. Affected communities. The 
representatives of those affected communities--what can they do 
to best ensure that they are in the proper position to receive 
the assistance that they need in a timely manner?
    Mr. Fugate. The most important thing is, again, once a 
Governor has requested a disaster declaration--not every 
disaster warrants a Stafford Act declaration. We do say no. 
That is a fact of life. But when the President has declared 
that disaster, the important things are again to get their 
documentation, work with the State and with FEMA to get their 
claims in that are eligible, and process those quickly. There 
is a lot of work on the initial end of these responses. As we 
get into the out-years, things can slow down. I think it is 
important that as quickly as we can identify what the total 
cost impacts will be, the better we can assess where the DRF is 
and whether there would be a shortfall requiring any immediate 
needs funding restrictions.
    Senator Tester. I appreciate that.
    And I thank the chair.
    Senator Landrieu. Thank you.
    And I will call the subcommittee's attention to the chart 
that is being put up that gets to the heart of what Senator 
Tester was asking. The President has requested $1.8 billion in 
the baseline for 2012, but your estimate, your low estimate, is 
$3.8 billion and your high estimate is $6.6 billion. So there 
is quite a delta that we are going to have to fix to attend to 
the needs that the Senator from Montana was raising.
    Senator Cochran.

                          EARLY WARNING SYSTEM

    Senator Cochran. Madam Chair, thank you for chairing this 
important hearing.
    Mr. Fugate, we are aware of the fact that you served as 
head of the Florida Division of Emergency Management in your 
earlier incarnation as an administrator, having jurisdiction 
over many of these programs that we are talking about today. 
And I know that our State has benefited from your experience 
because of the damages that we have sustained in Mississippi 
during the hurricane season and beyond. Recent events have 
demonstrated how serious that can be.
    Just looking on the television screen and trying to imagine 
what it was like during those times when the tornadoes were 
coming through our State and neighboring States, it is just 
totally unbelievable. And what is really unbelievable is that 
people survived it.
    Tell me how important the early warning system is and what 
was your experience that you gained from these recent events 
that helped equip you to know how to respond as a Federal 
administrator?
    Mr. Fugate. The first part is that the National Weather 
Service's approach to forecasting for severe weather is not 
much unlike forecasting hurricanes. They have the Storm 
Prediction Center, which gave the outlooks. In both of these 
outbreaks, they had identified a very significant risk of 
violent tornadoes. Actual warning times varied, but 15- to 20-
minute warnings were issued prior to the tornadoes touching 
down. And when you ask people if they had somewhere to go, and 
they go, ``Well, we did not have a basement. A lot of our homes 
are slab on grade''. And when you are dealing with F4 and F5 
tornadoes, there are not too many places to go. They did the 
things that reduced the loss of life. They got in their 
bathtubs. They got in their closets. They did things that 
reduced that impact.
    The United States had seen a significant reduction in loss 
of life for tornadoes, it seemed like, every year, but we are 
seeing an uptick. People are questioning why. I think it is 
because you are dealing with the rarity of these extremely 
violent tornadoes, and I think it goes back to some of the 
things we need to look at. And building in these areas, if 
people get the warning but have nowhere to go or do not know 
what to do, we do not change the outcome. I think we need to 
put a renewed emphasis on things such as safe rooms in home 
construction, but particularly in public safety buildings where 
we may not be able to harden a building for an F5 tornado, but 
we certainly should be able to build a space so that 
firefighters, police officers, and paramedics have a safe place 
to be during the storm so they can respond to their community 
after the storm.

                         HURRICANE PREPAREDNESS

    Senator Cochran. In our recent experience with gulf coast 
hurricanes, we got another wakeup call. Just because you had 
one last year does not mean you are not going to have one this 
year. It seems like Haley Barbour, our Governor, has had his 
hands full in responding to hurricanes. Katrina was the huge 
one.
    Were you here in Washington or in Florida when Katrina hit?
    Mr. Fugate. I was in Florida for the 2004 and 2005 
hurricane season, sir.
    Senator Cochran. Do you have any observations about the 
budget request now specifically as it relates to hurricane 
preparedness and preparedness for Mississippi River flooding 
like we have seen this year, like we had not seen since 1924 I 
think was the big flood year? What is your estimate of the 
sufficiency of the budget request to deal with events like 
this?
    Mr. Fugate. Again, I think looking at what it would take to 
do the initial response--and that is one of the reasons we 
watch the DRF so closely. We do not want the balances dropping 
below the point where we cannot respond to the next disaster. 
We, going into this hurricane season, are in good shape.
    But I will tell you this. If we have a large-scale outbreak 
or a big hurricane hit, those funds will diminish rapidly. The 
costs of responding to these larger-scale disasters are 
substantially greater than what we have seen in the recent 
response. So that is always a factor when you look at large-
scale impacts from earthquakes or from hurricanes. As bad as 
these have been, they have been rather focused in their areas, 
and therefore do not require a substantial amount of resources 
to complete an initial response to.
    Senator Cochran. Do we have a supplemental pending at this 
time that contains funding that your Agency needs?
    Mr. Fugate. Not based upon the hurricane season, sir. And 
we are looking at where we are on our damage assessments to 
determine if we would need any additional funds this fiscal 
year for the current response to the tornadoes and floods.
    Senator Cochran. We do not want you to be shy about sitting 
there and not asking for the funds that we need in our States 
that have been hit hard by these storms. I hope you will be 
arguing in the meetings you have in the administration to be 
generous.
    Mr. Fugate. Yes, sir.
    Senator Landrieu. Thank you, Senator Cochran.
    Senator Leahy.

                            VERMONT FLOODING

    Senator Leahy. Thank you very much.
    Mr. Fugate, you and I had a nice chat the other day, and I 
appreciate you calling me back on what I understand was a very 
busy day. I guess most of your days are pretty busy.
    As I mentioned in our conversation, I talked about those 
series of devastating flooding disasters we have had in 
Vermont. I am not suggesting it is like along the Mississippi 
River, but for our little State of 600,000, it is virtually 
unprecedented.
    Lake Champlain, which goes the length of the western side 
of the State, is 103 feet above sea level. We have had a huge 
amount of snow over the winter that has melted and then the 
rain started. We have more thunderstorms coming again tonight. 
It is the wettest spring we have ever had. No lives lost, but I 
know that in our capital city of Montpelier and in the city of 
Barre homes and businesses have been flooded out and destroyed. 
I know both of these places very well. I was born in one, and 
my father in the other. The Governor, Peter Shumlin, requested 
a major disaster declaration from the President. He has the 
full support of all of us in the delegation.
    And I know the FEMA investigators went up to Vermont to 
assess the damage. I appreciate that. They were there right 
away. I think your staff was there for weeks. And I think we 
certainly met the threshold for a declaration. I hope it can be 
issued soon. I hope they will have individual assistance for 
the hardest hit communities. Some of these homes and businesses 
are totally destroyed. Other buildings that have been there for 
100 years without anything hurt are now destroyed. Vermont and 
New Hampshire are about the only two States on Senator 
Landrieu's chart that have not been hit.
    Can you give me an update on Vermont's application?
    Mr. Fugate. Yes, sir. We talked to the Governor yesterday 
morning. We also got some more information that answered a 
couple of questions and that paperwork is now moving. When I 
talked to you, I told you I would put my personal attention on 
it. We did. We had to get some more information. The State 
provided that. They had an amendment they wanted to get into 
that original request. So we took that and worked to get that 
into the original request. So it is moving, sir.
    Senator Leahy. As I said, your folks have been up there and 
have been really working hard. And I appreciate that because it 
has not been a comfortable or easy time for them, but I suspect 
that is part of the rule of the game. When you get called out, 
it is not because it is an afternoon on the beach. It is a bad 
time.
    Mr. Fugate. Again, Senator, in this response to the 
flooding, we have been working with the State. Again, most of 
the response they have done themselves with their resources. 
This is really looking at the economic impacts and that 
threshold. Again, the Governor had requested to amend his 
original request. We have worked that request, and that is now 
moving, sir.
    Senator Leahy. Thank you. And please keep or have your 
staff keep mine posted. I appreciate it. I am supposed to be at 
another hearing, but I wanted to come here and wanted to thank 
you for taking my call and for giving it your personal 
attention.
    Mr. Fugate. Yes, sir, Senator.
    Senator Landrieu. Thank you, Senator Leahy.
    Senator Murkowski.

                       DISASTERS IN REMOTE AREAS

    Senator Murkowski. Thank you, Madam Chair.
    Administrator, thank you for being here. I appreciate all 
that both of you do.
    We have had a tough spring in the interior part of Alaska. 
We have got two communities that had some pretty exceptional 
flooding this year, that of Crooked Creek and Red Devil, both 
small villages, interior villages, not a lot of people, 
subsistence lifestyle, seasonal economic opportunities, but 
very hard hit by the 30 feet of flood waters and ice jams. You 
know well about it.
    The question that I have today--and I guess more of an 
assurance. The situation in Crooked Creek and Red Devil is not 
making the national news. It was not on anybody's radar screen 
outside of the State of Alaska, but incredibly important, not 
unlike what Senator Leahy was speaking about in Vermont. And as 
I was home over the recess, I had several come up to me and say 
in view of what is happening in Joplin and with the flooding 
along the Mississippi, is it a situation that our smaller 
communities, perhaps our more rural communities like Crooked 
Creek and Red Devil, will be put at the bottom of the priority 
list when it comes to gaining the disaster declaration that our 
Governor has sought.
    And what I would like to hear from you today is in view of 
all that you have before you--and I appreciate the enormity of 
it, but can you give me some assurances that the disaster 
declarations that are being requested from some of our very 
remote, very rural areas that again are not making the front 
pages will get the attention from your Agency that they 
certainly deserve?
    Mr. Fugate. The answer simply, Senator, is yes. I think one 
of the things that the Post-Katrina Emergency Management Reform 
Act did was to strengthen our FEMA regions. And if we were 
trying to do this all from headquarters, we may miss a few 
disasters, but because our regional offices, geographically 
spread across the country, work directly with our counterparts 
at the State level, we do not miss these requests. When the 
Governor sends a request from any State or our territories, our 
regions work those requests, work with the State, determine if 
there is any immediate Federal assistance needed, and will 
process the recommendations. Not all requests are declared, but 
all requests are treated with the same level of consideration. 
And it is our regional staff and offices working day to day 
with their State counterparts that ensure we do not miss even 
one. As I like to tell my folks, we do not go just where the TV 
cameras go. We go where the need is based upon what the 
Governors have requested of us.

                     ALASKA--CATASTROPHIC PLANNING

    Senator Murkowski. I appreciate that, and I know that the 
people of Crooked Creek and Red Devil will as well.
    I want to ask you a couple questions about earthquakes, 
tsunamis following the natural disasters there in Japan, 
Fukushima, a lot of attention, clearly, on the magnitude of 
what Japan felt. Alaska has similarly seen some pretty 
substantial earthquakes, our 1964 earthquake, and the result of 
a devastating tsunami. And so we pay particular attention.
    The question that I have for you is the intensity of FEMA's 
planning efforts to prepare or to deal with any--I guess you 
cannot prepare, but how do you deal with a catastrophic 
earthquake, a tsunami that might impact the State of Alaska.
    I am singling out Alaska specifically. Obviously, I 
represent an incredible State in terms of its geography but 
also recognizing that our geography puts us away from the rest 
of the country. And when you were discussing the issue of 
mutual aid earlier, we recognize that in so many of our States, 
it is not just what that one State provides, it is the 
surrounding assistance. We do not have that. And in the event 
of a natural disaster that might take out our port, aid could 
be 48 hours plus away, if not longer.
    Can you speak to just again the planning efforts that might 
be underway and whether or not in your view FEMA is working 
adequately with the State of Alaska to identify the challenges 
that we face as a remote State or a State that is remote from 
the rest of the country in terms of any outside assistance, 
mutual aid?
    Mr. Fugate. Senator, I will do this in two parts. First, I 
am going to offer up Ken Murphy, our regional administrator, to 
work with your staff to set up a meeting and brief you on the 
catastrophic planning that we do with Alaska.
    Senator Murkowski. I would like to do that.
    Mr. Fugate. We also recognize that, because of the 
isolation of Alaska and the fact that many of the lifelines may 
be disrupted in this type of scenario, we work very closely 
with the State looking at how we would get back to Alaska and 
how quickly we can get there. This is going to take a sizable 
response capability. We are working with our partners at the 
Department of Defense. There are also, in several of these 
scenarios, not only the impacts that would occur in Alaska but 
maybe also those occurring further south, particularly in 
Seattle, that would affect a lot of our shipping, which again 
is a key lifeline for the State of Alaska.
    So our catastrophic planning initiatives are really based 
upon what we call the maximums of maximums. How bad would it 
get? What gets severed? What is the backup, and how do we still 
get back to these areas?
    But I will offer up that our regional administrator get 
with your staff and set up, at your convenience, a briefing on 
what we are doing with Alaska for the catastrophic plans.

                         INTERNATIONAL PARTNERS

    Senator Murkowski. I appreciate that and would look forward 
to that meeting.
    You have just gone through this catastrophic disaster 
response exercise, the New Madrid fault. And I am assuming 
there were good insights and lessons learned from that exercise 
that may or may not be applicable to the situation in Alaska. 
Can you comment on that, or is that something that I should 
discuss further at this meeting?
    Mr. Fugate. I think a briefing would probably answer a lot 
of those questions. I will tell you, though, one of the things 
that we have not done in a lot of our exercises is look at how 
we would bring in our international partners. Within the urban 
search and rescue (US&R) community, there are a lot of other 
nations that are very effective and that we work with through 
the Office of Foreign Disaster Assistance and International 
Response. We have not always looked at those resources as to 
how they would help us in the United States. I think Alaska 
would be a perfect example of working with our neighboring 
countries that would have resources in the theater that may 
actually be more quick and could get to areas. So one of the 
things we are really exploring is not looking just at what we 
have within our national capabilities, but what do our 
international partners bring that would be specific, 
particularly search and rescue because that is such a 
specialized application that many countries have worked on with 
us and developed those capabilities, often based upon our team 
models.
    Senator Murkowski. I look forward to the meeting.
    Thank you, Madam Chair.
    Senator Landrieu. Thank you.
    The panelists have been very generous with their time. We 
are going to forgo a second round of questioning so we can get 
to our second panel. We are very anxious to hear from our local 
leaders that have traveled a distance to testify.
    But Mr. Fugate, I am going to ask you just in closing if 
you can tell me today or submit to me in writing within a week 
when that Pre-Katrina Emergency Management Reform Act 
requirement to do an assessment is going to be completed by 
your Agency. Do you have a timeframe in mind?
    Mr. Fugate. We will submit that within the week in writing, 
Madam Chair.
    [The information follows:]

    The Federal Emergency Management Agency (FEMA) agrees that we are 
at a crossroads of building more readiness capacity and sustaining the 
capacity we have built to date. FEMA believes that grant dollars should 
go toward developing and sustaining national capabilities that could be 
called up by any jurisdiction at any time through national mutual aid. 
FEMA has been working to streamline the process and set priorities that 
will encourage grantees to build national capacity according to gaps in 
coverage of capabilities.
    To achieve this, the fiscal year 2011 FEMA grant guidance sets 
three new priorities for the grantee:
  --whole community strategy;
  --building prevention and protection capabilities; and
  --the maturation and enhancement of State and major urban area fusion 
        centers.
Grant applicants will be developing their investment justifications 
based, in part, on capability requirements identified through the 
Threat and Hazard Identification and Risk Assessment (THIRA) process. 
THIRA is based on analysis of each State's relative consequences of the 
various threats and hazards, and allows the applicant to compare and 
prioritize risks. THIRAs will be used to update State homeland security 
strategies, which identify the capability gaps that States most need to 
fill in order to meet the State's individual risk priorities and FEMA's 
priorities. Gaps identified in THIRA will assist FEMA in assessing 
national gaps in capabilities and help us further refine grant guidance 
to maximize benefit.
    From fiscal year 2006 to fiscal year 2009, States identified the 
highest funding requirements as communications, intelligence and 
information sharing and dissemination, and planning. The States based 
these funding requirements on their homeland security strategies, which 
include their capability development requirements and grant guidance 
provided by FEMA.
    The top three capabilities developed through Federal investments, 
as collected through progress reports from fiscal year 2006 to fiscal 
year 2009, include communications, planning, and critical 
infrastructure protection.
    FEMA is making a number of key reforms to the design and 
implementation of its grant programs to build and sustain national 
capability. First, and most important, FEMA is working to implement the 
requirements of Presidential Policy Directive-8 which includes the 
development of a new national preparedness goal, national preparedness 
system, and other key strategic policy doctrine that will help us 
better focus where investments go.
    Second, we are working closely with State, local, tribal, and 
private sector partners and stakeholders to develop a culture of 
partnership in everything we do. Last summer, our grant program 
developers, managers, and analysts met with our partners at the 
National Urban Areas Security Initiative and After Action conferences 
in San Francisco over the course of 4 days from June 20-23, 2011, to 
review, assess, and improve all aspects of how we work together.
    A third key reform lies in our ongoing commitment to improving and 
integrating a risk-based approach into the design and implementation of 
our grant programs. We are continuing to refine our risk models and 
allocation methodologies to ensure that grant funds are deployed across 
our grant portfolio in a way that reflects the best possible 
information about threats, risks, and vulnerabilities that we face.
    Finally, FEMA is evaluating the findings arrived at via direction 
from the Redundancy Elimination and Enhanced Performance for 
Preparedness Grants (REEPP) Act, in coordination with the National 
Academy of Public Administration, to identify and eliminate redundant 
reporting requirements and to develop meaningful performance metrics 
for Homeland Security preparedness grants. This effort may help FEMA 
further measure the effectiveness of grants. FEMA also is evaluating 
the recommendations from the Local, State, Tribal, and Federal 
Preparedness Task Force Report to improve coordination and 
consolidation of FEMA's grant programs, including coordination of 
interagency grant programs and more closely linking capability 
assessment and grant activities.

    Senator Landrieu. Thank you very much. Thank you both, and 
we appreciate it. We will have further questions, of course, in 
writing and we thank you for your testimony today.
    Mr. Beers. Thank you.
    Senator Landrieu. Let me quickly, as these two leaders are 
moving their chairs, introduce our second panel, as they come 
forward.
    We are very happy to have Mark Riley from the State of 
Louisiana. Mark is the chief of staff to Louisiana's Governor's 
Office of Homeland Security. He came to the agency in 2007, 
previously served for 2 years as deputy director of disaster 
recovery. He has managed an $11 billion public assistance fund, 
a $1.4 billion hazard mitigation fund, funding more than 24,000 
projects throughout the State for four hurricanes. Prior to 
that, 32 years in the U.S. Marine Corps and a master of law 
degree from Georgetown University. We are very happy to have 
Mr. Riley leading our efforts in Louisiana.
    Let me turn to Senator Coats to introduce our witness from 
Indiana, Mr. Vice.
    Senator Coats. Thank you, Madam Chair.
    David Vice is executive director of the Integrated Public 
Safety Commission (IPSC) in Indiana. He spent nearly 10 years 
with that agency promoting interoperable communications between 
local, State, and Federal first responders. Prior to his 
appointment as executive director in 2011, he served as the 
agency's field coordinator and in this role was the agency's 
ambassador to the local and State public safety agencies, 
promoting the benefits of joining the State's 800 megahertz 
interoperable communications system and a number of other 
projects. I am pleased to have him here and thank him for his 
service to our State but also to our country and look forward 
to his testimony.
    Senator Landrieu. Thank you.
    And let me welcome Mr. Hicks who is the director of Morgan 
County, Alabama Emergency Management and president of the 
International Association of Emergency Managers.
    And finally, Mr. Ron Lane, director of the Office of 
Emergency Services from San Diego County, California.
    We appreciate you all being here today, and Mr. Riley, we 
will begin with you for your opening statement.
STATEMENT OF MARK RILEY, CHIEF OF STAFF, GOVERNOR'S 
            OFFICE OF HOMELAND SECURITY AND EMERGENCY 
            PREPAREDNESS, STATE OF LOUISIANA
    Mr. Riley. Madam Chairwoman, subcommittee members, on 
behalf of Governor Jindal and Director Mark Cooper, I 
appreciate the invitation to speak here today.
    As I understand your interest, you are looking for 
information on the state of emergency management within 
Louisiana focused on communications and interoperability.
    Louisiana has been a laboratory for some of the most 
significant events in emergency management over the last 6 
years. Hurricanes Katrina and Rita in 2005, followed by 
Hurricanes Gustav and Ike in 2008, followed by the Deepwater 
Horizon spill in 2010, and most recently the record level 
flooding of the Mississippi River.
    Since FEMA started tracking in 1953, Louisiana ranked sixth 
amongst States in Stafford Act type events. This count does not 
include the myriad of other emergency events that are 
significant at a local level but do not rise to the level of 
requiring a Federal response.
    At the State level, the Governor's Office of Homeland 
Security and Emergency Preparedness has respond to more than 
130 emergency events in the last 3 years, 44 of which have 
activated the State Emergency Operations Center for a total of 
519 days during that 3-year period. All of these events depend 
on the capabilities of emergency managers at the local level.
    It is an axiom of emergency management that every disaster 
is local. Therefore, we must develop an emergency management 
process that thoroughly integrates all levels of government and 
the private sector to support local emergency management. 
Eighty percent of all the Homeland Security Grant Program 
(HSGP) funds received by the State are sent to the parishes to 
build a robust and resilient emergency management capability at 
the local level.
    What is confusing is at the same time the Presidential 
Policy Directive-8 on national preparedness cites the need to 
support local emergency management through a preparedness 
planning for business, communities, families, and individuals, 
the State of Louisiana is notified of a 57-percent cut to the 
HSGP, a key resource for emergency management at the State and 
local levels.
    Louisiana is, in fact, the laboratory for emergency 
management, and I would like to briefly outline initiatives 
Louisiana has taken to enhance the emergency management process 
over the past several years.
    Within the last 3 years, the State has built the Louisiana 
wireless information network which is now the largest 700 
megahertz radio system in the country and provides portable 
radio coverage across 95 percent of the State. In 2010, there 
were more than 60,000 users at the Federal, State, and local 
level and more than 95 million push-to-talk accesses.
    We have enhanced interoperability through a Google Earth 
project known as Virtual Louisiana. We photographed the entire 
State using 6'' high resolution and are in the process of 
geocoding all infrastructure facilities throughout the State. 
We have completed 25 percent of the State's critical 
infrastructure. When complete, Louisiana will have the most 
extensive geographic information system (GIS) database in the 
country available to all first responders to provide critical 
and real-time data during an emergency response.
    Three years ago, Louisiana aggressively embarked upon a 
multimedia awareness campaign focused on individual 
responsibility and preparedness. The ``Get a Game Plan'' 
campaign uses public service announcements like the Louisiana 
celebrity Donna Douglas from ``The Beverly Hillbillies'', 
provides detailed Web-based information on preparedness and 
emergency events, and publishes informational brochures and 
maps.
    It includes social media tools like Facebook and Twitter. 
We have the largest emergency management Facebook following 
amongst the 36 States that have a Facebook page. We have the 
fifth-largest following on Twitter.
    Recently we have rolled out an iTunes application for Get a 
Game Plan which can be downloaded to your cell phone.
    Last year, Get a Game Plan partnered with WalMart 
pharmacies to distribute a hurricane preparedness checklist 
with each prescription it filled, more than 600,000 
prescriptions.
    To engage the private sector, we have established the 
Louisiana Business Emergency Operations Center. It includes 
representation from several of DHS' 18 critical infrastructure 
key resource sectors and supports the State's Emergency 
Operations Center. It has the ability to quickly access 
resources of the private sector to more efficiently support 
response and recovery needs during an emergency.
    Louisiana is also developing a comprehensive leadership and 
training certification program for emergency management and 
homeland security professionals and political leadership, the 
Louisiana Command College. The training will result in the 
establishment of standardized best practice emergency managers, 
knowledgeable political leadership, and a resilient private 
sector which understands the need for preparedness and its role 
in the response and recovery process.
    Louisiana has built three type-3 US&R teams, each of which 
has been modeled in accordance with FEMA guidelines. Recently, 
the Louisiana USAR teams were deployed to Tuscaloosa, Alabama 
to assist in the aftermath of that devastating tornado.
    A 57-percent cut in Homeland Security funding includes the 
total elimination of urban area security initiatives for the 
New Orleans and Baton Rouge areas. We fear this cut will 
completely expose the underbelly of this Nation in that it 
ignores the interdependencies of the national economy which 
flows through Louisiana.

                           PREPARED STATEMENT

    Louisiana emergency management practices are constantly 
tested, and we are, in fact, a living laboratory that is 
constantly identifying improved emergency management practices. 
We would argue that this warrants strategic investment of 
Federal dollars to leverage this living laboratory. The end 
result of these investments, as illustrated by the practice 
outlined above, are in fact best practices that can be rapidly 
shared across the Nation resulting in a more resilient Nation. 
Remember, every disaster is local and the resources should be 
focused to increase the effectiveness of the local emergency 
manager and first responder.
    Thank you very much.
    [The statement follows:]
                  Prepared Statement of Mark S. Riley
                              introduction
    It is an axiom of emergency management that every disaster is 
local. As local as every disaster is, the effects of a disastrous event 
are often national in scope. During Hurricane Gustav in 2008 the 
Governor of Maine contacted the Governor of Louisiana wanting to know 
if Maine's gas prices were going to increase because of a disruption in 
the refining and distribution of gasoline in the State of Louisiana, as 
occurred during Hurricane Katrina in 2005. During the recent flooding 
events along the Mississippi River there was fear that river traffic 
would be halted with a multi-billion-dollar effect to commerce. For 
example, 40 percent of all fertilizer used in the Midwest farm belt 
flows through the Port of New Orleans. The response to this axiomatic 
problem is an emergency management process that thoroughly integrates 
all levels of government and the private sector to support the 
``local'' emergency management process. For this to be effective we 
must build and maintain a robust and resilient emergency management 
capability at the local level.
    For those in the emergency management business, this is not a novel 
concept. On March 30, 2011, Presidential Policy Directive-8 (PPD-8), 
National Preparedness, was published and it recognizes this concept in 
the statement ``Our national preparedness is the shared responsibility 
of all levels of government, the private and nonprofit sectors, and the 
individual citizens.'' In PPD-8, the President directs the development 
of a national preparedness system which shall include ``resource 
guidance'', and shall provide ``equipment guidance aimed at nationwide 
interoperability; . . . national training and exercise programs . . . 
and guidance to support preparedness planning for businesses, 
communities, families, and individuals''. What is confusing is that at 
the same time this guidance is published, we are notified of a 
significant cut to the Homeland Security Grant Program (HSGP), which is 
a key resource for State and local governments to develop the type of 
resilience that is envisioned in PPD-8.
    On behalf of the State of Louisiana, I would like to thank this 
subcommittee for the opportunity to discuss initiatives we have taken 
over the last several years, many of which have been identified in the 
emergency management community as best practice, and the anticipated 
disastrous effects the HSGP cuts are going to have on Louisiana's 
ability to continue these initiatives.
    Louisiana is in fact a laboratory for emergency management. Since 
FEMA started keeping statistics in 1953, Louisiana ranks sixth amongst 
the States in declared Stafford Act type events. In recent years, this 
includes Hurricanes Katrina and Rita in 2005 (combined, more than four 
times larger than the next largest disaster in U.S. history), followed 
by Hurricanes Gustav and Ike in 2008 (direct impact to public 
infrastructure of more than $1 billion), followed by the Deepwater 
Horizon oil spill in 2010 (although not a Stafford Act event--the 
largest oil spill in U.S. history spilling 205.8 million gallons of 
crude oil just 48 miles from Louisiana's coastline with severe economic 
impact to oil production and the fisheries industry), and most 
recently, the record level flooding of the Mississippi River (flooding 
1,482 homes, camps, and business in Louisiana alone to date; placing 
almost 3 million sandbags and 9 miles of HESCO bastions). This count 
does not include the myriad of other emergency events that are 
significant at a local level that include scenarios like tornadoes, 
water shortages, wildfires, hazardous cargo spills, oil well fires, 
winter weather storms, flooding, and the like. As not all these events 
require a Federal response, not all have required a State response 
because of the preparedness of the local government. At the State 
level, Louisiana Governor's Office of Homeland Security and Emergency 
Preparedness (GOHSEP) has responded to more than 130 emergency events 
in the last 3 years, 44 of which have activated the State Emergency 
Operations Center (EOC) for a total of 519 days during that period. 
With this experience Louisiana has become a living laboratory for 
disaster innovation which has given rise to several key innovations 
since our experiences in Hurricanes Katrina and Rita in 2005. The below 
will discuss actions Louisiana has taken to enhance the emergency 
management process in the State and highlight innovations we have 
implemented.
                         statutory initiatives
    Louisiana amended its Homeland Security and Emergency Assistance 
and Disaster Act in 2006 to re-organize the principle State agency 
responsible for emergency management (GOHSEP) and have that agency 
report directly to the Governor. Each Parish is required to have an 
equivalent office and it is a primary function of GOHSEP to support the 
activities of the Parish emergency management office. As discussed 
below, 80 percent of HSGP dollars are distributed to the Parishes to 
support activities of those emergency management agencies and local law 
enforcement. Without these resources it will be very difficult for 
local governmental entities to continue the planning, preparedness and 
response activities necessary to maintain capability at the local level 
given their limited resources and the high risk for emergencies such as 
Hurricanes Katrina, Rita, Gustav, and Ike in 2005 and 2008, last year's 
Deepwater Horizon oil spill, and the recent flooding event along the 
Mississippi and Atchafalaya Rivers.
    Recognizing the importance of communications and interoperability, 
in 2008 the Legislature amended the Homeland Security Act and created 
the Office of Interoperability within GOHSEP. The stated legislative 
intent was to create solutions for a secure and interoperable 
communications system accessible to public safety agencies and 
personnel, first responders, decisionmakers, and the public, allowing 
for clear and efficient exchange of voice, data, image, and video 
information for emergency management purposes. Again, this effort, as 
discussed below, depends heavily on the HSGP for implementation.
    During Hurricane Gustav in 2008, Louisiana conducted the largest 
single evacuation in U.S. history, evacuating more than 1.9 million 
people from coastal Louisiana prior to landfall of the storm. At a cost 
of more than $100 million of Federal and State funding, some 25,000 
people were sheltered out-of-State. This experience brought home the 
inherent disruptive nature of sheltering citizens in other States and 
the difficulty of rapidly bringing a community back when its citizens 
are gone. By Act 353 of the 2009 legislative session, the State 
Legislature declared its intent that Louisiana shall become ``shelter 
independent'' by the year 2014. We have targeted two goals to achieve 
this independence. One, encourage parishes to clearly identify 
sheltering requirements, especially for those categorized as ``critical 
transportation needs'' individuals (CTNs). In this endeavor we have 
encouraged parishes to create point-to-point agreements with other 
parishes that are likely not going to be greatly impact by the most 
common weather disaster (hurricanes/flooding). Second, the State has 
identified the need to be able to provide up to 50,000 CTN shelter 
spaces and is working to identify suitable State facilities for that 
purpose. The State has appropriated $7.5 million to develop and upgrade 
facilities to meet sheltering standards. We have requested FEMA to 
allow the use of Stafford Act Hazard Mitigation funding for the 
development of multi-use facilities that can be used for sheltering in 
an emergency. The logic is that the use of available Hazard Mitigation 
funds to provide for long-term shelter needs will be a logical and 
efficient expenditure of Federal dollars and save the Federal 
Government millions of dollars in future Hurricane Gustav-type events.
    We anticipate that the decrease in HSGP grant dollars will impact 
our ability to support in-parish or in-State evacuation and sheltering 
plans. Additionally, many of our host States rely on Federal 
preparedness grant dollars (SHSP, EMPG, and HM) to support planning, 
preparedness, and mitigation efforts to support evacuees who may be 
sheltered in their State.
    Recognizing the success of the support between States provided by 
the Emergency Management Assistance Compact (EMAC) process, Act 1035 of 
the 2010 legislative session provides for the establishment of an 
Intrastate Mutual Aid Compact (IMAC) within the State of Louisiana. We 
have recognized that too often States default to FEMA and other Federal 
agencies to source requirements, and this is logically more expensive 
to a response than sourcing locally. The IMAC process will provide an 
organized and deliberate method to ensure that resources within the 
State are used effectively and efficiently before requesting other 
States or Federal agencies for those same resources.
                            interoperability
    During Hurricane Katrina there were multiple disparate systems at 
the local and State level that failed causing a significant failure in 
communications greatly hampered the emergency response. While the State 
was able to bring up the existing analog system fairly quickly, the 
system was never designed for the amount of users that had to depend on 
it as a lifeline to coordinate operations. As a result there was 
considerable congestion and busy signals, impeding operations 
throughout the immediate period following Katrina landfall. Following 
Hurricanes Katrina and Rita, State, and local officials came together 
to focus on a single statewide system that all emergency response 
officials could use. This system was the first statewide system based 
on the recently released 700 MHz spectrum and replaced the State's 
existing analog system with a Project 25-compliant digital system. 
Using $29 million in Federal recovery dollars, the system was initially 
designed to encompass the Greater New Orleans area. However, by 
leveraging approximately $40 million of Federal grant funding from 
multiple sources, to include HSGP funding, as well as $30 million of 
State funding, the State was able to build what is now the largest 
statewide radio system in the country which provides daily voice 
communications to more than 60,000 users at the Federal, State, local, 
and nonprofit levels. Of these users, more than 70 percent are from 
local jurisdictions. The system, called the Louisiana Wireless 
Information Network (LWIN), is fully maintained by the State, at a cost 
of $9 million annually, and charges no fees to its users. LWIN was put 
to the test during Hurricane Gustav and the use of the system greatly 
facilitated the evacuation of 1.9 million people, the largest single 
evacuation in U.S. history. Pivotal to the success of this evacuation 
was the ability to achieve multijurisdictional and multiagency 
coordination through a single shared radio system. During the 10-day 
operational period of Hurricane Gustav, LWIN supported more than 1.2 
million push to talk communications with less than 500 busies.
    LWIN was also leveraged during the Deepwater Horizon oil spill by 
serving as the backbone to link six other systems along the gulf coast 
which allowed the United States Coast Guard and other responders to 
have seamless interoperable communications from Galveston, Texas to 
Pensacola, Florida.
    LWIN, when completed in September 2011, will provide 95 percent 
portable on street radio coverage throughout the State through 118 
individual sites. LWIN is also providing 95 percent in-building 
coverage to the nine largest metropolitan areas in the State. In 
calendar year 2010, there were more than 95 million push-to-talk 
communications which utilized more than 114,000 hours on LWIN. Out of 
the 95 million push-to-talks, users only experienced 16,446 busy 
signals or ``busies''. Today, LWIN is experiencing a major capacity 
expansion that should eliminate virtually all busies and allow 
sufficient capacity to continue expanding and adding new users over the 
next 10 years.
    While the State has achieved great success in voice 
interoperability, the State is now embarking on compiling data that can 
be used to establish data interoperability through a common operating 
picture that is accessible to Federal, State, and local users. Virtual 
Louisiana is a Google Earth Enterprise platform that provides secure 
access to the first-responder population throughout the State. GOHSEP 
is currently in the process of geocoding all infrastructure facilities 
throughout the State through the use of Hazard Mitigation Grant Program 
funding. The Geospatial Project in the first 8 months of implementation 
has allowed GOHSEP to map out 25 percent of the State's infrastructure 
and has seen more than 20,000 facilities mapped. Each facility has been 
mapped, photographed, and has associated attribute data based on the 
critical infrastructure/key resource layers identified by the 
Department of Homeland Security (DHS). Louisiana has, for the first 
time, photographed the entire State using 6'' high-resolution imagery, 
and the dated layers created by the Geospatial Project can be overlaid 
on this imagery for high-resolution viewing. Both the imagery and the 
data are available to the first-responder community through Virtual 
Louisiana. Upon the completion of this project, Louisiana will have the 
most extensive GIS database in the country.
               individual communication and social media
    As important as the interoperability activity discussed above, is 
the ability to provide good planning information to the general public 
before a disaster and the ability to quickly communicate at the 
individual level during a disaster. GOHSEP has worked extensively to 
encourage Louisiana citizens to have their own family plan. Beginning 
in 2008 GOHSEP initiated the Get a Game Plan campaign which encourages 
self-reliance and preparedness. A major effort of this initiative has 
been the Public Service Announcements (PSA) that have been aired 
throughout the State with high profiled individuals such as Governor 
Bobby Jindal, LSU football coach Les Miles, the band Better Than Ezra, 
and football players from the world champion New Orleans Saints 
creating messages encouraging our citizens to be prepared for any type 
of disaster by having a personal family plan. This year we have added 
two new components to the campaign. The first is the Get a Critter Plan 
which encourages our citizens to have a plan for their animals during 
disasters. Donna Douglas, a Louisiana native who starred on the long-
running comedy hit ``The Beverly Hillbillies'' as Ellie Mae Clampett, 
has become our ambassador for this initiative and has appeared in a PSA 
to promote pet preparedness. The other new component introduced this 
year is the Get a Game Plan App which is now available to download to a 
cell phone through iTunes. The Get a Game Plan App contains all the 
content on the Get a Game Plan Web site, to include checklists, 
evacuation maps, and links to other State and private partners who 
provide information to the public during disasters. The intent is to 
provide information that encourages family and personal preparedness to 
lessen the effects of a disaster and create resiliency. As an example 
of the ``whole community'' approach to preparedness and response 
promoted by FEMA Administrator Craig Fugate, GOHSEP has also engaged in 
public, private, and nonprofit partnerships for the Get A Game Plan 
Campaign including projects with Walmart, Red Cross, and the United 
Way. GOHSEP utilized all of the Walmart pharmacies in coastal 
Louisiana, at no cost to the State, to distribute hurricane checklists 
and information about our Web site with each prescription that was 
filled at a pharmacy. As a result, more than 600,000 prescriptions 
included information on how to prepare for the hurricane season and 
contact information on our all encompassing Web site. The Red Cross and 
the United Way continue to help fund our hurricane evacuation guides 
that are made available to residents from coastal hurricane impacted 
parishes.
    GOHSEP has been very proactive in the area of social media and was 
an early adopter of Facebook and Twitter to leverage our ability to 
communicate to the citizens of Louisiana.
    Louisiana has the largest amount of ``likes'' (followers) of any of 
the 36 States that have official Facebook pages. We have recently 
identified more than 11,015 followers. The second-highest total is for 
the State of Mississippi which has 5,759, followed by Alabama with 
4,371. There are only nine States that have more than 2,500 followers 
with the average number of followers being 1,638.
    Likewise our use of Twitter has been very successful. We have the 
fifth-largest following of the 36 States that have official Twitter 
accounts, at 4,196. There are only 11 States with 2,500 or more 
followers and the average account for the States is 2,067. During the 
Deepwater Horizon oil spill GOHSEP's Twitter account was considered one 
of the most influential Twitter accounts as determined by a Klout score 
of 79 out of 100.
                       private sector initiatives
    As FEMA Administrator Craig Fugate will tell you, ordinarily the 
private sector is a missing team member at the table when involved in 
the planning or response to an emergency event. That lesson was brought 
home to Louisiana during Hurricane Gustav. We planned on the 
availability of Meals Ready to Eat (MREs) to provide food for shelters 
and to distribute to those without power. Because of the size of the 
event, the FEMA logistics pipeline for MREs hit a snag. Concerned about 
providing affected individuals with food, the Louisiana Division of 
Administration turned to the Louisiana Restaurant Association to 
determine what capacity they might provide. For the next several days, 
the restaurant industry activated mobile kitchens that provided more 
than 500,000 hot meals to needy individuals. The surprise came after 
the event when we calculated the cost. The private sector provided hot 
meals for less than $6 a meal, compared to the cold meals we would have 
acquired from FEMA at a cost of more than $9 a meal. Louisiana realized 
it had to bring the private sector (literally) to the table.
    In response, the Louisiana Business Emergency Operations Center (LA 
BEOC) was established through a partnership among the Louisiana 
Economic Development Agency, GOHSEP, Louisiana State University's 
Stephenson Disaster Management Institute (LSU SDMI) and the National 
Incident Management Systems and Advanced Technologies Institute at 
University of Louisiana at Lafayette (NIMSAT). The LA BEOC is both a 
physical and virtual structure which houses key representatives from 
the business community and volunteer organizations, such as Volunteers 
Active in Disasters, along with government counterparts from GOHSEP and 
LED. The LA BEOC facility, which is interconnected to the State EOC, is 
housed on the LSU South Campus in Baton Rouge and seats up to 40 
business leaders, industry trade associations, and organizations across 
several of the DHS-identified 18 critical infrastructure/key resource 
sectors. When activated, the LA BEOC supports the State's Emergency 
Operations Center and its representatives make recommendations to LED, 
GOHSEP, and the Unified Command Group from the private sector 
perspective. It has the ability to quickly access resources of the 
private sector to support response and recovery needs during an 
emergency event. It also assists in coordinating volunteer and 
nonprofit needs during a disaster with donations made by private 
industry. It provides political leadership important information about 
the economic impact of a disaster to businesses, which information is 
important to identify recovery needs. This innovative government-
industry-university collaboration provides the State numerous 
advantages including efficient and economical access to needed response 
and recovery resources, enhanced resilience of businesses and the 
critical infrastructures that support their supply chains; rapid 
recovery of the business community to facilitate the rapid recovery of 
the community--all resulting on less reliance on Federal and out-of-
State resources.
    The LA BEOC was activated in response to the Deepwater Horizon oil 
spill and the current Mississippi River flood fight to provide economic 
impact analysis and manage the many offers, vendor proposals, and 
response suggestions being received from the active private sector. 
Additionally, the LA BEOC assisted in the creation of technical 
interfaces with Deepwater Horizon, along with the coordination of a 
scientific review panel to review proposed technical solutions. The LA 
BEOC has been recognized by FEMA as a model for the public private 
partnership. During the Mississippi River Flood Fight the LA BEOC 
WebPortal provided an exchange of information between the emergency 
management community and the private sector. More than 1,200 businesses 
have registered with the LA BEOC to receive situational awareness 
reports and respond to resource requests. The development of the LA 
BEOC concept and its continued implementation has been supported by 
both SHSP and EMPG grant funds. Decreased grant funds will severely 
impact Louisiana's ability to continue this innovate project.
    To support the resilience of the private sector, GOHSEP and the LSU 
SDMI will soon announce the Louisiana Pilot for an International Center 
for Small Business Preparedness and Resiliency in order to promote a 
cultural shift in the understanding and promotion of small business 
preparedness. Currently, the field of preparedness research lacks the 
baseline metrics and business benchmarks needed to promote the values 
and business case of preparedness to small businesses. LSU SDMI will 
engage researchers, agencies, trade associations, chambers of commerce, 
existing service providers, and delivery networks across the Nation to 
promote programs focused on small business preparedness and disasters. 
This initiative will integrate identified best practices of 
preparedness, and the results of economic impact studies, surveys, and 
focus groups will form the content for mitigation and preparedness 
practices to be used by small businesses. A high level summit was 
convened in Baton Rouge, Louisiana, this year with DHS, FEMA, and other 
major stakeholders, which identified four areas around which to develop 
an actionable framework, as follows:
  --research and a clearinghouse for coordination;
  --messaging and marketing activities;
  --communications and message delivery; and
  --the development of a business justification for small business 
        preparedness.
    One of the outcomes from this endeavor is the current development 
by GOHSEP of a iTunes downloadable business application similar to the 
individual application for Get A Game Plan that was released this 
hurricane season. The development of both the individual and business 
application is being funded by Homeland Security grant funding.
                            command college
    As stated earlier, every disaster is local. Thus local emergency 
managers and first responders must be well-trained professionals and 
clearly understand the process and terminology of sound emergency 
management practices. GOHSEP and LSU SDMI have partnered to provide a 
comprehensive leadership and training certification program for 
emergency management and homeland security professionals--the Louisiana 
Command College. The Command College is currently focused on delivering 
quality training to meet the needs of local and State-level emergency 
management personnel, to include State and parish executive leadership, 
and the private sector and nonprofit organizations. The training will 
result in the establishment of standardized, best practice emergency 
management practices, knowledgeable political leadership who would not 
otherwise have an opportunity to be exposed to emergency management 
concepts, and a resilient private sector which understands the need for 
preparedness and its role in the response and recovery process. The 
goal of the Command College is to evolve into a regional certification 
institute around which the Federal, State, local, and private sector 
team can coalesce.
                        urban search and rescue
    In response to the aforementioned disasters that have affected 
Louisiana and the gulf coast region, Louisiana has invested in a 
comprehensive equipment cache and a robust training matrix that 
currently supports the State urban search and rescue (US&R) task force. 
Louisiana has built three core teams in the New Orleans area, Baton 
Rouge area, and the Shreveport/Bossier area, and has six additional 
State regional teams capable of making up a FEMA-type I US&R team. Each 
Louisiana task force has been modeled in accordance with FEMA 
guidelines and is capable of supporting the national US&R response 
system. Moreover, Louisiana's central geographic location is ideal to 
support the gulf coast region where a gap in coverage currently exists.
    Since 2005, Louisiana has experienced four major hurricanes related 
federally declared disasters and across the Gulf Coast States during 
that time period there have been more than 68 declared emergency events 
in which US&R capabilities could have been critical. These events 
required the deployment of US&R teams from as far away as California to 
assist in search and rescue activities. Given the frequency of these 
presidentially declared disasters in the gulf coast region requiring 
the deployment of FEMA national US&R teams, our task force in Louisiana 
proves to be a highly effective resource for the citizens of our Nation 
by lowering the cost of deployment and providing coverage to an area 
that statistically requires US&R response all while reducing the time 
of response to an incident.
    Most recently, the Louisiana US&R teams deployed to Alabama based 
on an EMAC request to assist in Tuscaloosa Tornado Incident. This was 
far more cost-effective than a request through FEMA for a FEMA national 
US&R team. The removal of grant funding to this program will cut needed 
training and exercises that threatens the safety of the responders and 
the welfare of the public.
                homeland security grant program funding
    DHS recently notified the State of Louisiana, through GOHSEP, that 
Louisiana is losing homeland security program funding. The loss of 
funding to Louisiana will directly impact the National Preparedness 
System intended to protect this Nation, as outlined in PPD-8.
    The Department sent notice that GOHSEP will receive $17.8 million 
less in Federal grant funding than last fiscal year, a cut of 57 
percent. The notice was part of a larger budget cut that randomly 
eliminated $780 million in Homeland Security funding to the States for 
fiscal year 2011. Funds from the fiscal year 2011 grants were expected 
to be received in August 2011.
    As stated, the cut will have significant impact on Louisiana's 
local governments and drastically impact the innovative programs 
discussed above. More than 80 percent of the Federal Homeland Security 
grant funding that the GOHSEP receives is passed down to local 
governments to build and enhance national preparedness capability.
    New Orleans and Baton Rouge were also determined by DHS to be a low 
risk of attack and were among 33 cities across the country to 
arbitrarily lose their urban area security initiative (UASI) grant 
funding. DHS will continue to fund 31 cities this year. The fiscal year 
2011 UASI grant allocated 82 percent of funding to the 11 tier-one 
cities, 18 percent to another 20 cities prioritized by size and risk, 
and eliminated all other cities from the program. This formula 
completely exposes the underbelly of this Nation. The interdependencies 
of the national economy flow through Louisiana and the regions that 
have been discarded as low risk of attack.
    Last year, the New Orleans UASI region, comprised of Jefferson, 
Orleans, Plaquemines, and St. Bernard parishes received $5.4 million in 
Federal funding and the Baton Rouge UASI region, comprised of East 
Baton Rouge, West Baton Rouge, Pointe Coupee, East Feliciana, West 
Feliciana, Iberville, Livingston, and Ascension parishes received $2.9 
million.
    UASI funding is awarded to cities to address the unique planning, 
organization, equipment, training, and exercise needs of high-threat, 
high-density urban areas, and assists them in building an enhanced and 
sustainable capacity to prevent, protect against, respond to, and 
recover from acts of terrorism. GOHSEP is required to ensure that 25 
percent of the total award is dedicated to law enforcement terrorism 
prevention activities.
    Louisiana no longer has any UASI regions or funding to provide a 
continuous cycle of planning, organizing, training, equipping, 
exercising, evaluating, and taking corrective action in an effort to 
ensure effective coordination during incident response as defined by 
the National Incident Management System (NIMS). This preparedness cycle 
is one element of a broader National Preparedness System intended to 
prevent, respond to, recover from, and mitigate against natural 
disasters, acts of terrorism, and other manmade disasters throughout 
the Nation.
    GOHSEP has used the majority of the States portion of the UASI 
funding to support the Louisiana Wireless Interoperability Network 
within the regions and the New Orleans and Baton Rouge US&R task force 
program. Both investments directly support local government and their 
regions. Other investments include the hardening of security sites, 
security assessment initiatives and the creation of a regional fusion 
center in New Orleans. UASI funding has sustained core all-hazard 
capabilities within these two geographic areas. Our approach to 
emergency management and homeland security is based on an all-hazard 
approach. Thus, significant cuts to these grants impact the local 
jurisdiction's ability to prepare and respond to a variety of 
incidents.
    Two other Federal grant programs, the Buffer Zone Protection Plan 
(BZPP) grant, and the Interoperable Emergency Communications Grant 
Program (IECGP) were completely eliminated in Louisiana. Last year, 
Louisiana received $1.4 million in BZPP funding that went directly to 
local law enforcement to protect the States critical infrastructure and 
$945,500 in IECGP funding to improve interoperable emergency 
communications, to include communications in collective response to 
natural disasters, acts of terrorism, and other manmade disasters.
    Louisiana received a 12.3 percent cut to the $1.1 million 
Metropolitan Medical Response System Program grant and a 19.6 percent 
cut to the $161,434 Citizen Corps Program grant.
    Louisiana has only been awarded $6.9 million from the State 
Homeland Security Program (SHSP) funding, a 50-percent cut from last 
year's award. Again, the cut will have significant impact on local 
government homeland security initiatives. The GOHSEP awards 80 percent 
of the total award directly to local governments and just like the UASI 
award is required to ensure that 25 percent of the total award is 
dedicated to law enforcement terrorism prevention activities.
    GOHSEP has used this funding to support SHSPs, equipment, planning, 
training, exercises, and other innovative initiatives, as discussed 
above. The SHSP funding allows GOHSEP to proactively support and 
protect the States critical infrastructure and fund Homeland Security 
stakeholders to prevent, protect against, respond to, and recover from 
acts of terrorism and other catastrophic events.
    Programs at risk of being completely or partially cut include:
  --planning, training, exercise, and management personnel;
  --Command College (Louisiana's training and exercise program);
  --three urban search-and-rescue teams;
  --Louisiana State Analytical and Fusion Exchange (Fusion Center) in 
        Baton Rouge;
  --Louisiana's Cyber Assurance and Defense Center;
  --Louisiana Wireless Interoperability Network;
  --State and local interoperable communications;
  --Virtual Louisiana;
  --Get-A-Game Plan;
  --See Something Say Something;
  --LA agro-terrorism and assessment teams;
  --Louisiana Business Emergency Operation Center (public/private 
        partnership);
  --maritime special response team;
  --swift water rescue team;
  --hazmat and radiological response;
  --terrorism rapid response teams;
  --critical infrastructure assessment team;
  --public health and medical services;
  --Citizen Corps;
  --the hardening of critical infrastructure; and
  --intelligence and information-sharing initiatives.
    In addition to local government, the GOHSEP has awarded Homeland 
Security grant funding to numerous stakeholders in support of the 
State's homeland security initiatives. Those agencies include:
  --Louisiana State Police;
  --Attorney General's Office;
  --Department of Wildlife and Fisheries;
  --Department of Agriculture;
  --State Fire Marshal;
  --Louisiana State University;
  --University of Louisiana-Lafayette;
  --Secretary of State;
  --House of Representatives;
  --Senate;
  --Louisiana Sheriffs' Association;
  --Louisiana Chiefs of Police Association;
  --Louisiana National Guard;
  --Division of Administration; and
  --the Cyber Innovation Center.
                            closing comments
    All of the initiatives discussed above, many of which are 
considered nationwide best practices, would not have been made possible 
without the funding provided through the HSGP. Reduced funding and, in 
the case of UASI, BZPP and the IECGP, eliminated funding, will greatly 
impede our ability to not only maintain what we have been able to 
accomplish, but significantly curtail if not eliminate our ability to 
continue moving forward as we strive to provide our emergency 
management community with the resources necessary to ensure they are 
able to respond to manmade and natural disasters as well as communicate 
to our citizens as a whole as we encourage them to be self-reliant, 
which ultimately allows us to focus our efforts on those within our 
communities that truly need assistance.
    Louisiana exercises and activates so often that our systems are 
constantly tested and there is a natural continuous improvement 
methodology embedded into our State emergency management practice. We 
would argue that this warrants strategic investment of Federal funds 
into these and other innovative programs to leverage the ``living 
laboratory'' and those practices earned and learned during large scale 
activations.
    By tasking Louisiana as well as other critical resource risk States 
with these challenges (like evolving and expanding the 
interoperability, citizen preparedness, education for emergency 
managers, the LA BEOC and Global Small Business Preparedness Center), 
these battle-tested innovations and outcomes can be shared quickly and 
broadly back out to the national community of emergency managers as 
best practice. These programs not only reduce loss of life and 
suffering but also engage individuals and the local private sector in 
disaster preparedness, response, and recovery; which in turn reduces 
Federal costs for FEMA and other responding Federal agencies, reduces 
critical interruptions to local economic activities and the tax bases, 
and establishes a resilient Nation. Remember, every disaster is local 
and resources should be focused to increase the effectiveness of the 
local emergency manager and first responder.

    Senator Landrieu. Thank you very much.
    Mr. Vice.
STATEMENT OF DAVID VICE, EXECUTIVE DIRECTOR, INTEGRATED 
            PUBLIC SAFETY COMMISSION, STATE OF INDIANA
    Mr. Vice. Good afternoon, Madam Chair Landrieu, Ranking 
Member Coats, and Vice Chair Cochran. It is a great honor to 
appear before you today to present information about the 
importance of interoperable communications and what we have 
done in Indiana to address those issues.
    My testimony today will provide you with a brief 
description of the state of interoperable communications in 
Indiana, three reasons for our success, and a short summary of 
what we view to be critical issues that will directly impact 
first-responder safety in the near future.
    Project Hoosier SAFE-T, as it is known, is an 800-megahertz 
trunked voice and data communications system which provides 
both day-to-day and mission-critical interoperability for 
nearly 60,000 Indiana local, State, and Federal first 
responders and public safety officials. The State fully funded 
the system build-out and the implementation and funds the 
continued operation and maintenance costs. Participation in 
Project Hoosier SAFE-T is voluntary and agencies pay no access 
or monthly user fees. To date, as I said, nearly 60,000 radio 
IDs from all 92 counties are programmed into the SAFE-T 
database.
    The story of how Indiana got to this level of 
interoperability can be summarized into three concepts: one, a 
visionary and inclusive planning process; two, a pragmatic 
balance between technology and financial reality; and three, 
timing.
    The IPSC is made up of 12 members representing fire 
departments, emergency management agencies, emergency medical 
service providers, police departments, elected officials, and 
other public safety disciplines. The input of practitioners at 
all levels and disciplines, teamed with a governance board 
composed of members from these groups, resulted in a plan for 
an interoperable communications system that truly reflected the 
needs of those people who are using it.
    As it turns out, we have been a victim of our own success. 
The flexibility, cost savings, and ultimate performance of the 
system have attracted new agency users in unforeseen numbers. 
In the year 2000, Indiana had a visionary user-driven plan for 
interoperable communications in place, but frankly, progress 
was slow. A lack of dedicated funding translated to an ever-
changing construction schedule.
    Then during the morning hours of September 11, 2001, as we 
all know, the inability to communicate was cited as a major 
reason so many firefighters lost their lives that tragic day. 
Interoperability became the buzzword for successful response.
    As a result, two massive financial shifts occurred in 
Indiana.
    First, the Indiana General Assembly passed the Enrolled Act 
1001 which dedicated a portion of existing Bureau of Motor 
Vehicle fees to help fund the SAFE-T build-out. This guaranteed 
revenue stream allowed IPSC to proceed with site construction 
and implementation across the State.
    Second, the Federal Government established DHS and funded 
new Federal grants that addressed the lack of interoperable 
communications.
    We have a great working relationship with FEMA and the DHS 
Federal partners, especially with OEC. At times, I will admit 
that the requirements seem a little onerous, but the result of 
many of the requirements is undeniable. For example, the 
process of creating our Statewide Communications 
Interoperability Plan (SCIP) was difficult but allowed for us 
to refocus our efforts and identify the gaps that needed 
attention.
    We have continued our emphasis on local involvement by 
holding an annual Indiana interoperable communications 
conference. The Statewide Interoperable Executive Committee, 
formerly known as the IPSC Policy Subcommittee, was reorganized 
to include a member from each of the 10 Indiana Department of 
Homeland Security districts.
    As we all know, technology is developing at a rapid pace. 
It is impossible to predict and thus plan for the future. One 
result of changing technology and proprietary systems is that 
many States are now having to address system limitations or 
end-of-life issues. Because of the success of the SAFE-T 
network, we are now at system capacity. The process of 
migrating to a fully P25-compliant system, which will double 
our system capacity, is not inexpensive.

                           PREPARED STATEMENT

    On behalf of the staff of IPSC and Indiana's first 
responders, I would like to thank you for allowing me to 
address you today.
    [The statement follows:]
                    Prepared Statement of David Vice
                              introduction
    Good morning, Chairwoman Landrieu, Ranking Member Coats, and 
distinguished members of the subcommittee. I am David Vice, and I am 
the executive director of Indiana's Integrated Public Safety Commission 
(IPSC).
    It is a great honor to appear before you today to present 
information about the importance of interoperable communications, and 
what we have done in Indiana to address the issue.
    While I am new to my role as executive director of IPSC, I have 
worked for the agency since 2002. I feel quite fortunate to have been 
involved ``from the ground up'' in the project that has made Indiana a 
national best practice in the interoperable communications arena.
    My testimony today will provide you with a brief description of the 
state of interoperable communications in Indiana, three reasons for our 
success, and a short summary of what we view to be critical issues that 
will directly impact first-responder safety in the near future.
interoperable communications in indiana--``saving money, saving lives''
    Project Hoosier SAFE-T, completed summer 2007, is an 800 MHz 
trunked voice and data communications system which provides both day-
to-day and mission critical interoperability for nearly 60,000 Indiana 
local, State, and Federal first responders and public safety officials. 
SAFE-T supports both analog and digital radios, and provides greater 
than 95 percent mobile and portable radio coverage statewide using 139 
communications sites throughout Indiana.
    The State fully funded the system build-out and implementation and 
provides continued operation and maintenance costs. User agencies 
purchase their mobile and portable radios and dispatch consoles along 
with mobile radio modems and laptops for access to the mobile data 
system. Agencies retain significant autonomy with regard to use the 
system, structure/sharing of talkgroups and interoperable 
communications planning at the local and regional levels.
    Participation in Project Hoosier SAFE-T is voluntary and agencies 
pay no access or monthly user fees.
    The statewide goal--to make interoperable communications affordable 
and available for every community--has exceeded all expectations. To 
date, nearly 60,000 radio IDs from all 92 Indiana counties are 
programmed into the SAFE-T system database. These numbers include first 
responders and public safety professionals from 320 local and county 
law enforcement agencies; 439 fire departments; 72 Emergency Medical 
System (EMS) providers; 19 State agencies; 41 school districts; 88 
hospitals; 29 universities/colleges; and four Federal agencies.
    The story of how Indiana got to this level of interoperability can 
be summarized into three concepts:
  --a visionary and inclusive planning process;
  --a pragmatic balance between technology and financial reality; and
  --timing.
               a visionary and inclusive planning process
    Back in the late 1990s, responding to requests from Indiana State 
Police officials, State legislators established a commission to address 
the severe deficiency in public safety communications. Their primary 
goal was to transition to a statewide, all-agency inclusive, 
communication system. During the months that followed, the State-
coordinated several focus groups, held four regional meetings, and 
conducted three Governor's summits to engage public safety 
professionals in the discussion about the benefits of shared resources. 
Hundreds and hundreds of stakeholders at all levels participated in 
this process.
    Based on these discussions, the State issued an RFP in 1999 and 
selected a vendor--Motorola--from the eight proposals submitted. Also 
that year, the Indiana General Assembly created IPSC to coordinate the 
project and to coordinate other multi-agency public safety issues. The 
IPSC is made up of 12 members representing fire departments, emergency 
management agencies, emergency medical service providers, police 
departments, elected officials, and other public safety disciplines.
    In January 2000, nearly 500 public safety professionals and local 
first responders attended the third Governor's summit to discuss what 
was now known as Project Hoosier SAFE-T and the benefits of shared 
interagency communications.
    The input of practitioners at all levels and disciplines, teamed 
with a governance board composed of members from these groups, resulted 
in a plan for an interoperable communications system that truly 
reflected the needs of those who would be using it.
              balancing technology with financial reality
    I'll say it up front--we Hoosiers are proud of our frugal 
reputation. Some people call us cheap, we prefer to define ourselves as 
pragmatic. This characteristic was definitely present as we were making 
our decision about which communications technology to adopt more than a 
decade ago.
    Back then, we had the choice to go ``bleeding edge'' with a fully 
P25-compliant system. It was tempting--everyone likes to be viewed as 
progressive. The reality, however, was that communications in Indiana 
consisted of a variety of technologies and that many local agencies 
would be unwilling or unable to migrate to a new system. We also could 
have chosen to implement a fully compliant P25 system on a more limited 
scale, say for State agencies only. Our goal, however, was to cast as 
wide of a net as possible.
    This goal led us to choose a phase II P25-compliant 800 Mhz 
platform. Our strategic direction was to facilitate and encourage as 
many public safety entities as possible to participate in the statewide 
800 MHz SAFE-T system, while allowing for the greatest flexibility for 
users of other technologies. IPSC established interoperable 
communication talkgroups, enabled for the least-capable radio 
affiliating with SAFE-T. Support for non-SAFE-T users was supported 
through the use of radio caches, gateways, and ``patching'' 
technologies.
    As it turns out, we have been a victim of our own success. The 
flexibility, cost savings, and ultimate performance of the system has 
attracted new agency users in unforeseen numbers, a success story for 
sure, but one that has consequences that I'll briefly address later in 
my testimony.
                          timing is everything
    Looking back again, as the new millennium begin in the year 2000, 
Indiana had visionary, user-driven plan for interoperable 
communications in place. The State legislature had created IPSC, a 12-
member, bipartisan group representing the diverse range of public 
safety stakeholders across the State. This governance group, which met 
quarterly, using a creative combination of Federal grants and 
partnerships with State and local agencies, construction on a handful 
of sites for Project Hoosier SAFE-T had begun.
    But frankly, progress was slow. A lack of dedicated funding 
translated to an ever-changing construction schedule. The financial 
incentive of a State-funded system with no user or access fees was 
great, but local agencies still had trouble coming up with the dollars 
needed to replace legacy VHF and UHF radios. And despite the locally 
driven plan, first responders out in the field had doubts that the 
statewide system would ever be completed, dampening enthusiasm for 
joining the system.
    Even though the strong foundation was set, it appeared that 
progress would be slower than anyone wanted or anticipated.
    And then, during the morning hours of September 11, 2001, 
terrorists attacked the United States. As we all know, the inability to 
communicate was cited as a major reason so many firefighters lost their 
lives that tragic day.
    Suddenly, interoperability became the buzzword for successful 
response. As a result, two massive financial shifts occurred here in 
Indiana. First, the Indiana General Assembly passed House Enrolled Act 
1001, which dedicated a portion of existing BMV fees to help fund the 
SAFE-T buildout. This guaranteed revenue stream (approximately $13 
million annually) allowed IPSC to proceed with site construction and 
implementation across the State.
    Second, the Federal Government established the Department of 
Homeland Security (DHS) and funded new Federal grants that address the 
lack of interoperable communications. Many local agencies benefited 
greatly from these grants, allowing them to upgrade user communications 
equipment. Ensuing disasters such as Hurricane Katrina kept the 
critical need for interoperable communications at the top of the 
funding priority list.
    While one can never say that these tragedies were ``good'' for 
Indiana, they certainly had a profound influence on the state of public 
safety as we know it today.
                          why it keeps working
    IPSC's locally driven foundation, pragmatic approach to 
interoperable technology, and the timing of the 9-11 terrorist attacks 
are the three largest reasons for Indiana's interoperable 
communications success, but several factors continue to influence the 
success of the system.
    I'm proud to stand before you and say that it has been a truly 
bipartisan effort in Indiana. Both parties recognized the urgency of 
the issue, and both parties were a part of the solution. To my 
knowledge, no one at the local, State, or national level has ever made 
claim to ``owning'' the issue or taken credit for the success of our 
efforts.
    We have a great working relationship with our FEMA and DHS Federal 
partners, especially with the Office of Emergency Communication. At 
times, I'll admit that the requirements seem a little onerous, 
especially since we are such a small agency, but the result of many of 
the requirements are undeniable. For example, the process of creating 
our Statewide Communications Interoperability Plan (SCIP) was 
difficult, but it allowed us to refocus our efforts and identify the 
gaps that need attention.
    As Director Fugate mentioned in his testimony earlier, DHS' unified 
approach to emergency planning and response has yielded measurable 
results. IPSC was a major player in the NLE 2011 exercise, both as a 
communications restoration agency, but also in our role as the lead 
ESF-2 agency. We're still evaluating our response and assessing 
internal after action reports, but the exercise was invaluable.
    We have continued our emphasis on local involvement. In addition to 
user groups, we hold an annual Indiana Interoperable Communications 
Conference, during which several hundred first responders and public 
safety professionals gather to discuss current and future interoperable 
communications issues. Additionally, we recently strengthened our 
governance structure to facilitate the flow of information between 
local and State agencies. The Statewide Interoperable Executive 
Committee (SIEC)--formerly the IPSC Policy Subcommittee--was 
reorganized to include a member from each of the 10 Indiana Department 
of Homeland Security districts. This change has greatly improved the 
bi-directional flow of planning, best practices, and policy 
recommendations between local, regional, and State communications 
communities.
    Based on the reputation and success of the voice system, Indiana is 
currently moving into next-generation public safety communications:
  --integrated public safety data sharing by deploying a statewide 
        multi-agency;
  --multijurisdiction police, fire, and EMS computer-aided dispatch 
        (CAD); and
  --records management system (RMS).
    Implementation of the project is similar to that of the voice 
system--the State will provide the infrastructure and central server 
systems; user agencies will own, operate, and manage the daily use of 
CAD/RMS applications. Deployment and testing is currently occurring in 
the Indiana State Police dispatch centers across the State. The system 
will be made available to local agencies in 2012.
                         issues for the future
    I mentioned earlier that I would briefly address some of the 
looming issues that we face as a State--and I believe as a Nation.
    First, as we all know, technology is developing at a rapid pace. 
Bleeding edge becomes obsolete at the blink of an eye. It's impossible 
for ``normal'' civil servants--even the technologically savvy ones--to 
predict and thus plan for the future. Further complicating the issue is 
the fact that vendors have been guilty in the past of extreme 
proprietary tactics. This has improved somewhat in recent years with 
the implementation of new standards, but I believe even greater 
emphasis must be placed on changing the old way of doing business. It 
is our responsibility as civil servants and as elected officials to 
bring about these changes.
    One result of changing technology and proprietary systems is that 
many States are now having to address system limitation or end of life 
issues. Because of the success of the SAFE-T network, we are now at 
system capacity. We have had to put a hold on adding additional 
agencies to the system id database until we can add capacity. The 
process of migrating to a fully P25-compliant system--which will double 
system capacity--is not inexpensive. Fortunately, many of our public 
officials and budgetary executives in Indiana understand that this is 
an infrastructure issue--much as roads and bridges are--but this 
understanding cannot overcome the fact that these are lean economic 
times. Where will the money come from?
    And then, of course, there's the social media conundrum. Weighing 
the risks and benefits, getting past legal and security issues, and 
then figuring out how to talk about the issue in a room filled with 
techno geeks on one side and old-school responders on the other . . . 
Let's just say it is proving to be a stickier issue than plain 
language.
                               conclusion
    On behalf of the staff of IPSC and Indiana's first responders, I'd 
like to thank you for allowing me to address you today. I'd also like 
to thank you for your past support and commitment toward improving 
interoperable communications. I look forward to working with you in the 
future to ensure that we make the most efficient use of all available 
resources in our shared goal of ``Saving Money and Saving Lives''.

    Senator Landrieu. Thank you very much.
    Mr. Hicks.
STATEMENT OF EDDIE HICKS, INTERNATIONAL ASSOCIATION OF 
            EMERGENCY MANAGERS-USA, PRESIDENT AND 
            DIRECTOR OF MORGAN COUNTY, ALABAMA 
            EMERGENCY MANAGEMENT
    Mr. Hicks. Madam Chair Landrieu, Ranking Member Coats, 
Senator Cochran, thank you for allowing me the opportunity to 
provide testimony.
    I am Eddie Hicks, the emergency management director for 
Morgan County in Alabama. I have been a local emergency 
management director for 31 years. I also serve as president of 
the U.S. Council of the International Association of Emergency 
Managers, our Nation's largest association of emergency 
management professionals.
    We deeply appreciate the support that this subcommittee has 
provided to the emergency management community, particularly 
your support for the Emergency Management Performance Grant 
(EMPG) program, the Emergency Management Institute, and also in 
strengthening FEMA.
    Morgan County, which is in north central Alabama, has a 
population of 160,000. We have a concentration of industries, 
chemical plants, steel production facilities, an appliance 
manufacturer, and even a maker of rockets. Part of my county is 
within the 10-mile emergency planning zone of Browns Ferry 
nuclear plant. We have a history of being proactive in 
preparing with our industrial neighbors that stretches back to 
the early 1980s.
    Morgan County faces hazards including flooding, ice storms, 
tornadoes, hazardous material incidents, and wildfires.
    We utilize a comprehensive planning process, incorporating 
nearly 50 agencies, disciplines, and interest groups across our 
community. We are also involved in a radiological emergency 
preparedness program with the Browns Ferry nuclear plant, and 
we conduct annual drills with them.
    In April, Alabama experienced more than 103 tornadoes, 
killing 241 of our citizens and destroying or damaging more 
than 13,000 buildings.
    On April 27, my county, Morgan County, was under three 
separate tornado watches, 20 separate tornado warnings, 
experienced three tornado touchdowns. One was an EF4. Another 
was an EF5.
    I would like to highlight two good practices that are 
Federal partners utilized during this response.
    In Alabama, FEMA has appointed liaisons to each of the 
counties affected to enhance the flow of communications and 
resolve issues. This practice should be continued.
    The Army Corps of Engineers initiated Operation Clean 
Sweep, a program to remove debris from private property that is 
impacting public safety and health.
    One area with the potential for improvement is the 
timeliness of the availability of post-disaster hazard 
mitigation grant program funding. Local communities within 
Alabama have requested that the State and FEMA consider making 
a significant portion of the anticipated mitigation funding 
available more quickly instead of the usual 8 months to 1 year. 
This would allow people to take advantage of protective 
measures as they are rebuilding.
    The Emergency Management Assistance Compact, an agreement 
between States to provide mutual aid, is not run by FEMA, but 
there are opportunities to improve the timeliness of FEMA 
reimbursement associated with it. Slow reimbursements could 
eventually result in reluctance to lend critical resources 
under this program.
    We appreciate that the subcommittee recognizes that EMPG 
funding is fundamentally different than the post-9/11 Homeland 
Security grants. EMPG funding has a history of more than 50 
years and has a 50 percent cost share to demonstrate the 
commitment of State and local governments and requires 
performance measures. In Alabama, without EMPG support, there 
would not be full-time emergency managers in every county.
    In Morgan County, we conduct an annual full-scale exercise 
which is designed by EMPG-funded local emergency management 
staff. Last year's exercise involved working with the Alabama 
mortuary team in identifying the simulated victims of a 
simulated tornado. Fortunately, our tornado events of April 27 
did not produce fatalities in Morgan County, but the experience 
gained in the simulation by that team was regretfully utilized 
in DeKalb County in Alabama.
    Another program we are enthusiastic supporters of is the 
Metropolitan Medical Response System (MMRS). The funding from 
this program has provided training, exercise, and equipment for 
responders and hospitals which are invaluable in our tornado 
outbreaks.
    Communications before, during, and after a crisis are 
critical. During the alert and warning phases and after our 
tornadoes, we did have communication challenges, but they were 
overcome by a combination of resources and ingenuity.

                           PREPARED STATEMENT

    In closing, I would like to say that there is a more nimble 
FEMA on the ground in Alabama.
    Thank you.
    [The statement follows:]
                   Prepared Statement of Eddie Hicks
    Chairman Landrieu, Ranking Member Coats, and distinguished members 
of the subcommittee, I would like to thank you for allowing me the 
opportunity to provide testimony on this critically important topic.
    I am Eddie Hicks, the director of emergency management for Morgan 
County, Alabama. I serve as the president of the U.S. Council of the 
International Association of Emergency Managers (IAEM-USA) and while I 
am providing this statement on their behalf, I also want to describe 
some of the experiences that my county has had in the recent tornadoes, 
as well as the experiences of other Alabama counties. I would like to 
begin by talking a little bit about IAEM followed by some background 
information about Morgan County. After that, I'd like to move into 
comments on how the Federal Emergency Management Agency (FEMA) is 
responding, and how the programs this subcommittee helps to fund are 
operating in actual disasters and emergencies. I have been a local 
government emergency manager for 31 years. I also served three terms as 
president of the Alabama Association of Emergency Managers.
  u.s. council of the international association of emergency managers
    IAEM-USA is our Nation's largest association of emergency 
management professionals, with 5,000 members including emergency 
managers at the State and local government levels, tribal nations, the 
military, colleges and universities, private business, and the 
nonprofit sector. Most of our members are U.S. city and county 
emergency managers who perform the crucial function of coordinating and 
integrating the efforts at the local level to prepare for, mitigate the 
effects of, respond to, and recover from all types of disasters 
including terrorist attacks. We deeply appreciate the support this 
subcommittee has provided to the emergency management community over 
the past few years, particularly your strong support for the Emergency 
Management Performance Grant Program (EMPG), the Emergency Management 
Institute (EMI), and for strengthening FEMA.
                         morgan county, alabama
    My jurisdiction is Morgan County which has a population of 160,000. 
We have a major concentration of industries that includes chemical 
plants, steel production facilities, an appliance manufacturer and even 
a rocket manufacturer. Additionally a portion of the county is in the 
10-mile emergency planning zone (EPZ) for the Browns Ferry Nuclear 
Plant, one of the largest nuclear power plants in the Nation. The 
Tennessee River forms the northern border of the county and is a major 
river transportation corridor. We are served by two railroads and an 
interstate highway. Morgan County has a history of being pro-active in 
industrial emergency preparedness as there was an industrial planning 
group active years before local emergency planning committees (LEPCs) 
were mandated by the Congress in title III of the Superfund Amendment 
and Reauthorization Act (SARA) of 1986.
    Morgan County faces a number of different hazards including 
flooding, ice storms, tornadoes, hazardous materials transportation 
incidents, and wildfires. While our industrial facilities are good 
corporate neighbors, we are subject to the vulnerabilities that come 
along with the assets they provide to our community.
    Many things have changed in emergency management from my first 
involvement with it just more than three decades ago. One example of 
this is our emergency operations plan. When I was hired in 1979 as the 
civil defense director of my county, my first assignment was to update 
the emergency operations plan (EOP). While that plan was a good plan 
there is little comparison to the comprehensive plans that are standard 
in today's modern emergency management offices. In Morgan County we 
augment our all-hazard EOP with special annexes that address specific 
issues or concerns, examples are:
  --mass casualty plans;
  --emergency commodity distribution plans; and
  --mass medicine distribution plans.
    One planning effort that I am especially proud of is our suite of 
continuity of operations plans. These plans outline the procedures to 
re-establish the critical functions of government after a disaster 
would destroy facilities. We have developed these plans for all 
essential county and municipal offices including all 21 of our 
volunteer fire departments.
    I'd also like to take a moment and describe the comprehensive 
process and involvement of stakeholders that happens when we make or 
update our plans. When our current plan was created, we assembled a 
diverse array of stakeholders including, among others, the Morgan 
County Sheriff's Department, Police Chiefs from Decatur, Hartsell, 
Priceville, Sommerville, Trinity, and Faulkville; the Decatur and 
Hartsell Fire and Rescue departments; the 21 volunteer fire departments 
within our county; our municipal utilities and a Rural Electric Co-op 
(REC); various public works departments; the three school systems 
within our county; and, representatives of the local industrial base. 
These partners were not only involved in the creation of our EOP, but 
they are also helping us to review our plan and planning process 
regarding our response to the recent tornadoes. In addition, we also 
engage in a Radiological Emergency Preparedness Program (REPP) in 
conjunction with the Tennessee Valley Authority and the Browns Ferry 
Nuclear Plant. We engage in exercises annually with this facility. The 
exercises are ``graded'' by the Nuclear Regulatory Commission (NRC) on 
an every other year basis. To further our training and expertise we 
regularly exchange staff during emergency drills with the Farley 
Nuclear Plant in Houston County in South Alabama.
    Our Alabama tornadoes--and those in other States--have made 
national news and are rewriting the record books. During April 2011, 
Alabama experienced more than 103 tornado touchdowns including tornados 
with tracks of 132 miles, 122+ miles, 122 miles, 98 miles, 80 miles, 
and 72 miles. According to the American Red Cross, an estimated 7,300 
homes were destroyed and an additional 5,800 received major damage. The 
death toll for the April 27 tornadoes in Alabama stands at 241. Total 
debris from all the April storms in Alabama has been estimated at 
8,441,970 cubic yards. According to FEMA, more than 4 million cubic 
yards of debris has been removed as of June 3, 2011. Alabama has a 
total of 67 counties--and 43 of them have received major disaster 
declarations. On April 27, Morgan County was under three separate 
tornado watches, 20 separate tornado warnings, and experienced three 
tornado touchdowns (one of these was an EF5, and one was an EF4).
 federal emergency management agency response to the alabama tornadoes
    Next, I would like to address the issue of FEMA response during the 
Alabama tornadoes. To do this I asked several of my colleagues in 
Alabama counties a series of questions.
    What has been going well, and what is going better compared to past 
disasters?
    Where is there room for improvement in our interactions with FEMA?
    What is going well and what is going better compared to past 
disasters?
    FEMA has responded in a much more efficient way than in past 
disasters. One thing, in particular, that most of the counties in our 
area agreed on was how beneficial it was when the counties affected by 
the tornadoes were assigned a FEMA liaison. This greatly enhanced the 
flow of information and coordination, especially during the initial 
response phase. During a discussion with one of the FEMA county 
liaisons, he said, `` . . . the mind set of FEMA has changed over the 
past few years from preparing to respond 3 days after the disaster to 
preparing for immediate response in the affected State or 5 days prior 
to landfall for a hurricane.''
    I was involved in the response during Hurricane Ivan and Hurricane 
Katrina and the difference between then and now is night and day. 
Anyone working in response activities in Alabama will quickly realize 
that there is a true partnership between local, State, and Federal 
organizations. The much needed resources are being efficiently 
delivered on time and where they are most needed.
    In Huntsville, Madison County, 16,000 residents were registered by 
FEMA. The disaster recovery centers (DRC) were expanded to include not 
only FEMA and the Small Business Administration (SBA) but also the 
Social Security Administration (SSA), the Veteran's Administration 
(VA), the local builder's association, local real-estate association, 
the Better Business Bureau (BBB), crisis counseling, faith-based and 
Voluntary Organizations Active in Disaster (VOAD) representatives. The 
FEMA folks were actively engaged in providing one-stop service for the 
affected families.
    FEMA and the Army Corp of Engineers (CoE) have begun to initiate a 
new program called ``Operation Clean Sweep''. This program will enable 
property owners in the worst impacted areas to apply for assistance to 
remove debris from their private property when it impacts public 
safety. They must submit a right of entry form to CoE in order to 
receive this assistance.
    Where is there room for improvement in our interactions with FEMA?
    The Hazard Mitigation Grant Program (HMGP) provides post disaster 
assistance. The availability of these funds normally takes from 8 
months to 1 year after the disaster happens. At the request of local 
communities, both Alabama and FEMA are trying to coordinate the 
immediate availability of a significant portion of the anticipated 
funding. Our recovery from this tornado will be the largest re-building 
effort Alabama has ever faced. People want to start rebuilding now and 
may not take protective measures--like in home or community safe 
rooms--if mitigation funds are not readily available for another year. 
If this first time ``early'' funding becomes a reality our citizens can 
start planning and building back for a safer community now instead of 
next year. Disaster survivors across our Nation could benefit if this 
practice were adopted for future disasters.
    While the Emergency Management Assistance Compact (EMAC) is not a 
FEMA-run program, there are FEMA reimbursement issues associated with 
it. EMAC is the agreement between all 50 States approved by the 
Congress for mutual aid--and it works well to get the right resources 
to the right place in time to conduct rescue and response in the 
impacted area. However, some States have had problems with the 
reimbursement process. Alabama's counties and cities were able to 
provide resources to other Gulf States through EMAC within 48 hours and 
some counties were still not reimbursed after 30 months or longer.
    The Madison Fire Heavy Rescue Unit and a team of Madison County 
sheriff's deputies were deployed during the Hurricane Gustav response 
in September 2008. While the response was immediate and the mission 
only lasted a couple of weeks, it took until January 2010 to get 
reimbursed. A number of Alabama counties had the same experience.
    It is our fear that slow reimbursement will eventually result in 
reluctance to lend critical resources under EMAC due to the adverse 
economic impact on local budgets during these difficult economic times.
           the impact of programs funded by this subcommittee
    Earlier in my remarks, I extended a thank you to the subcommittee 
for its support of EMPG. Emergency managers appreciate that this 
subcommittee recognizes that EMPG funding is fundamentally different 
than the Homeland Security grants which came into existence only 10 
short years ago. EMPG funding has a history of more than five decades, 
and has a 50-percent cost share to demonstrate the commitment of State 
and local governments to being prepared for all hazards. In fact, EMPG 
funding has been called the backbone of the emergency management 
system. I would like to tell you about some of the specific things that 
helped us funded by EMPG or coordinated by emergency managers partially 
funded by EMPG.
    Emergency management programs at the local level in Alabama have 
been able to build partnerships between local governments, volunteers, 
nongovernmental organizations, and the private sector. Some of the 
specific examples that illustrate this are:
  --Partnerships involving volunteer reception centers in our Alabama 
        counties. These centers provided for a place to receive 
        volunteers and to match volunteer resources with the unmet 
        needs in the community. This matching has allowed our 
        communities to increase their speed of recovery. In addition, 
        these centers have helped us to control one of the potential 
        ``disasters after the disaster'' by making sure volunteer 
        resources are applied to areas in need with some logic and 
        rigor.
  --For the last few years the State of Alabama has passed through 65 
        percent of available EMPG funding to local government emergency 
        management agencies. The creation of strong local programs and 
        fostering mutual aid agreements statewide enabled counties to 
        quickly assess the extent of and begin the response to a truly 
        catastrophic disaster before the wind stopped blowing. Counties 
        were helping each other during the initial response and are 
        still providing mutual aid as we speak.
  --Morgan County conducts an annual full-scale exercise typically 
        designed by EMPG funded staff. Last year's exercise involved 
        working with the Alabama State Mortuary Team in identifying the 
        simulated victims of a simulated tornado. Fortunately our 
        tornado event on April 27, 2011, did not produce fatalities--
        but the experience gained in the simulation by that team was 
        regretfully utilized in DeKalb County.
  --Some counties used community emergency response teams (CERT) to 
        distribute ice, water, food, and tarps in the affected areas. 
        Others had their CERT teams active in the immediate response. 
        Billy Green, assistant director for Tuscaloosa EMA, writes:

       ``I guess my biggest highlight was on Saturday, April 23, 2011, 
            when I graduated my first Hispanic CERT Team. They were all 
            members of the Knights of Columbus from Holy Spirit 
            Catholic Church . . .  Who would have ever known that on 
            Wednesday they would be putting all their skills to use? . 
            . .  Several of them lived in the Alberta city area that 
            was affected . . .  They came together and first began 
            search and rescue . . .  I was actually unaware of them 
            getting out until we took the tour with the Governor and we 
            passed a truck. As we passed, I looked up and there was a 
            truck load of Hispanic guys wearing CERT vests and helmets 
            . . .  Those were my guys. I actually got a call from 
            Indiana about their use of USAR markings . . .  They would 
            later assist the Tuscaloosa Police Department with 
            translators. They would later go on to staff a shelter at 
            Holy Spirit Catholic Church . . .  I'm really proud of them 
            . . .  I also had several individuals who graduated from my 
            Campus CERT class that helped out in the areas where they 
            lived . . .  They however acted individually and not as a 
            group . . .  But they used the training to take care of 
            themselves which allowed them to help their neighbor. One 
            of them has gone on and initially volunteered at our 
            Volunteer Reception Center and is now working for the city 
            of Tuscaloosa as part of the disaster response . . . ''.

    The Metropolitan Medical Response System (MMRS) has been a 
cornerstone of our medical and responder team building since 2002. We 
have been able to develop plans and purchase medical response 
capability across 16 counties in north Alabama with MMRS funding 
coordinated by my colleague John ``Rusty'' Russell, the emergency 
management director of Madison County (Huntsville) Alabama. We provided 
training and exercises that have added cohesion to the way traditional 
responders and medical professionals work together during emergencies.
    In November 2007 a Huntsville City School bus with a driver and 41 
students, plunged 75 feet from an interstate overpass. The bus landed 
vertically and toppled over killing three students and injuring several 
others. The response was immediate and working within the MMRS plan, 40 
students were transported to our two major hospitals within 40 minutes. 
Plans were activated and surely helped save many lives as trauma 
victims were quickly triaged and cared for. Our MMRS group had provided 
an exercise that was called ``eerily similar'' in the weeks preceding 
the fatal bus crash. That training and exercises in which responders 
and hospital staff had participated enabled them to coordinate and 
communicate and provide efficient patient tracking.
    After the April 27 tornadoes, the emergency medical equipment and 
supplies provided by MMRS were deployed and used in the impacted areas 
of even the most rural North Alabama counties. The North Alabama 
Medical Reserve Corp, serving 16 counties, was deployed and staffed 211 
medical hotlines and temporary clinics in the impacted areas to 
administer tetanus vaccine and treatment of minor injuries. The North 
Alabama Medical Reserve Corp was developed under MMRS in 2006. The 
State mortuary teams--partially funded by MMRS--were deployed in north 
east Alabama. Twenty-six deceased victims were processed in DeKalb 
County during the initial response to the tornadoes.
                          some best practices
    Since 1971, north Alabama has been drawn together through the North 
Alabama Mutual Aid Association which includes 16 counties. The 
association consists of local EMAs and the extended community of 
response and public safety organizations such as the Alabama Department 
of Environmental Resources, Department of Public Health, National 
Weather Service (NWS), local, State, and congressional elected 
officials' staff members. Every county and city government has signed 
the mutual aid agreement. Coordination and response from county to 
county has become almost automatic and is encouraged by the State. The 
majority of emergency incidents are coordinated locally without help 
from the State or Federal agencies. It is the practice of our 
association that local resources should be used first.
                             communications
    Communications before, during, and after a crisis are crucial and 
there are various different types of communication.
    Predisaster Communications.--Communications before a disaster 
consist of continuing public education and training programs, public 
appearances before almost any group that will give us time to share the 
message of preparedness, storm spotter training, the media, and working 
with our frontline emergency responders. In the last three instances in 
particular we are concentrating on building relationships so that we 
know each other well in advance of a disaster. We have a particularly 
close bond with our colleagues at NWS. In my county we test our outdoor 
warning sirens once a month year-round to determine the status of the 
system and to remind the public of what sound the devices make when 
activated. An additional purpose of this testing is to remind people to 
seek out information as soon as the outdoor warning sirens activate so 
they can take appropriate action to save their lives and the lives of 
their loved ones from a disaster or emergency.
    During the Disaster.--Communications during the disaster are 
typically broken down into three areas:
  --emergency alert and warning;
  --communications among emergency responders; and
  --emergency information to the public.
    For alert and warning we capitalize on relationships with local 
media and activate our outdoor warning devices to indicate that the 
public should seek information on how to protect themselves. 
Communication among responders involves the use of two-way public 
safety radio systems and the issues of interoperability inherent in 
those systems. In my county and other areas of Alabama we have multiple 
ways of approaching interoperability including ``black box'' solutions 
and public private partnerships.
    In Morgan County we have a multi-use radio system with the major 
industrial facilities to provide warning and coordination during 
emergencies. For public emergency information, we rely mainly on our 
traditional news media outlets. The State of Alabama is actively 
engaged in utilizing social media to get emergency messages out to its 
citizens. It is an emerging capability for many of the counties but 
lack of personnel in most counties has inhibited its use to the 
fullest.
    After a Disaster.--Communications after a disaster can pose 
numerous problems. In an attempt to provide adequate redundancy, we 
have multiple ways to communicate with our neighboring counties and the 
State of Alabama. These include ``plain old telephone system'' (POTS), 
cellular telephones, 800 MHz statewide two-way public safety radio 
systems, and the Internet. As communications systems are restored and 
conditions return closer to normal, communications once again assumes a 
``pre-disaster'' footing.
    Outcomes.--I had conversations with several of the emergency 
managers from the most impacted Alabama counties regarding their 
communications issues after the April tornadoes. Almost every one of 
them said they had challenges but were able to solve most of the 
issues. Alabama has eight mobile communication units and all eight were 
activated and used to restore communication gaps. Many of the 
communication issues involved areas of the State that were underserved 
by communications prior to the storm. A combination of augmenting 
existing communication towers and networks and sometimes commercial 
cell phone providers providing temporary service to the area solved 
many of the communication issues. While many areas had less than 
perfect communication, the ability to utilize alternate towers and or 
frequency in many cases provided basic communication capabilities. In 
many cases where power to communication systems was disrupted the 
systems continued to work due to battery backups and the ability to 
provide generator power to the repeaters. Many of the counties in 
Alabama utilize a commercial 800 MHz radio system. This system, 
Southern Link, was able to provide dependable service throughout the 
whole State. When counties needed additional capabilities they were 
provided with additional radios.
                     emergency management institute
    EMI and its predecessor--the Civil Defense Staff College at Battle 
Creek, Michigan (1954-1980)--have been essential in the development of 
emergency managers and the overall professionalism within our field. 
When I began my emergency management career, I attended what was then 
called ``The Phase Courses'', followed by a ``Capstone Course'' at EMI. 
Over the years, this changed, and my colleagues and I at the local 
level--as well as IAEM-USA are thrilled with the development of the new 
Foundational Academy at EMI. Once again, EMI will be able to offer the 
basics of becoming an emergency management professional--from a 
practical perspective--to those who will comprise our next generation. 
We urge the subcommittee to continue its support of EMI. We gratefully 
note that the Senate Appropriations Committee Report on the fiscal year 
2011 Appropriations for the Department of Homeland Security (S. Report 
111-222) included $11 million for EMI. If it had been enacted, this 
modest increase would have allowed for a more aggressive timeline to 
revise, update and modernize their portfolio of offerings.
                                closing
    In closing, we want to make sure and communicate that there is a 
new and more nimble FEMA on the ground in Alabama. Our local Alabama 
emergency managers especially appreciate having FEMA liaisons to 
provide information and solve problems quickly. We are hopeful that the 
HMGP program will be made available to our citizens more quickly than 
the typical 1-year timeframe so that opportunities for safer rebuilding 
can happen now so they are not lost in the future. We are especially 
grateful for the support of this subcommittee for EMPG and for EMI. 
These are critical elements in the maintenance and development of our 
local emergency management capability. Thank you for the opportunity to 
provide this information in this hearing. I would be happy to answer 
any questions you may have at this time.

    Senator Landrieu. Thank you very much.
    And Mr. Lane.
STATEMENT OF RON LANE, DIRECTOR, OFFICE OF EMERGENCY 
            SERVICES, SAN DIEGO COUNTY, CALIFORNIA
    Mr. Lane. Thank you, Madam Chair Landrieu, Ranking Member 
Coats, and Senator Cochran, for inviting me here today to 
provide you with a large local community's perspective on the 
current status of emergency management in our country. My 
testimony today is framed in the context of the two major 
firestorms that have devastated the San Diego community over 
the past 8 years and the continued vigilance and preparedness 
needed knowing that there could be another firestorm the next 
time the Santa Ana winds blow.
    San Diego County is a community of more than 3.1 million 
residents. The county is roughly equivalent to the land size of 
the State of Connecticut. We have several large military bases, 
a nuclear power plant, the world's busiest international land 
border crossing, and several stadiums and amusement parks. All 
of these attributes, which makes San Diego a great place to 
live, also factor into the challenges to ensure San Diego is 
safe and prepared for both natural and manmade disasters.
    We have all heard the axiom ``all disasters are local'', 
but in reality all disasters start local and very quickly 
require State and Federal assistance. Emergency management is 
very much a team sport and only through tremendous coordination 
at all levels of government can we effectively respond and 
recover from disasters.
    The frequency of major disasters in San Diego has 
emphasized the need to focus on community resilience. I define 
``resilience'' as the sum of three key components. First, the 
sheer number of first responders and their capability to 
effectively divert from their day-to-day duties to perform 
disaster response duties. Second, a specific and dedicated 
emergency management capability; and finally, the overall civil 
preparedness of our residents.
    As to the first responders, San Diego invests hundreds of 
millions of dollars each year in public safety and fields more 
than 5,000 law enforcement, firefighter, and Emergency Medical 
System personnel. In the past, most first responders did not 
have the training, experience, or equipment to most effectively 
respond to major disasters or emergencies. But that has 
changed, thanks to the Homeland Security Grant Program (HSGP), 
as we have been able to use Federal grant funds to conduct 
hundreds of training programs, dozens of exercises, and to 
equip our first responders with the personal protection 
equipment and robust communications equipment needed for an 
effective initial response to a catastrophic event. Bottom 
line, the Federal investment in this area has effectively 
leveraged the local investment in our public safety and has 
resulted in a tremendously enhanced disaster response 
capability.
    In addition to helping prepare our first responders, 
Federal grant funds have supported our efforts to maintain a 
robust and dedicated emergency management and homeland security 
capability. Largely through the Emergency Management 
Preparedness Grant and Homeland Security grants, the region 
maintains significant emergency management capability, 
including a state-of-the-art emergency operations center, a 
series of plans addressing mitigation, evacuation, recovery, 
and continuity of operations, and we also operate 1 of the 
Nation's 72 law enforcement fusion centers. While the very 
basic and core elements of emergency management and homeland 
security capabilities are funded with local funds, the majority 
of the enhanced activities have been funded through Federal 
investment.
    The final component of community resiliency is civil 
preparedness. In 2007, San Diego firestorms burned 369,000 
acres, destroyed more than 1,600 homes, and resulted in 10 
deaths, and forced the evacuation of more than 500,000 people. 
The narrative of the 2007 wildfires is replete with stories of 
neighbors helping neighbors during the evacuation, of 
businesses voluntarily providing cots, food, and water to 
shelters, of animal rescue workers saving horses and livestock, 
and the list goes on and on. One of the key observations from 
the 2007 wildfires is that a disaster response is not just a 
government response, but rather a community response. We 
wholeheartedly support Administrator Fugate's ``whole 
community'' initiative as the resiliency of a community is 
truly tied to the civil preparedness and spirit of the 
community as a whole.
    As the HSGP evolves to reflect the many changes to our 
Nation's preparedness levels and budget realities, from a local 
perspective we ask that you consider two key concepts.
    First, the grant program's primary effort should be to 
ensure that we are able to sustain the tremendous capability 
that we have achieved over the past 8 years of grant funding. 
Sustainment is a priority.
    Second, while the level of grant funding is important, 
flexibility in how we use grant funds is equally important. 
Increased flexibility allows local emergency managers to 
maximize the use of funds to achieve the greatest local level 
of preparedness. If grant funding is to decrease over time, a 
corresponding increase in flexibility in how grant funds are 
spent would help mitigate some of the impact.
    In sum, Federal investment has been a force multiplier.

                           PREPARED STATEMENT

    I appreciate the opportunities like this one to share and 
exchange ideas. Thank you for your interest and support in 
local disaster preparedness activity and providing the county 
of San Diego the opportunity to participate in today's hearing. 
I am happy to answer any questions.
    [The statement follows:]
                     Prepared Statement of Ron Lane
                              introduction
    Thank you Chairman Landrieu, Ranking Member Senator Coats, and 
distinguished members of the subcommittee, for inviting me here today 
to provide you with a large local community's perspective of the 
current status of emergency management in our country. I am Ron Lane, 
director of emergency services for the county of San Diego and a 
participant in the Big City Emergency Managers' Group. My testimony 
today is framed in the context of the two major firestorms that have 
devastated the San Diego region over the past 8 years, and the 
continued vigilance and preparedness needed knowing that there could be 
another firestorm the next time the Santa Ana winds blow.
    San Diego County is a community of more than 3.1 million residents, 
comprised of 18 cities and a large unincorporated area. The county is 
large geographically with its land size roughly equivalent to the State 
of Connecticut. San Diego County is landlocked with the Pacific Ocean 
to the west, border with Mexico to the south and a desert to the east. 
We have several large military bases, a nuclear power plant, the 
world's busiest international land border crossing, and several 
stadiums and amusement parks. All of these attributes which make San 
Diego a great place to live also factor into our mutual effort to 
ensure San Diego is safe and prepared for both natural and manmade 
disasters. Preparedness in such a large and diverse community is only 
achievable through a sophisticated level of coordination, communication 
and efficient application of resources. We have all heard the axiom 
``all disasters are local'', but in reality, all disasters start local, 
but very quickly require State and Federal assistance. Emergency 
management is very much a team sport, and only through tremendous 
coordination at all levels of government can an effective disaster 
response and recovery be achieved. In my remarks today, I will 
highlight how the Federal investment in local disaster preparedness and 
homeland security has been invaluable, and how this continued 
partnership is positioned to ensure that our Nation continues to 
achieve its preparedness goals.
                       local community resilience
    The San Diego region is exposed to many potential natural disaster 
risks including a year-round fire season and dispositions for 
earthquakes or tsunamis. San Diego is also exposed to manmade or 
terrorist threats the region's proximity to an International border, 
numerous military facilities, and a nuclear power plant. The frequency 
of major disasters in San Diego has emphasized the need to focus on 
community resilience. Achieving resilience in a local community, 
however, requires efforts from all levels of government as well as 
businesses, local organizations, and citizens. I define resilience as 
the sum of three key components:
  --the number of first responders, and their capability to effectively 
        divert from their day-to-day duties to disaster response;
  --the specific and dedicated emergency management capability; and
  --the civil preparedness of our residents.
First Responders
    San Diego invests hundreds of millions of local dollars each year 
in public safety and fields more than 5,000 law enforcement, 
firefighter, and Emergency Medical System personnel. At the time of a 
disaster or act of terrorism, these first responders become our key 
initial response capability. Unfortunately, in the past, most first 
responders did not have the training, experience, or equipment to most 
effectively respond to major emergencies. The Homeland Security Grant 
Program has dramatically changed this equation. Over the past several 
years, the San Diego region has used Homeland Security grant funds to 
conduct hundreds of training programs on everything from anti-terrorism 
to hazard materials, and from incident management to mass casualty 
response. We have conducted four regional full-scale exercises and 
dozens of functional exercises. Additionally, using Federal grant 
funds, we have equipped our first responders with the personal 
protection equipment, decontamination trailers, detection equipment, 
and robust communication equipment needed for an effective initial 
response to a catastrophic event. Bottom line: the Federal investment 
in this area has effectively leveraged the local investment in our 
public safety and has resulted in a tremendously enhanced disaster 
response capability. This is an excellent example of the Federal-local 
partnership and how Federal investment can be a force multiplier to 
dramatically increase local capability.
Emergency Management Capability
    In addition to the traditional first responders, a community needs 
to maintain a robust and dedicated emergency management and homeland 
security capability. Largely through the Emergency Management 
Preparedness Grant (EMPG) and Homeland Security grants, the region 
maintains significant emergency management capability, including; a 
state-of-the-art Emergency Operations Center; a series of plans 
addressing mitigation, evacuation, recovery, and continuity of 
operations issues; and caches of critical shelter supplies. The region 
tests our plans by conducting regular exercises, training, and 
coordination activities. The region has also implemented sophisticated 
mass notification systems and an emergency management information 
system. The region's 24-hour Staff Duty Officer Program is another 
critical function that is largely funded through EMPG. In San Diego, we 
have 1 of the Nation's 72 law enforcement fusion centers, and this 
center was developed and is maintained with joint local, State, and 
Federal staff and funding. The fusion center includes the Joint 
Terrorism Task Force and several intelligence analysts, and is the 
focal point of our region's local prevention activities. The fusion 
center serves as a conduit of two-way information and analysis between 
the street level personnel and all levels of the national intelligence 
network. While the very basic and core elements of emergency management 
and homeland security capabilities in our community are funded with 
local funds, the majority of the enhanced activities have been funded 
through Federal investments. Again, a relatively small Federal 
investment has provided significant and meaningful increase in our 
community's preparedness in the San Diego region.
Civil Preparedness
    The 2007 San Diego firestorm burned 369,000 acres, destroyed more 
than 1,600 homes, resulted in 10 deaths, and forced the evacuation of 
more than 500,000 people. The narrative of the 2007 wildfires is 
replete with stories of neighbors helping neighbors during the 
evacuation; of businesses voluntarily providing cots, food, and water 
to shelters; of animal rescue workers saving horses and livestock; of 
college students volunteering at the Qualcomm Stadium mega-shelter; and 
the list goes on and on. One of the key observations from the 2007 
wildfires is that a disaster response is not just a government 
response, but rather, a community response. We wholeheartedly support 
Administrator Fugate's ``whole community'' initiative, as the 
resiliency of a community is truly tied to the civil preparedness and 
spirit of the community as a whole. While help and leadership from 
citizens, businesses, and organizations will seemingly spontaneously 
emerge where needed in disasters, there is much that can be done pre-
disaster to establish conditions for these emergent groups to be as 
successful as possible. Civil preparedness, in this context, not only 
means that individual citizens and families have taken basic disaster 
preparedness steps. True civil preparedness also means that families 
and businesses have taken pro-active steps to mitigate the most likely 
danger in their area (e.g., wildfires and earthquakes). Support of 
neighborhood and community programs like the community emergency 
response teams (CERT), business emergency response teams, and community 
Fire Safe Councils has proven instrumental in increasing community 
resilience--one neighborhood, one small community at a time. It is 
equally important to establish coordination and preparedness with other 
key community stakeholders. In San Diego, we have a very active 
business alliance with more than 300 participating businesses. The 
alliance ensures that businesses are provided key training pre-disaster 
and vital information during a disaster, and also serves as a resource 
for government to obtain critical resources. We have equivalent 
partnerships with the military and universities in the area. In the 
end, the more that is done to ensure all elements of the community are 
included and coordinated with, the more resilient the community will 
be.
    How can the Federal Government support the building of resilient 
local communities?
    Accepting the premise of a resilient community outlined above, the 
Federal Government policy and funding is critical in assisting local 
communities achieve resilience, which in turn strengthens our overall 
national preparedness.
Balance Prevention, Mitigation, Response, and Recovery Efforts
    While most resources and effort goes to promote prevention and 
response activities, there is much that can be done in the mitigation 
and recovery realms that can make a meaningful difference. In San 
Diego, significant mitigation efforts were conducted after the 2003 
wildfires. These included local changes to building codes (e.g., fire-
resistant roofs in high-risk areas), as well as the use of more than 
$55 million in Federal funds to remove dead, dying, and diseased trees 
near roads and buildings, and to conduct brush management. These types 
of mitigation efforts made a monumental impact in limiting the severity 
of the even more powerful firestorm to strike our region again just 4 
years later.
    Likewise, San Diego has implemented an ``advanced recovery'' 
initiative to take actions pre-disaster to accelerate recovery after a 
catastrophic event. This initiative is comprised of four key components 
of recovery:
  --helping individual citizens recover;
  --restoring community lifelines;
  --rebuilding the community fabric; and
  --readying a trained workforce to conduct recovery activities in our 
        county.
The goal is to make recovery from a disaster more efficient, rapid, and 
effective through advanced planning of recovery activities long before 
disaster strikes. Included in this effort are pre-qualification of 
debris-removal contracts, pre-planning of local assistance centers, and 
plans to understand and mitigate the interdependencies of electrical 
power, water, communication, hospital, and transportation systems.
    Actions taken by FEMA and through Federal grants that incent and 
support community efforts in the mitigation and ``advanced'' recovery 
realm would be helpful to balancing the Nation's preparedness efforts.
Foster Effective Communication Systems
    In a local response, the ability to communicate is fundamental to 
success. In San Diego, we focus on two separate communication systems--
internal agency communications and public communications.
    The radio system used by first responders in their day-to-day 
operations is the radio system that will be primarily used during a 
disaster. Fortunately, the many different cities and agencies in San 
Diego long ago took a regional approach to communications, and 
developed a ``regional'' 800MHz communication system. By having more 
than 200 different agencies, from city fire departments to university 
police departments, all sharing a common system, ensuring we have a 
capability to communicate effectively during disasters. However, 
unquestionably, communication systems are costly to operate and 
maintain, and expensive periodic upgrades are required. For example, 
during our 2003 wildfires, we identified that our communication systems 
towers located throughout our back country were vulnerable to the 
wildfires. San Diego County invested more than $20 million to upgrade 
our communication infrastructure, and build in needed redundancy. This 
investment paid off, as no significant communication issues occurred, 
even though 19 separate transmitter sites were damaged/destroyed by the 
fire. San Diego has spent a significant portion of our Homeland 
Security grants on our communication systems, and conversion to the new 
P25 standard will require continued investment in upcoming years.
    A second key component of our internal communications is our 
emergency management information system. Through this Internet-based 
system, we have connected more than 300 agencies, including all local 
responding agencies as well as our State and Federal partners. This 
information system provides real-time situational awareness between all 
agencies, and proved invaluable during the 2007 firestorm. Despite the 
tremendous capabilities we have in our primary communication systems, 
the very nature of disaster response requires the need for redundant 
back-up systems. We have several back-up contingency systems, ranging 
from the latest technology in satellite phones, to the 1950s technology 
of the ham radio operators.
    The second critical communication channel is our ability to 
communicate with the public during a disaster. For the wildfires, we 
made more than 415,000 calls directly to our citizens homes through our 
public mass notification system, AlertSanDiego. This allowed us to 
conduct the Nation's largest fire evacuation expeditiously and without 
major incident. This system is vitally important because it allows us 
to call the home phones of those in danger to give them critical 
information about evacuations, etc. We also allow residents to register 
cell phones. We currently have around 300,000 cell phones registered. 
Ultimately, I believe the best solution for public communication is the 
cell broadcast capability being developed under the Commercial Mobile 
Alert System (CMAS) program. While the current mass notification to 
home landline phones is currently a viable capability, the country is 
fast becoming a wireless nation. Already, our analysis shows that more 
than 17 percent of the homes in San Diego do not have a landline phone. 
Further, the CMAS capability will allow us to not only communicate to 
the homes, but also to contact citizens in their cars while they are 
evacuating, as well as to notify them on their cell phone when it is 
safe to return home. San Diego did a FEMA-sponsored test of this 
project last year and look forward to its roll out in the upcoming 
months. For this system to be valuable to local agencies, however, it 
is important that the system be designed to be managed at the ``cell 
tower'' level. Early discussions indicated that alerts would be 
controlled at the county level. While this may work in some States, 
where counties are relatively small, it would not be feasible in States 
like California. The true value in CMAS will be the ability to identify 
an area that is threatened or impacted by an emergency, and to contact 
the cell phones only in that immediate area.
    In summary, the communities in the San Diego area have invested 
tens of millions of dollars in our public safety communication systems. 
Through Federal Homeland Security grants, we have enhanced and hardened 
this day-to-day capability into a robust disaster response capability. 
Sustaining and upgrading the systems will require significant continued 
investment.
Assist in Creating a ``Culture of Preparedness''
    FEMA's ``whole community'' effort is vitally important and should 
be supported and enhanced. Ultimately, to truly create a culture where 
our citizens make preparedness for disasters a priority, the effort 
must begin with our school-aged children. The Local, State, Tribal and 
Federal Preparedness Task Force provided a recommendation that 
preparedness materials and education should be integrated into 
educational curricula. While this recommendation requires State and 
local school district support, any national recognition of the 
importance of preparedness is helpful.
Implement the National Preparedness System
    It is with great anticipation that we look forward to the 
implementation of the National Preparedness System that is being 
developed in accordance with Presidential Preparedness Directive-8. 
From a local perspective, the key to success in this effort will be the 
close coordination between all levels of government, as envisioned in 
the recommendations of the Local, State, Tribal, and Federal 
Preparedness Task Force in their report to the Congress last fall. 
While there are a number of ways to implement a National Preparedness 
System, I believe the starting point must be a Threat and Hazard 
Identification/Risk Assessment (THIRA). Like many large communities, as 
part of Hazard Mitigation Plan process, as well as our urban area 
security initiative (UASI) security strategy plan, San Diego has 
developed a very accurate THIRA in which measure our gaps and 
capabilities. The integration of these local and State THIRAs with the 
national and multi-State THIRA process currently underway by FEMA will 
provide an excellent benchmark and index on which to build the National 
Preparedness System. As discussed, our mutual efforts post 9/11 have 
resulted in San Diego having a tremendous capability to successfully 
conduct prevention and an initial response to a disaster or terrorist 
attack. We have also developed significant capability that is readily 
available to assist other communities who suffer a catastrophe. Through 
the National Preparedness System process, it is hopeful that both 
community preparedness gaps, as well as the capabilities each community 
has available to assist others in need, can be identified. From a local 
perspective, the end result of the National Preparedness System will 
be:
  --an accurate analysis of the threats and risks throughout the Nation 
        (at the local, State and national level);
  --an assessment of where Federal investment can best be used to 
        mitigate these threat and risks (i.e., link THIRA to grant 
        investment justification process); and of critical importance;
  --an in-depth analysis of the ``seams'' between local, State, and 
        Federal response capabilities for each region, and 
        identification on how capabilities and resources can be shared 
        and allocated to meet gaps.
Evolution of the Homeland Security Grant Programs
    As discussed above, Federal EMPG and Homeland Security grants have 
played a critical role in the evolution of preparedness at the local 
level. Local governments have been able to build upon their local 
funding investment in public safety and leverage Federal funds to 
significantly improve preparedness. As we approach the 10-year 
anniversary of 9/11, and we take stock of the evolution of preparedness 
that has occurred over the past decade, it is entirely fitting that the 
various grant programs should be reviewed. Changes in the grant 
programs should be made to reflect the changes in budgets, risks, 
threats, and preparedness improvements that have taken place. From a 
local perspective, we are hopeful that any changes to the grant 
programs consider:
      Sustainment.--While many grant programs were one-time equipment 
        purchases, most major improvements funded by the grants require 
        ongoing sustainment, or the gains made would be lost. For 
        example, the ongoing funding of intelligence analysts is 
        critical to maintaining the value of the fusion center 
        investment. Ongoing training and exercises are necessary, as 
        are quadrennial updates of key plans and operations.
      Flexibility.--At this point, most communities have conducted 
        fairly extensive risk analysis, and understand their most 
        critical gaps in relation to their greatest risks. If grant 
        funding is to decrease over time, a corresponding increase in 
        flexibility in how funds are spent would help mitigate some of 
        the impact.
                               conclusion
    The Federal investment in support of local homeland security and 
emergency management over the past several years has paid tremendous 
dividends in the overall preparedness of our Nation.
    I appreciate opportunities, like this one, to share and exchange 
ideas. Thank you for your interest in the San Diego region, for your 
support of local disaster preparedness activities, and for providing 
the county of San Diego the opportunity to participate in today's 
hearing. I am happy to answer any questions that you may have.

    Senator Landrieu. Thank you very much.
    Let me begin. All of you have testified that the Federal 
grant program has been effective and useful and essential for 
building the operations that you currently have. We, 
unfortunately, as Mr. Riley pointed out, were in a position to 
have to reduce that funding fairly substantially in the final 
negotiations over the last year's budget. This subcommittee, at 
least this chair, is committed to hold those cuts to a minimum 
moving forward. It is going to be extremely difficult.
    So I am going to ask each one of you what would you say to 
people that say that this particular program needs another 20- 
or 30-percent reduction. Would you say that you can absorb 
that? Can you manage with it? What is it actually going to mean 
on the ground to you should you lose an additional significant 
portion of the Federal money coming your way? We will start 
with you, Mr. Riley.
    Mr. Riley. What I attempted to say in my testimony was that 
funding is important to build a capability at the local level. 
If it not there, that capability goes away. And those people 
that are saying that we can cut this another percentage are not 
looking at the long term because if that capability is not 
there, when something does happen, it costs us even more than 
the grant funding is to maintain that emergency management 
capability. If the emergency managers are not there, if the 
first responders are not there, the cost is going to be greater 
and the response is going to be more robust.
    We have seen time after time where you have effective 
emergency managers on the ground, and what they need even from 
the State is much less. But if you have someone on the ground 
that does not know what they are doing, does not know the 
processes, then they default to the State or to the Federal 
Government to come in and provide resources.
    Senator Landrieu. Mr. Vice.
    Mr. Vice. Our agency is a separate State agency from the 
homeland security. So we actually get our grant funds passed 
through through them. As it relates to interoperable 
communications, that lack of funds then affects the ability for 
them to get pieces of equipment that allow interoperability. We 
have received some funds to do what is called the communication 
assets survey and mapping (CASM) tool, which is a community 
assets management, which allowed us to determine what each 
community needed to be interoperable. So as it affects the 
emergency responders, it directly affects the way that they 
would be able to interoperate with everyone across the State.
    Senator Landrieu. Mr. Hicks.
    Mr. Hicks. I can tell you that these grants are really 
engaged in building capacity at the local level, and that is 
really where the key part of this is. This is teamwork, as you 
mentioned in your testimony. It is a team and you have got to 
have resilient locals. You have to have strong States, and we 
really do need a strong FEMA. In our Alabama tornadoes, 43 out 
of 67 counties were declared disaster areas. But I can tell you 
that the amounts of funds that will be expended there are less 
than they would have been if we did not have strong local 
programs, and we have some good programs in Alabama. With our 
EMPG funding, we have instituted in our State performance 
measures where we just do not get the dollars. We have to back 
that up with production from our local counties.
    Senator Landrieu. Mr. Lane.
    Mr. Lane. A great portion of the Homeland Security funds 
that come to us are spent on sustaining what we have already 
built, that capacity. So, for example, our fusion center--in 
order for it to be functioning, we have to have the 
intelligence analysts that now man that. So as we look at 
modifying grant programs with the fiscal realities, I think it 
is essential that we carefully look at making sure we do not 
take steps backwards and that we look at first making sure that 
we can maintain and sustain all the capabilities that we have 
had moving forward, and then given the fiscal realities, we 
have got to be a lot more precise in the types of additional 
and new and enhanced capabilities that we continue to buy. And 
as long as we do that effectively, I think we can achieve what 
we need to do to maintain preparedness.
    Senator Landrieu. My last question. Then I will turn it 
over to Senator Coats.
    As you are all aware, there are 12 Homeland Security grant 
programs which focus on terrorism and then only two that 
focused on flood map modernization, pre-disaster mitigation 
that are specific to natural disasters. Then finally, we have 
EMPGs and the fire grants are available for expenses related to 
all hazards.
    The President has put forth a budget that combines some of 
these programs and reduces slightly some of the funding. The 
House has taken this budget and reduced it even significantly 
more for 2012.
    Are you all familiar with the way the President has 
proposed the combination of these programs? What are your 
thoughts, very quickly, how you would manage under that sort of 
new framework? And this is something that will work for you? Do 
you support it or not? Mr. Riley.
    Mr. Riley. I have not had an opportunity to look at it, but 
my kind of kneejerk reaction to it is--and it was something 
that was said down the table--having more flexibility, because 
I can tell you the State of Louisiana's needs and wants are 
going to be different than the State of Vermont. And so having 
the flexibility to take that money and address the things that 
are important to us in terms of what we respond to is going to 
be important.
    Senator Landrieu. Mr. Vice.
    Mr. Vice. I am sorry. I cannot speak to that. I would not 
want to speak for our homeland security agency.
    Senator Landrieu. Okay.
    Mr. Hicks.
    Mr. Hicks. I can tell you the greatest thing that we want 
as locals, we want local impact into those grants. We do not 
want it to be just passed to the State because it is under 
another umbrella. MMRS is one example. We want that local input 
because our local counties are the ones that are determining 
how that money should be spent and where it is best utilized. 
It does not need to be, first of all, coming from Washington 
and, second of all, does not need to be coming from Montgomery 
and those decisions made that way.
    Senator Landrieu. So you like the money being sent down in 
a broader range with locals being able to make more choices. Is 
that what you are testifying?
    Mr. Hicks. Choices and input into how the expenditures are 
being made.
    Senator Landrieu. Okay.
    Mr. Lane.
    Mr. Lane. At this point in the evolution of the grant 
cycle, every community has different gaps. We have been 
spending a tremendous amount of money and effort over the past 
several years trying to mitigate gaps. The more flexibility we 
have at the local level now because, as Mr. Riley indicated, 
every city, every community is in a different place right now 
and the less prescriptive the grant money is and the more 
flexibility that the money arrives in will allow us to maximize 
the use of the grant funds at the local level.
    Senator Coats. Thank you all for your testimony. It was 
helpful and important for us.
    Mr. Vice, you say in your statement that the NLE 2011 
exercise was invaluable. I know you are still assessing that, 
and I am not going to ask you to get into that, although we 
would appreciate, when you do have your assessment in and draw 
your conclusions and recommendations, passing them on to us. It 
would be very helpful. So I would ask you to do that.
    But just from what you have learned to date, what made the 
exercise invaluable? Why was it necessary? What was invaluable 
about the results, and what changes do you think it will bring 
about based on the information that you have received from that 
exercise?
    Mr. Vice. The first thing, I think that it brings to 
everyone's attention when they are made aware that they do not 
have communication initially that they have to have other plans 
in place. We all become too reliable, thinking that our cell 
phone is going to work if our radio does not work and so on. So 
sometimes we do have to resort back to the runners. So I think 
from our State perspective, that is one of the issues, is 
getting all the agencies and the responders to recognize that 
there will be a period of time where they probably have no 
communication. So they have to have an alternate means.
    For our agency, we had people involved at all levels. We 
had people involved at Muscatatuck. We had our radio techs 
involved all over the State. So we were able to review a number 
of functions that our agency is responsible for.
    So those two things are probably the most valuable that we 
got out of it.
    Senator Coats. Madam Chair, that is all I have. Thank you 
very much for the hearing.
    Senator Landrieu. Thank you, Senator Coats, very much. And 
I really appreciate that all the members participated. I think 
we have had a very good and thorough hearing.
    I thank our witnesses for their testimony. I thank the 
thousands of individuals at all levels of government and our 
private sector partners who are committed to this mission.
    We are going to try to write a bill in our subcommittee 
that reflects the needs of the country and the challenges that 
are out there.

                     ADDITIONAL COMMITTEE QUESTIONS

    So any questions for the record should be submitted to 
subcommittee staff by close of business Wednesday, June 15.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted to Hon. Craig Fugate
            Questions Submitted by Senator Mary L. Landrieu
    Question. On March 30, 2011, President Obama signed Presidential 
Policy Directive-8 (PPD-8) on National Preparedness. It calls for a 
comprehensive approach to assess national preparedness that uses a 
consistent methodology to measure readiness for all levels of 
government to prevent, protect against, mitigate against, respond to, 
and recover from disasters. What specific resources, in funding and 
people, will you dedicate to this effort in fiscal year 2011 and fiscal 
year 2012?
    Answer. PPD-8 represents a significant evolution of our national 
preparedness efforts. The Federal Emergency Management Agency (FEMA) 
has established a Program Executive Office within its Protection and 
National Preparedness/National Preparedness Directorate to assist with 
PPD-8 implementation across the Federal Government and through 
engagement with the whole community. In support of this office, we are 
focusing a number of existing activities to be in greater alignment 
with the PPD-8 effort, including the pending revision of the National 
Response Framework, our exercise and training programs, assessments and 
the development of State and local guidance. For the duration of the 
PPD-8 implementation, we have assigned 18 full-time employees to 
directly support the implementation. Additionally, 20 percent 
(approximately $20 million) of our discretionary funding activities are 
aligned in support of specific PPD-8 requirements and for 
implementation of the directive. A number of other efforts throughout 
FEMA, including our planning activities in the Office of Response and 
Recovery, and in Mitigation, are also aligned with this effort.
    Question. Budget pressures have forced a reduction in the amount of 
funding available for grant programs. Grants were reduced overall by 19 
percent from fiscal year 2010 to fiscal year 2011. The House proposal 
takes another 40 percent in fiscal year 2012.
    We seem to be sitting at a crossroads of building more readiness 
capacity and sustaining the capacity we have built to date. While we 
are missing a collective way to describe the Nation's capability gap, 
evidence demonstrates there is still need. According to the National 
Associations of Counties, and Other Associations, grantees devote as 
much as 50 percent of State grants to interoperable communications; 
grants also fund fusion center operations, specialized emergency 
response teams, and critical infrastructure protection.
    Administrator Fugate, what are the top three gaps that you, as an 
emergency manager, still see in State and local capabilities related to 
all-hazards before, during, and after a disaster?
    What top three capabilities have been developed through Federal 
investments?
    What specific reforms can be made to the grant programs to ensure 
they are best meeting the needs of the Nation's needed capability to 
prevent, prepare for, respond to, mitigate against, and recovery from 
disasters?
    Answer. The three capabilities for which States have identified the 
highest funding requirements from fiscal year 2006 to fiscal year 2009 
are:
  --communications;
  --intelligence and information sharing and dissemination; and
  --planning.
The States based these funding requirements on their homeland security 
strategies, which include their capability development requirements and 
grant guidance provided by FEMA.
    FEMA agrees that we are at a crossroads of building more readiness 
capacity and sustaining the capacity we have built to date. FEMA 
believes that the grant dollars should go toward developing and 
sustaining national capabilities that could be called up by any 
jurisdiction at any time through national mutual aid. FEMA has been 
working to streamline the process and set priorities that will 
encourage grantees to build national capacity according to gaps in 
coverage of capabilities. To achieve this, the fiscal year 2011 FEMA 
grant guidance sets three new priorities for the grantee:
  --whole community strategy;
  --building prevention and protection capabilities; and
  --the maturation and enhancement of State and major urban area fusion 
        centers.
Applicants will be developing their investment justifications based, in 
part, on capability requirements identified through the Threat and 
Hazard Identification and Risk Assessment (THIRA) process. THIRA is 
based on analysis of each State's relative consequences of the various 
threats and hazards, and allows the applicant to compare and prioritize 
risks. THIRAs will be used to update their State homeland security 
strategies, which identify the capability gaps that States most need to 
fill in order to meet the State's individual risk priorities and FEMA's 
priorities. Gaps identified in THIRA will assist FEMA in assessing 
national gaps in capabilities and help us further refine grant guidance 
to maximize benefit.
    The top three capabilities developed through Federal investments, 
as collected through progress reports from fiscal year 2006 to fiscal 
year 2009, include:
  --communications;
  --planning; and
  --critical infrastructure protection.
    FEMA is already making a number of key reforms to the design and 
implementation of our grant programs to build and sustain national 
capability. First, and most important, FEMA is working to implement the 
requirements of PPD-8 which includes the development of a new national 
preparedness goal, national preparedness system, and other key 
strategic policy doctrine that will help us better focus where 
investments go.
    Second, we are working closely with State, local, tribal, and 
private sector partners and stakeholders to develop a culture of 
partnership in everything we do. Most recently, our grant program 
developers, managers, and analysts met with our partners at the 
National Urban Areas Security Initiative and After Action conferences 
in San Francisco over the course of 4 days from June 20-23 to review, 
assess, and improve all aspects of how we work together. Through town 
hall meetings, technical sessions, a training expo, and an all-day 
after action feedback session, our team gained a deep first-hand 
understanding of what we are doing well, what should be maintained, and 
what we need to improve. There is no substitute for working 
partnership, as through teamwork we can leverage our grant resources so 
much more effectively.
    A third key reform lies in our ongoing commitment to improving and 
integrating a risk-based approach into the design and implementation of 
our grant programs. We are continuing to refine our risk models and 
allocation methodologies to ensure that grant funds are deployed across 
our grant portfolio in a way that reflects the best possible 
information about threats, risks, and vulnerabilities that we face.
    Fourth, FEMA is implementing the Redundancy Elimination and 
Enhanced Performance for Preparedness Grants (REEPP) Act, in direct 
coordination with the National Academy of Public Administration, to 
identify and eliminate redundant reporting requirements and to develop 
meaningful performance metrics for homeland security preparedness 
grants. This effort will help FEMA further measure the effectiveness of 
grants. FEMA is also in the process of implementing recommendations 
from the Local, State, Tribal, and Federal Preparedness Task Force 
Report to improve coordination and consolidation of FEMA's grant 
programs, including coordination of interagency grant programs and more 
closely linking capability assessment and grant activities. As a 
requirement of this act, FEMA has also submitted an initial report to 
the Congress on further steps we are taking to reduce burdens on our 
stakeholders by refining grant processes.
    Finally, in response to Government Accountability Office (GAO) and 
Office of the Inspector General (OIG) recommendations and our own 
internal process improvement efforts, we are actively exploring 
opportunities to consolidate grant programs when it makes sense for 
FEMA and our grantees in a way that does not diminish the efficacy of 
the overall homeland security enterprise. A March 2011 GAO report, 
Opportunities to Reduce Potential Duplication in Government Programs, 
Save Tax Dollars, and Enhance Revenues (GAO-11-318SP), noted that the 
number of FEMA preparedness grant programs has grown from 8 in 2002 to 
17 in 2010 as the result of congressional and executive branch actions. 
A number of these programs fund common eligible recipients (such as 
State homeland security agencies) for similar purposes. The Department 
of Homeland Security OIG reported in March 2010 that FEMA's application 
process for its preparedness grant programs did not promote 
effectiveness and efficiency, because FEMA did not compare and 
coordinate grant applications across preparedness programs to identify 
and mitigate potential duplications (for example, planning, and 
interoperable communications are two activities that can be funded by 
almost all of the programs reviewed by OIG); the report recommended 
FEMA do so. We are incorporating specific requirements into our grant 
program guidance to minimize potential sources of duplication, and over 
the longer term we look forward to working with the Congress to 
streamline and consolidate program-specific legislation to ensure 
alignment and efficiency.
    Question. In Mr. Fugate's testimony, the use of social media to 
make sure the public and emergency management agencies can share 
information quickly is highlighted. Across the Nation, local, and State 
emergency management agencies are at greatly varying abilities to be 
able to use two-way communications during a disaster. An ability to 
harness the power of social media will need both technology 
improvements but also personnel and training to manage this emerging 
tool.
    Can you describe in more detail exactly how social media has been 
employed in communities that have used it successfully during a 
disaster? In State and local communities who have harnessed this 
important communication method, what obstacles did they have to 
overcome? For example, if a disaster survivor reaches out to FEMA or 
the State with a request for assistance or useful information about 
what is happening on the ground, how is that information coordinated 
with the local manager who is the lead during the disaster?
    Does FEMA have technical assistance programs available to 
communities who are venturing into social media, and if so, how much 
funding is dedicated to these programs in fiscal year 2012?
    Social media is the way of the future for some, but not everyone 
uses it. What is the emergency management community doing to ensure 
people without technology do not get left behind?
    Answer. In the tornadoes that struck Tuscaloosa, Alabama on April 
27, social media allowed survivors to connect with one another and 
return a sense of normalcy to their lives. For example, thousands of 
Facebook users self-organized almost immediately after the storm to 
help survivors find precious pieces of debris that were blown miles 
from where the tornado struck. This debris consisted of family 
photographs, clothing, and personal possessions that offered survivors 
a piece of normalcy and emotional support. Over time, the page became 
more than survivors finding their possessions--it became a place for 
them to share stories and help others find resources if they were in 
need. In this way, social media connected survivors with other members 
of the public who were in a position to help--either by locating an 
item's proper owner or answering others' questions about where to go 
for assistance.
    While this example is one of many, it shows the power of social 
media to connect survivors with resources from the emergency management 
team, including the public.
    To have an effective social media presence, emergency managers must 
be able to devote the time necessary to post content and respond to 
questions and comments as necessary. Making time to learn, use, and 
adopt social media is often the most formidable obstacle for emergency 
managers to overcome. In addition to time constraints, the State and 
local agencies we talk to often cite the importance of leadership 
support in adopting social media. When management within the 
organization is supportive of learning and using social media as a tool 
for communicating with the public, favorable policies (such as 
information technology, cybersecurity, legal, and privacy) often 
follow, helping emergency managers adopt these tools more effectively.
    As for the example listed in the question, FEMA or the State should 
direct the survivor to contact his or her local emergency management 
office for the latest information on the ground. If the local office 
has an up-to-date Web site with information on the disaster, then FEMA 
or the State should direct the survivor to this resource, as well as to 
any social media sites that are providing timely, relevant information. 
However, the presence of a useful Web site and/or social media channels 
at the local level depends on how much time and effort that local 
emergency managers have invested to keep these channels up-to-date. 
FEMA currently is exploring ways to help our State and local partners 
get involved with social media.
    Social media is only one way in which we communicate and engage 
with the public, and we are committed to using multiple channels to get 
our messages out and to engage with stakeholders before, during, and 
after a disaster. After a Presidentially declared disaster, we continue 
to use traditional forms of communication such as radio, TV, and print 
media to let the people know about available assistance. Also, our 
community relations teams go door-to-door in the community to meet with 
survivors and provide information on FEMA assistance.
    In addition to using the Agency's ability to communicate, we also 
leverage the capabilities of the private sector and faith-based, 
volunteer and community groups to reach their audiences as well. 
Reaching as many people as possible after a disaster requires a team 
effort, with multiple channels and methods of communication.
    Question. The latest estimate for the fiscal year 2012 the 
shortfall for the Disaster Relief Fund is somewhere between $2 billion 
and $4.8 billion. In April, the Congress made deep cuts in first-
responder grants in order to pay for the fiscal year 2011 shortfall. 
This unfortunate decision was necessary because the President failed to 
propose an emergency supplemental.
    The House passed their fiscal year 2012 Homeland Security bill. 
They make even deeper cuts in the first-responder grants in order to 
pay for the fiscal year 2012 shortfall. For months I have been urging 
the President to send up an emergency request for the shortfall. When 
will we get the request?
    Answer. On September 9, 2011, the Office of Management and Budget 
submitted an emergency funding request for $500 million to sustain the 
Disaster Relief Fund through the end of fiscal year 2011.
                                 ______
                                 
           Questions Submitted by Senator Frank R. Lautenberg
    Question. In New Jersey, the stretch of land between the Port of 
New York and New Jersey and Newark Liberty Airport was designated the 
most at-risk area for a terrorist attack in the United States by the 
Federal Bureau of Investigation (FBI) in 2005. The stretch of land 
includes a variety of potential targets, including ports, chemical 
plants, airports, and commuter freeways. This is an especially 
important area because it is so close to the population center of the 
greater New York area, which would magnify the effect of an attack. It 
is estimated that 12 million people could be impacted by an attack.
    According to the FBI, New Jersey is home to the most at-risk area 
for a terrorist attack in theUnited States. This area has targets 
ranging from the port to airports to chlorine gas plants. An attack in 
this area could impact 12 million people who live nearby.
    How are the Federal Emergency Management Agency (FEMA) and the 
Department of Homeland Security (DHS) working with State and local 
entities in New Jersey to prevent and prepare for a possible attack in 
this area?
    Answer. Since the inception of the Homeland Security Grant Program, 
DHS's FEMA has provided to New Jersey more than $2 billion to support 
anti-terrorism and all-hazards preparedness, including funding for 
equipment, fusion centers, training, exercises, etc. FEMA also has 
provided catastrophic planning assistance to New Jersey through the 
Regional Catastrophic Preparedness Grant Program (RCPGP). This has 
resulted in integrated planning efforts across northern New Jersey, as 
well as in New York City and parts of Connecticut and Pennsylvania. 
Examples of projects are a Regional Radiological Dispersal Device Plan, 
a Regional Housing Recovery Center Plan, and a Regional Mass Fatality 
Plan.
    In one specific example of improved planning, the New York/New 
Jersey/Connecticut/Pennsylvania site has developed critical parts of 
its Regional Disaster Housing Plan (different from their Housing 
Recovery Center Plan, above) through partnerships with two national 
leaders in building design and land use: the American Institute of 
Architects and Urban Land Institute. Two-day working sessions co-
organized with these groups put emergency management specialists side-
by-side with experts in housing and planning to develop solutions to 
the region's post-disaster housing challenges. The resulting plan is 
being used as a primary example by other RCPGP sites nationally. In 
addition to progress in developing plans, New Jersey and New York City 
have made great strides in improving their regional collaboration as a 
result of RCPGP. New Jersey officials have credited these efforts with 
improving operations for both the recent helicopter and small plane 
mid-air crash over the Hudson River, as well as the safe rescue of 
passengers from the water landing of U.S. Airways flight 1519.
    Question. FEMA manages the majority of Federal grants for disaster 
preparedness and response. The House recently passed its version of the 
fiscal year 2012 Homeland Security appropriations bill, which provides 
$1 billion for DHS to allocate, at its discretion, funding to nine 
State and local Homeland Security grant programs. This amount is 65 
percent less than the President's fiscal year 2012 budget request for 
these grant programs.
    According to reports, evidence found at Osama bin Laden's compound 
showed al-Qaeda was planning to attack our rail system and our ports. 
The House-passed fiscal year 2012 Homeland Security appropriations bill 
includes $1 billion for FEMA and DHS to allocate, at its discretion, 
funding to nine Homeland Security grant programs. This amount is 65 
percent less than the President's fiscal year 2012 budget request for 
these grant programs.
    What impact do these cuts have on FEMA's ability to help our Nation 
prevent, prepare for, and respond to an emergency such as a terrorist 
attack?
    Answer. While much has been accomplished with the grant programs 
over the past several years, much remains to be done. Cuts in Homeland 
Security grant funding directly affect State and local governments' 
ability to build and sustain capabilities that they have identified as 
necessary based on their homeland security strategies and national 
priorities. Homeland security strategies developed by the State and 
local governments articulate gaps in capabilities and investment 
justifications submitted by the grantees articulate how they will fill 
identified gaps. These strategies and investment justifications show us 
that more remains to be done. A refined Threat and Hazard 
Identification and Risk Assessment (THIRA) process that has already 
started and is rolling out as a part of the fiscal year 2011 grant 
programs will further improve our ability to identify and fill gaps in 
capabilities.
    Since fiscal year 2003, more than $33 billion has been awarded in 
preparedness grants and all levels of government have worked to develop 
robust preparedness policy, guidance, and priorities. These investments 
have helped increase the capabilities of local, State, tribal, and 
territorial authorities where, in many cases, only limited capability 
previously existed. Grant funds have supported development and 
sustainment of emergency operations centers, fusion centers, 
interoperable communications systems, information and intelligence 
sharing mechanisms, specialized response assets, a multitude of 
planning activities, and unprecedented regional collaboration. These 
gains were most recently evident in the response to the tornadoes in 
the Southeast and in Joplin, Missouri. Responses were handled entirely 
at the State and local levels. The 2011 national level exercise 
provided the State of Missouri the opportunity to test its 
interoperable communications system 2 weeks before the State used these 
tools in its effective response to the May 2011, Joplin tornado. Since 
9/11, State and local jurisdictions have scheduled more than 10,000 
exercises. All 50 States now collaborate to maximize resources and cost 
effectiveness. States use the Nation's mutual aid networks daily, and 
the Emergency Management Assistance Compact ensures the sharing of 
resources between States, averaging 30 exercises per year and 19 real-
world events in 2009 alone.
    Despite progress made, any significant reduction in funding 
realistically can be expected to impact the ability to sustain the 
capability achievements demonstrated above. Grant funds are a critical 
component of our Nation's ability to prevent, protect, and respond to 
natural and manmade disasters.
    Question. FEMA manages the majority of Federal grants for disaster 
preparedness and response. The House recently passed its version of the 
fiscal year 2012 Homeland Security appropriations bill, which provides 
$1 billion for DHS to allocate, at its discretion, funding to nine 
State and local Homeland Security grant programs. This amount is 65 
percent less than the President's fiscal year 2012 budget request for 
these grant programs.
    If FEMA and DHS were to receive funding levels below what the 
President's fiscal year 2012 budget requests for FEMA State and local 
programs, how would it ensure that the country's highest-risk areas 
receive adequate funding?
    Answer. If funding is reduced below the fiscal year 2012 
President's budget amount, funding to build and maintain critical 
capabilities will be impacted. However, our commitment is to ensure 
that our grant funding at any level is deployed in a manner that 
reflects, to the maximum extent possible, the best information about 
the threats, risks, and vulnerabilities that we face as a Nation. We 
are continuing to integrate a risk-based approach into the design and 
implementation of our grant programs, as described below.
    Risk is evaluated at the Federal level using an analytical model 
developed by DHS in conjunction with other Federal entities. It 
includes these related components:
      Threat.--The likelihood of an attack occurring;
      Vulnerability.--The relative exposure to an attack; and
      Consequence.--The expected impact of an attack.
    The risk model used to allocate funds considers the potential risk 
of terrorism to people, critical infrastructure, and economic security 
to estimate the relative risk of terrorism faced by a given area. In 
evaluating risk, DHS considers the populations in a particular area 
that could be at risk, the concentration of people in the area, and 
specific characteristics of their location that might contribute to 
risk, such as intelligence community assessments of threat, proximity 
to national critical infrastructure, and the economic impact of an 
attack. In considering threat, DHS uses the intelligence community's 
best assessment of areas of the country and potential targets most 
likely to be attacked. For vulnerability and consequence, DHS considers 
the expected impact and consequences of successful attacks occurring in 
specific areas to people, the economy, national critical 
infrastructure, and national security facilities.
    Question. When evaluating a request for a Federal disaster 
declaration, FEMA analyzes a variety of factors to determine if a 
disaster is of such severity and magnitude that effective response is 
beyond the capabilities of the State and the affected local 
governments. A key factor in the decision process is the statewide per 
capita indicator. This statistic measures the estimated public 
assistance damages relative to a State's population and is derived by 
dividing the value of public assistance damages by the State's 
population.
    However, the statewide per-capita methodology implies that States 
with higher populations have more capacity to respond to disasters. 
This approach does not account for anything other than a high 
population and it does not recognize the services that a State 
typically expends tax dollars on to meet the needs of its population. 
Therefore, a State with a high population may have a stronger tax base 
but the State government must spend more of that tax base on services.
    When evaluating a request for a Federal disaster declaration, does 
FEMA account for the increased services that a government responsible 
for a high population typically provides?
    Answer. In evaluating a request for a major disaster declaration, 
FEMA assesses whether the disaster is of such severity and magnitude 
that effective response is beyond the capabilities of the State and 
affected local governments and Federal assistance is necessary. When a 
Governor requests a major disaster declaration including authorization 
of public assistance, FEMA evaluates the request based on a number of 
factors as stipulated in 44 CFR part 206, including the estimated cost 
of the assistance, localized impacts, insurance coverage, hazard 
mitigation, recent multiple disasters, and other Federal assistance.
    When requesting a major disaster declaration, Governors are 
statutorily required to furnish information describing the State and 
local efforts and resources which have been or will be used to 
alleviate the results of the disaster. Therefore, FEMA also takes into 
consideration any resources that are expended by a State or local 
government to respond to or recover from a disaster as well as any 
available resources of the State and local governments, and other 
disaster relief organizations.
    Question. Currently, the only law on chemical facility security is 
the Chemical Facility Anti-Terrorism Standards (CFATS), which became 
law through the fiscal year 2007 appropriations process and provides 
temporary authority to DHS to establish regulations for protecting 
chemical facilities from attack.
    CFATS requires covered chemical facilities to prepare security 
vulnerability assessments, which identify facility security 
vulnerabilities as well as develop and implement site security plans to 
address them. However, it specifically exempts drinking water and 
wastewater treatment facilities from security requirements and does not 
require any facilities to implement inherently safer technology. Both 
the Environmental Protection Agency (EPA) and DHS have testified in the 
past that the exemption of water facilities represents a ``critical gap 
in the U.S. chemical regulatory framework''.
    The existing CFATS--our Nation's only law on chemical facility 
security--exempt wastewater and drinking water facilities, even when 
those facilities handle hazardous chemicals.
    Should these security measures be required at all facilities that 
handle dangerous chemicals?
    Answer. DHS and EPA have stated that there is a critical gap in the 
U.S. chemical facility security regulatory framework--namely, the 
exemption of drinking water and wastewater treatment facilities from 
CFATS. DHS supports amending the current exemption for drinking water 
and wastewater facilities to specify that EPA would have the lead on 
regulating such facilities for security, with DHS supporting EPA to 
ensure consistency across all sectors while respecting the unique 
public health and environmental requirements and responsibilities of 
water and wastewater facilities. DHS and EPA are happy to work with the 
Congress to address this issue.
                                 ______
                                 
              Questions Submitted by Senator Daniel Coats
                  use of social media during disasters
    Question. What has been the investment to date by the Federal 
Emergency Management Agency (FEMA) in social media communications?
    Answer. FEMA has full-time staff dedicated to digital 
communications, at both headquarter and regional offices. We have also 
provided training for FEMA employees on the use of social media in 
emergency management and the details of FEMA's policy on employee usage 
of social media.
    Question. How does FEMA plan to forward any information it receives 
through social media to local first responders?
    Answer. Establishing strong relationships before a disaster is 
crucial to success after a disaster strikes. Because of this, we 
continue to strengthen relationships with State and local emergency 
managers, working through our regional offices across the United 
States. As relevant information is received through social media, we 
work through our regional offices to make sure our partners at the 
State and local levels receive the information.
    Question. What resources does FEMA devote today to monitoring and 
responding to incoming communications over Facebook or Twitter?
    Answer. We monitor comments and questions on Facebook and Twitter 
multiple times each day. We also respond to comments and questions as 
appropriate. If we cannot answer someone's question, we will point that 
individual to the best place to find the information.
    On the FEMA blog, Facebook page, and Twitter page, we clearly state 
that for emergencies, the public should call their local fire, 
Emergency Medical System (EMS), police, or 9-1-1. It's important to 
continue to reiterate the message that FEMA is not a first-responder 
agency.
    Question. Has FEMA made enough investments to be able to respond 
when a citizen posts information on the FEMA Facebook or Twitter 
account--to connect that individual with the right local first 
responder to ensure that assistance will be provided?
    Answer. Through monitoring our channels multiple times each day and 
working with other members of the emergency management team, we make 
every effort to connect individuals with the right resource at the 
State and local levels. However, the success of these efforts also 
hinges on other members of the team taking steps to provide the 
requested information or assistance.
    As noted above, on the FEMA blog, Facebook page, and Twitter page, 
we clearly state that for emergencies, the public should call their 
local fire, EMS, police, or 9-1-1. It's important to continue to 
reiterate the message that FEMA is not a first-responder agency.
    Question. During 9/11, getting a cell phone call through was nearly 
impossible. How does use of social media alleviate that issue?
    Answer. For disaster survivors looking to communicate with loved 
ones after a disaster, social media provides another way to let family 
and friends know their status. This may alleviate some traffic on 
cellular telephone networks since survivors are able to contact loved 
ones ways besides making a phone call. This is one of the reasons we 
encourage every American to have a family communication plan before a 
disaster strikes. Having a plan allows all family members to know how 
to get in touch with one another after a disaster strikes, whether 
through a phone call, text message, Facebook post, or Twitter message.
    For those trying to get a call through to 9-1-1 dispatchers just 
after a disaster, social media may not alleviate this issue, but add 
more complexity to it. Social media provides an additional avenue for 
the public to reach out to local responders for assistance. This means 
that first responders may become overwhelmed with Facebook or Twitter 
messages asking for assistance after a disaster, similar to 9-1-1 
dispatchers and systems being overwhelmed just after September 11. 
Local response organizations must be strategic about how they will 
intake social media messages following a disaster, and what their 
capacity is to handle a large volume of requests and traffic.
                                 ______
                                 
                   Questions Submitted to Rand Beers
            Questions Submitted by Senator Mary L. Landrieu
    Question. The National Emergency Communications Plan (NECP) lays 
out three specific goals to be accomplished by 2013. The first being 
demonstration that 90 percent of all high-risk urban areas can 
establish emergency communications with adjoining jurisdictions within 
1 hour by 2010. In your testimony, you stated that all 60 urban areas 
that were required to demonstrate this did achieve that goal. The 
Secretary also cited this accomplishment in her recent testimony, and 
she also indicated that in doing the assessments, areas for continued 
improvement were identified.
    What areas for continued improvement are there and how will the 
National Protection and Programs Directorate (NPPD) aid in facilitating 
those improvements? What sort of resources and/or incentives will 
communities need to continue to make improvements?
    The second goal in the plan requires 75 percent of nonurban areas 
to be able to establish emergency communications with adjoining 
jurisdictions within 1 hour by 2011. What unique challenges do nonurban 
areas face? Do you anticipate these areas will be able to achieve the 
goal?
    The third goal requires jurisdictions to demonstrate emergency 
communications during a significant incident--like a catastrophic 
event--by 2013. Is NPPD on track to ensure this final and very 
important goal is met? Is there any way to expedite this timeframe?
    Answer. As addressed in the testimony, all 60 Urban Areas Security 
Initiative (UASI) regions (as of July 2008) demonstrated response-level 
emergency communications in accordance with NECP goal 1. The 
demonstrations illustrate how the significant organizational and 
technical investments made by the UASI regions have improved their 
emergency communications capabilities in recent years. Primary radio 
systems effectively supported NECP goal 1 event responses, and 
additional voice and data systems provided redundancy and increased 
situational awareness.
    The completion of goal 1 represents an important step toward 
achieving national interoperability; however, significant work remains. 
The results of goal 1 showed that despite an existing culture of 
cooperation among law enforcement, fire, and emergency medical services 
and other disciplines, coordination across these disciplines is not 
fully integrated into incident planning or consistently carried out. 
The goal 1 assessments also showed that incident planning and execution 
approaches that were segmented by discipline raised concerns about the 
ability of UASI regions to achieve similar success during a large-scale 
emergency incident where the incident site is not known and responders 
face more complex requirements for coordination.
    The Office of Emergency Communications (OEC) within NPPD is 
addressing these findings and other cross-disciplinary communications 
issues through various improvement activities, including training, 
technical assistance, stakeholder coordination, and planning efforts. 
These activities include specialized, follow-up technical assistance 
services to those UASIs that achieved goal 1, but experienced some 
complications in achieving response-level communications.
    Federal grant and loan programs have played a vital role in helping 
State and local jurisdictions build emergency communication 
capabilities nationwide. Numerous Federal departments and agencies 
administer grant and loan programs that support continued operations 
and modernization of communications equipment and systems, as well as 
emergency communications planning and governance activities. This 
funding has been used to augment capital expenditures (e.g., planning 
for, building, and deploying new infrastructure), as well as to offset 
operational costs (e.g., training, procedure development, equipment 
purchases, operations, and maintenance) based on the specific needs of 
the funding recipients.
    To drive the further improvement of interoperable communications 
capabilities at the State and local levels, DHS and other Federal grant 
programs that support emergency communications should continue to 
emphasize the following actions:
  --Establishing State governance bodies that conduct strategic 
        planning and that prioritize investments;
  --Supporting statewide interoperability coordinators, who ensure that 
        federally funded projects align with strategic plans; and
  --Funding the implementation of NECP goals, which enable DHS to 
        measure progress in emergency communications capabilities 
        nationwide.
    Further, Federal grant programs have helped States and territories 
develop and implement their statewide communications interoperability 
plans (SCIPs). All 56 States and territories have developed a SCIP, and 
NPPD/OEC has been working with the States to update their plans on an 
annual basis. Each SCIP defines a vision and mission for statewide 
emergency response communications interoperability across a State or 
territory; reflects the current status of State, regional, and local 
agency systems and challenges; and identifies key initiatives moving 
the State or territory toward integrated statewide interoperability.
    In addition, NPPD/OEC will further target the offerings of its 
technical assistance program to ensure that all States, localities, 
tribes, and territories can request and receive assistance for 
emergency communications while also focusing this technical assistance 
on those jurisdictions most in need. In 2010, for example, NPPD/OEC 
received 260 technical assistance requests from States, localities, 
tribes, and territories.
    Due to their remote locations, low-population density, and limited 
resources, many rural communities continue to experience basic 
operability and interoperability challenges. The emergency 
communications systems in some rural jurisdictions are often outdated 
and hampered by inadequate infrastructure, limited geographic coverage, 
and limited capacity because multiple agencies within the locality 
sometimes share the available channels.
    With goal 2 of the NECP, the Department is for the first-time 
assessing the ability of jurisdictions outside of the UASI regions to 
implement key operational factors for successful emergency 
communications. These factors, which are the same for both urban and 
nonurban areas, draw from the SAFECOM Interoperability Continuum and 
include:
  --the establishment and maintenance of common policies and procedures 
        for communications;
  --the clear definition and execution of responder roles and 
        responsibilities throughout the response; and
  --the availability of high-quality and continuous communications to 
        foster situational awareness and coordination among responding 
        agencies.
NPPD/OEC is optimistic that the work that has been done in 
jurisdictions across the Nation--including the training of more than 
3,500 communications unit leaders--has provided public safety agencies 
outside of the UASI regions with the skills and capabilities needed to 
successfully demonstrate goal 2 of the NECP.
    NPPD/OEC has worked with its DHS partners--including the Federal 
Emergency Management Agency--and with other Federal, State, local, and 
tribal agencies and governments to improve jurisdictions' emergency 
communications capabilities for use during a significant event through 
the development of tools, technical assistance, training programs, 
grant policies, and other initiatives.
    To measure goal 3, NPPD/OEC will assess the jurisdictions' ability 
to establish interoperable emergency communications during large-scale 
emergency situations where the incident site is not known and where 
responders face larger requirements for coordination. These 
requirements include their ability to recover from primary 
communications loss and to request, activate, and plan for regional, 
State, and Federal responders. While NPPD/OEC will work to expedite the 
timeframe for assessing goal 3, it is currently on track for completion 
at the end of 2013.
    Question. The NPPD mission statement says it is responsible for 
assuring the security, resiliency, and reliability of the Nation's 
communications and cyber infrastructure. While there is an increase in 
the President's budget proposal for cybersecurity, the budget request 
for communications and infrastructure protection programs are level 
funded at $150 million and $322 million, respectively. With evolving 
technology and an ever present threat, it seems demand for technical 
assistance on telecommunications, vulnerability assessments for 
critical infrastructure, and information analysis about the impacts of 
disasters on things like power sources and food and agriculture would 
be going up.
    Is NPPD receiving requests from State and local governments or 
industry partners for assistance or information that are going unfilled 
in either communications or infrastructure protection? For example, how 
many requests were made for technical assistance from OEC in fiscal 
year 2010, and how many were fulfilled? How many requests were made for 
vulnerability assessments in fiscal year 2010, and how many were 
fulfilled?
    With an essentially flat budget, how can NPPD programs keep pace 
with needs in a dynamic environment? For example, what process is used 
to determine the level of NPPD resources dedicated to support current 
needs--such as interoperability of radios, and physical security of 
infrastructure--and to ensure resources are also dedicated to emerging 
topics--such as use of broadband, and building resiliency into new 
infrastructure?
    Answer. NPPD/OEC is charged with providing technical assistance on 
interoperable emergency communications issues to Federal, State, local, 
tribal, and territorial agencies through the development and delivery 
of training, tools, and onsite assistance. NPPD/OEC provides technical 
assistance services on a range of critical emergency communications 
issues, including development of effective multijurisdictional and 
multidisciplinary governance structures; training and exercises; 
systems engineering; radio frequency/channel planning and use; 
interoperability needs assessments; and the integration of voice and 
data technologies. Each of these service offerings, detailed in the 
Technical Assistance Catalog, is designed to prepare States and 
localities to communicate during all types of incidents--from routine 
to disaster.
    On an annual basis, each State and territory is able to request 
multiple technical assistance offerings from the catalog, one of which 
must be for an urban area. NPPD/OEC prioritizes and fulfills these 
requests based on available resources and an assessment of capabilities 
and gaps. Each State and territory is provided at least one technical 
assistance offering per year upon request. In fiscal year 2010, NPPD/
OEC received 260 individual technical assistance requests from the 56 
States and territories. NPPD/OEC prioritized and fulfilled 136 of these 
requests with the resources available.
    Similarly, the Protective Security Coordination Division within 
NPPD's Office of Infrastructure Protection (IP) conducts voluntary 
assessments of critical infrastructure through several activities, 
including Enhanced Critical Infrastructure Protection (ECIP) security 
surveys, Site Assistance Visit (SAV) assessments, buffer zone plan 
technical assistance and workshops, and computer-based assessment 
tools. In fiscal year 2010, NPPD/IP received and granted 682 requests 
for ECIP security surveys.
    NPPD/IP does not track the number of requests for buffer zone 
technical assistance or workshops; however, in fiscal year 2010, it 
conducted:
  --50 buffer zone workshops;
  --107 computer-based assessments; and
  --217 SAVs.
    In addition, the National Cyber Security Division (NCSD) within 
NPPD's Office of Cybersecurity and Communications conducts 
cybersecurity evaluations of critical infrastructure and key resources 
(CIKR) networks and industrial control systems. NPPD/NCSD has conducted 
these assessments through the Cyber Security Evaluations Program and 
the Control Systems Security Program since fiscal year 2009, and the 
demand for the program has grown each year. The total number of 
assessments conducted to date includes:
  --Cyber Security Evaluations Program assessments:
    --fiscal year 2009: 17;
    --fiscal year 2010: 58; and
    --fiscal year 2011 (as of July): 65.
  --Control Systems Security Program assessments:
    --fiscal year 2009: 20;
    --fiscal year 2010: 52; and
    --fiscal year 2011 (as of July): 63.
    NPPD/NCSD also provides its public- and private-sector partners 
with the cyber security evaluation tool (CSET) at no cost to them. CSET 
enables users to conduct systematic and repeatable self-assessments of 
the security posture of their cyber systems and networks. It includes 
high-level and detailed questions related to information technology and 
industrial control systems. CSET is available for download at http://
www.uscert.gov/control_systems/satool.html or as a DVD.
    NPPD's mission is to lead the national effort to protect and 
enhance the resilience of the Nation's physical and cyber 
infrastructure. With such a broad and diverse portfolio of 
responsibilities, it is critical that NPPD's programs have the 
resources to perform their current requirements while having the 
flexibility to manage emerging risks effectively.
    Like all DHS components, NPPD takes part in the DHS planning, 
programming, budgeting, and execution (PPBE) system to determine how to 
allocate its resources. The PPBE system is similar to the process used 
by the Department of Defense (DOD) and several other Federal 
departments and agencies to allocate their resources. Like DOD, DHS 
also practices resource planning over the 5-year Future Years Homeland 
Security Program period. Outyear planning enables NPPD to take a 
strategic approach to resource allocation so that both current and 
future needs can be anticipated and budgeted.
    To ensure that its programs are adequately resourced, NPPD is 
working to improve its internal decisionmaking processes. As NPPD 
matures, it is working to link its strategic planning, budgeting, and 
performance management processes. NPPD also is working to improve the 
integration of business lines across its various subcomponents.
                                 ______
                                 
              Questions Submitted by Senator Daniel Coats
               interoperable public safety communications
    Question. Resource constraints will make it difficult for Federal 
law enforcement and public safety agencies to make significant 
investments to continue upgrading mobile land radio systems, and to 
invest in broadband communications systems. Just within the Department 
of Homeland Security (DHS), U.S. Immigration and Customs Enforcement 
(ICE) has requested no funds to continue to upgrade its tactical 
communications in fiscal year 2012. Is the Federal Government falling 
behind the States and locals in radio communications due to resource 
constraints?
    Answer. According to the National Communications Capabilities 
Report developed in May 2008, by the Office of Emergency Communications 
(OEC) within DHS' National Protection and Programs Directorate (NPPD), 
the ability to achieve interoperable emergency communications varies 
widely across the Federal Government as agencies work to meet Federal 
communications mandates, deliver reliable communications using legacy 
systems, and meet mission-critical communications requirements. DHS 
components continue to develop and refine their tactical communications 
systems across the United States to meet their mission of protecting 
the homeland.
    DHS components are focusing efforts primarily on land mobile radio 
technology as the current source of mission-critical voice and data 
communications. The Department has acknowledged the emergence of 
broadband as a significant technology for the future and seeks to plan 
and prepare for the convergence of this capability with current land 
mobile radio technology.
    To avoid a potential technology gap, it is essential that future 
public-safety technologies can be used by all levels of government. To 
that end, DHS has led efforts to define Federal requirements and 
mission assessments for broadband internally in the One DHS Emergency 
Communications Committee and among Federal departments and agencies 
through the Emergency Communications Preparedness Center.
    Through the establishment of high-level requirements, the 
Department and the Federal responder community will be better 
positioned to invest in and adopt broadband as part of a tool-kit 
approach to emergency communications capabilities. DHS, through NPPD/
OEC, also is working closely with key public-safety organizations and 
jurisdictions that are implementing next-generation public-safety 
technologies such as broadband. Through these relationships with 
broadband-waiver recipients, the Federal Government's public-safety and 
homeland security organizations are able to maintain awareness of and 
fully support the efforts and advancements of technology led by these 
entities.

                         CONCLUSION OF HEARING

    Senator Landrieu. This meeting is recessed. Thank you all 
for attending.
    [Whereupon, at 4:27 p.m., Wednesday, June 8, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
